NO. 20-

(CAPITAL CASE)

IN THE
SUPREME COURT OF THE UNITED STATES
REINALDO DENNES,
Petitioner,
v.
LORIE DAVIS, Director,
Texas Department of Criminal Justice (Institutional Division),
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
APPENDIX
KENNETH W. MCGUIRE*
McGuire Law Firm
P.O. Box 79535
Houston, Texas 77279
(713) 223-1558
kennethmcguire@att.net
*Counsel of Record

Counsel for Petitioner, Reinaldo Dennes

APPENDIX CONTENTS
APPENDIX A: Per Curiam Fifth Circuit Opinion and Order Denying Certificate of
Appealability, Dennes v. Davis, No. 17-70010 (January 6, 2020) ..................................................... 1a
APPENDIX B: Per Curiam Fifth Circuit Order Denying Petition for Rehearing,
Dennes v. Davis, No. 17-70010 (March 3, 2020) ............................................................................ 22a
APPENDIX C: Merits Brief of Appellant, Dennes v. Davis, No. 17-70010, United
States Court of Appeals for the Fifth Circuit (July. 29, 2019).......................................................... 23a
APPENDIX D: Memorandum Opinion and Order of the United States District
Court for the Southern District of Texas, Dennes v. Davis, No. 4:14-CV-00019 (Mar.
22, 2017) ............................................................................................................................................ 65a
APPENDIX E: Per Curiam Order of the Texas Court of Criminal Appeals, Ex parte
Dennes, No. WR-34,627-02 (Dec. 18, 2013) ................................................................................ 107a
APPENDIX F: Findings of Fact and Conclusions of Law Recommended by Jim
Wallace, Presiding Judge, 263rd District Court, Harris County, Texas, Ex parte
Dennes, No. 750313-A (Aug. 21, 2013)......................................................................................... 109a

Case: 17-70010

Document: 00515259502

Page: 1

Date Filed: 01/06/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 17-70010

FILED
January 6, 2020
Lyle W. Cayce
Clerk

REINALDO DENNES,
Petitioner - Appellant

v.
LORIE DAVIS, Director, Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent - Appellee

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:14-CV-19

Before JONES, SMITH, and DENNIS, Circuit Judges.
EDITH H. JONES, Circuit Judge:*
Reinaldo Dennes ("Dennes"), a Texas death row inmate, seeks review of
the district court's denial of his federal habeas petition.

We granted a

certificate of appealability ("COA") on his claims that the State wrongly
suppressed impeachment evidence in violation of Brady v. Maryland and

Banks v. Dretke. We AFFIRM the district court's denial of relief on those
claims and DENY a COA on Dennes's challenges to the selection of two jurors.

* Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.

App.AI

Case: 17-70010

Document: 00515259502

Page: 2

Date Filed: 01/06/2020

No. 17-70010
I. Background
On September 4, 1997, Dennes was convicted of capital murder and
sentenced to death for the murder of Janos Szucs during the commission of a
robbery. The Texas Court of Criminal Appeals ("TCCA") affirmed his sentence
and conviction on direct appeal. See Dennes v. State, No. 72,966 (Tex. Crim.
App. Jan. 5,2000). Dennes filed a state application for a writ of habeas corpus,
which the TCCA denied based on the findings of fact and conclusions of law
made by the trial court. See Ex Parte Dennes, No. WR-34,627-02, 2013 WL
6673058 (Tex. Crim. App. Dec. 18,2013).
Dennes then sought federal habeas relief on thirty-three grounds in the
Southern District of Texas. The district court denied habeas relief on all
grounds and denied a COA, finding that "each of Dennes's claims" was
"foreclosed by clear, binding precedent." Dennes v. Davis, 2017 WL 1102697,
at *17 (S.D. Tex. Mar. 22, 2017). Dennes then sought a COA from this court,
which we granted limited to the following three issues:
1. the claim that the state suppressed evidence that Balderas was

a "long-time informant" for law enforcement in Harris County,
Texas; and
2. the claim that the state suppressed evidence or denied due
process by not timely revealing information about Balderas's,
Fugon's, and Elvira's participation in the Tsang robbery; and
3. how petitioner satisfies the cause/prejudice standards for not
having raised these issues in the state court.
The TCCA summarized the relevant facts of the crime in its opinion on
direct appeal:
In December of 1995, Antonio Ramirez came from Ecuador to
work in Texas. Shortly after his arrival, Ramirez met a man

2
App. A2

Case: 17-70010

Document: 00515259502

Page: 3

Date Filed: 01106/2020

No. 17-70010
named Francisco Rojas who sold jewelry for [Dennes].1 Some time
later, Ramirez gave several rings to Rojas that he wanted to sell.
Rojas then took Ramirez and the rings to [Dennes] at [Dennes]'s
office in the Greenrich Building on Richmond Avenue. During this
visit, Ramirez noticed a lathe in [Dennes]'s jewelry workshop and
began to play with it. [Dennes] asked Ramirez if he knew how to
operate the machine and Ramirez said that he did. [Dennis] then
"hired" Ramirez to make watch bezels for him. 2

Shortly thereafter [Dennes] invited Ramirez to travel to Mexico
with him to buy a diamond. After the diamond purchase, the pair
returned to Texas and [Dennes] gave Ramirez more work. In early
January, 1996, [Dennes] made a sketch for Ramirez and asked him
if he could make the object depicted. By the time he completed the
job, Ramirez had manufactured what turned out to be a silencer
for [Dennes]. After the silencer was completed, [Dennes], his
brother Alberto, and Ramirez went to a field a few minutes away
to test it. Thinking the silencer did not work as it should, [Dennes]
modified his design and had Ramirez make another one. [Dennes]
test fired this model in his office.
Shortly after the completion of the second silencer, [Dennes]
asked Ramirez to help him and Alberto rob a jewelry dealer who
also had an office in the Greenrich Building. [Dennes] explained
that he would take the videotape from the security station while
Ramirez secured the diamonds and Alberto shot the dealer.
Ramirez consented, but returned to South America two days
later. 3
Estrella Martinez, [Dennes]'s lover, had a cleaning job at the
Greenrich Building. In January of 1996, [Dennes] told Martinez
he wanted her to let him in a side door of the building after working
hours. He told her he was going to take some videotapes from the
security guard's station on the first floor. On January 22, 1996,
[Dennes] gave Martinez a cellular phone with which he planned to
call her to tell her when to let him and Alberto into the building.

1

[Dennes] ran a business called "Designs by Reinaldo."

2 Ramirez stated that he did not expect to be paid for this work, but thought it would
be a good thing to do while waiting to get money from the sale of his rings.
3 Ramirez testified that he only consented so as not to alarm the Dennes brothers;
however, he had no intention of helping them.

3
App.A3

Case: 17-70010

Document: 00515259502

Page: 4

Date Filed: 01/06/2020

No. 17-70010
[Dennes] also wanted Martinez to distract the guard so he could
take the tapes.
Janos Szucs was a reputable wholesale diamond dealer who had
an office in the Greenrich Building. Shortly before his death, Szucs
had a diamond inventory worth more than $3,600,000 which he
kept in his office safe. He also had approximately $200,000 in cash
that he planned to use to purchase diamonds on an upcoming trip.
Szucs did not have a receptionist or secretary; access to his office
was controlled through an electronically-locked door. Szucs had a
television monitor in his office so he could see who was at the door
and he would allow people in by pushing a remote button located
on his desk. In early January 1996, Szucs and Sam Solo may
formed a partnership and Solomay moved into Szucs's office suite.
On January 24th, Solomay left the office at 5:40 p.m., but Szucs
remained, explaining that he had an appointment that evening.
David Copeland was the security guard on duty at the Greenrich
Building that evening, working the 3:00 p.m. to 11:00 p.m. shift. A
videotape recorder at the security desk recorded the images from
the security cameras around the building. When Copeland arrived
for his shift, a technician was there working on the surveillance
system.
Around 6:30 p.m. that same evening, [Dennes] called Martinez
on the cellular phone he had provided her and told her to open the
loading dock door. [Dennes] and Alberto entered and immediately
turned into a stairwell, thereby avoiding the security guard's desk.
Shortly after 7:00 p.m., [Dennes] called Martinez and told her to
distract the security guard. Martinez told Copeland that she had
locked her keys in a fifth floor office and asked him to help her
retrieve them. A little after 7:30 p.m., [Dennes] again called
Martinez and told her that he needed another distraction. The
security guard kept the key to the snack bar so Martinez
approached Copeland and told him that she needed to clean the
area and asked if he would let her in. Shortly after Martinez began
cleaning, however, the owner of the snack bar arrived and told her
to come back later.
When Copeland returned to the lobby, he found a man kneeling
behind the security desk apparently working on the security
system. Copeland assumed this was related to the earlier repairs.
As Copeland approached, the man scrambled to his feet and
walked briskly toward the loading dock door. As Copeland neared
4

App.A4

Case: 17-70010

Document: 00515259502

Page: 5

Date Filed: 01/06/2020

No. 17-70010
the security desk, the man turned and headed back toward the
guard. When he reached Copeland, the man placed his left hand
on Copeland's shoulder, stuck a .9 mm gun with a silencer to
Copeland's chest with his other hand and fired. The man shot the
guard again after he had fallen. As Copeland lay there playing
dead, he heard the man walk to the security desk. He then heard
equipment and wires being moved around followed by footsteps
running toward the loading dock door. 4 The owner of the snack
bar called "911."
Houston Police Officer Paul Terry arrived on the scene to find
Copeland lying face down in the lobby. Copeland told Terry what
had happened and the officer unsuccessfully searched for a
suspect. Inside the lobby, Terry found spent shell casings and
fragments of a fired bullet. He also noticed that the video
equipment was missing.
That same evening, Szucs's wife, Nicole, became concerned that
her husband had not arrived home. After several failed attempts
to reach her husband, she received a call from a friend who worked
in the Greenrich Building who told her that the building guard had
been shot. Nicole asked the friend to contact the building's office
manager. Sometime after 11:00 p.m., the building manager
approached one of the officers remaining at the scene. Officer M.R.
Furstenfeld and a couple of other officers then accompanied the
manager to Szucs's suite to check on his welfare. Upon gaining
access to the office, Furstenfeld found Szucs's dead body.
Detectives who arrived at the scene noted no signs of a forced
entry. They also noticed that the safe was empty and there were
no signs of the $3.6 million dollar diamond inventory Szucs
maintained or the $200,000 he was supposed to have on hand in
cash. Plus, Szucs was not wearing the five-carat diamond pinky
ring he always wore nor was the ring ever recovered. 5 The

4 As she walked toward the restrooms, Martinez looked into the lobby and saw a man
in overalls approaching the guard with his hands behind his back. Martinez recognized this
person as [Dennes] by his walk, but noted that he was wearing a mustache and some sort of
disguise. Shortly after entering the bathroom, Martinez heard a strange sound. When she
returned to the lobby, Martinez saw the guard lying on the floor bleeding.

5 Nicole testified that her husband was wearing the ring that morning when she took
him to work.

5

App.A5

Case: 17-70010

Document: 00515259502

Page: 6

Date Filed: 01/06/2020

No. 17-70010
detectives also discovered that Szucs's computer had been
damaged as if someone had tried to remove a disc with tweezers. 6
The police eventually focused their investigation upon
[Dennes]. A search of his office revealed a lathe that had been
broken down and boxed up, a fired .9 mm bullet, and an owner's
manual for a.9 mm Taurus handgun. Firearms examiner Robert
Baldwin determined that the bullets recovered from Szucs's body,
the bullet found in [Dennes]'s office, and the bullets found in the
lobby of the Greenrich Building were all fired from the same gun.
Moreover, the cartridge casings found in the lobby of the Greenrich
Building and those found in the field where [Dennes] tested the
silencer were fired from the same gun. The weapon was
determined to be either a Taurus or a Beretta .9 mm handgun.

Dennes, slip op. at 2-7 (Tex. Crim. App. Jan. 5, 2000) (footnotes in original).
Evidence presented at the punishment phase of trial contributed to the
jury's findings that it was probable that Dennes would commit acts of criminal
violence constituting a continuing threat to society and that he caused and
intended Szuc's death or anticipated that a human life would be taken. The
jury was informed that Dennes had been placed on deferred adjudication for
180 days for indecent exposure.
Relevant here, and more important, Dennes was linked to another
robbery that took place in 1995, within a few months of the Szucs murder.
Specifically, Dennes had approached an acquaintance, David Balderas, to
suggest robbing diamond courier Albert Ohayon, whom Dennes knew from
past employment. Balderas testified that he acted as a middleman between
Dennes and the perpetrators, Hector Fugon and Francisco Elvira, to carry out
the 1995 robbery. Dennes's involvement was significant: he suggested that
Balderas commit the robbery himself or find others to do so, met with Balderas,
Fugon, and Elvira at a fast food restaurant to discuss the robbery; provided
Balderas with the address and drove Balderas to the neighborhood to show

6

Szucs kept his diamond inventory records on the computer.

6
App.A6

Case: 17-70010

Document: 00515259502

Page: 7

Date Filed: 01/06/2020

No. 17-70010
him the house; and contacted Balderas when he learned the occupant was
home.

As it turned out, Fugon and Elvira, at the direction of Balderas,

mistakenly invaded the home belonging to Danny Tsang, not Albert Ohayon.
They terrorized the Tsang family, took some jewelry, a watch, a camera, some
clothing, a gun, and a stereo system, and fled in Tsang's car. When the police
checked on Ohayon the following day, they learned he was in the diamond
wholesale business and had just returned from a trip with approximately
$500,000 worth of diamonds.
II. Standards of Review

Under the Antiterrorism and Effective Death Penalty Act of 1996
("AEDPA"), "our review [of Dennes's habeas petition] is limited by the COA."

Adekeye v. Davis, 938 F.3d 678, 682 (5th Cir. 2019). "COAs are granted on an
issue-by-issue basis, thereby limiting appellate review to those issues alone."

Id. (citing Lackey v. Johnson, 116 F.3d 149, 151 (5th Cir. 1997». To merit a
COA, a petitioner must "demonstrate that reasonable jurists would find the
district court's assessment of the constitutional claims debatable or wrong."

Miller-El v. Cockrell, 537 U.S. 322, 338, 123 S. Ct. 1029, 1040 (2003) (internal
quotation marks and citations omitted).
Further, under AEDPA, federal "court[s] may not grant habeas relief on
a claim that a state court has adjudicated on the merits," Harrison v.

Quarterman, 496 F.3d 419, 424 (5th Cir. 2007), unless the state courts' decision
"was contrary to, or involved an unreasonable application of, clearly
established Federal law ... ," 28 U.S.C. § 2254(d)(1), or "was based on an
unreasonable determination of the facts in light of the evidence presented in
the State court proceedings." 28 U.S.C. § 2254(d)(2). When assessing a denial
of habeas relief, "we review the district court's findings of fact for clear error
and its conclusions oflaw de novo." Dorsey v. Stephens, 720 F.3d 309, 314 (5th
Cir.2013).
7

App.A7

Case: 17-70010

Document: 00515259502

Page: 8

Date Filed: 01/06/2020

No. 17-70010
III. Discussion

A. Brady Claims
With respect to the district court's denial of his Brady claims, Dennes
contends the State suppressed material impeachment evidence that:
(1) Balderas 7 was a police informant;8 and (2) parts of Fugon's and Elvira's
testimony at their separate trial impeached important aspects of Balderas's
testimony concerning the Tsang robbery.9 Dennes also asserts that he can
show cause and prejudice for his failure to present relevant facts in support of
his Brady claim in state court. Dennes contends that the State deliberately
delayed disclosure of this impeachment evidence and suppressed critical
information about the Tsang robbery, such that Dennes's counsel could not
make effective use of the information at trial. 10 The district court denied all of
Dennes's Brady claims because "the bulk of the allegedly suppressed evidence
was available to Dennes and was not suppressed within the meaning of Brady;"

7 Balderas was called as a witness during the punishment phase and testified that he
was never arrested or charged for the Tsang robbery, that he told prosecutors everything he
knew about the Tsang robbery, and that he hoped to receive immunity for his role in the
robbery in exchange for his testimony.
8 Until Dennes petitioned this court for a COA, his claims regarding Balderas's status
as a police informant focused on an undisclosed contractual arrangement between Harris
County and Balderas in which the State dismissed two criminal charges against Balderas in
exchange for his providing information unrelated to Dennes's case. In his COA petition,
Dennes placed much greater emphasis on his claim that Balderas had an "ongoing-informant
relationship" with the State that lasted ten years and existed during Dennes's trial. Neither
the TCCA nor the district court addressed this point below.
9 Specifically, Dennes argues that during their trial for the Tsang robbery, (1) Fugon
and Elvira both failed to identify Dennes as being involved; (2) Fugon denied knowing
Balderas and denied that Balderas was involved in the Tsang robbery; and (3) Elvira never
identified Balderas or Dennes as being involved in the Tsang robbery.
10 Specifically, Dennes argues that if his trial counsel had received timely advance
notice of the Tsang robbery, "trial counsel could have moved for a continuance of Dennes's
trial until exculpatory witnesses Fugon and Elvira no longer had a Fifth Amendment
privilege against self-incrimination, after their appeals became final, and Dennes could then
compel their exculpatory testimony."

8
App.A8

Case: 17-70010

Document: 00515259502

Page: 9

Date Filed: 01/06/2020

No. 17-70010
Dennes "fail[ed] to demonstrate that the evidence was material;" and at least
some of his allegations were procedurally barred for failure to exhaust state
court remedies. Dennes, 2017 WL 1102697, at

~6-7.

To establish a Brady violation, Dennes had to prove that (1) the
prosecution actually suppressed evidence, (2) the suppressed evidence was
favorable to him, and (3) the suppressed evidence is material. See Kyles v.

Whitley, 514 U.S. 419, 433-34, 115 S. Ct. 1555, 1565-66 (1995); see also
Strickler v. Greene, 527 U.S. 263, 281-82, 119 S. Ct. 1936, 1948 (1999) ("The
evidence at issue must be favorable to the accused, either because it is
exculpatory, or because it is impeaching; that evidence must have been
suppressed by the State, either willfully or inadvertently; and prejudice must
have ensued.").

Evidence is considered material "if there is a reasonable

probability that, had the evidence been disclosed to the defense, the result of
the proceeding would have been different."

United States v. Bagley,

473 U.S. 667, 682, 105 S. Ct. 3375, 3383 (1985). "A 'reasonable probability' is
a probability sufficient to undermine confidence in the outcome." Id.; see also

United States v. Sipe, 388 F.3d 471,485 (5th Cir. 2004). But if the suppressed
evidence was discoverable through due diligence, a petitioner's Brady claim
necessarily fails. United States v. Brown, 650 F.3d 581, 588 (5th Cir. 2011),

cert. denied, 566 U.S. 970, 132 S. Ct. 1969 (2012).
1. Evidence Concerning Balderas's Status as a Police Informant

In his motion for a new trial in state court, Dennes alleged that
Balderas's status as a police informant was material impeachment evidence
that had been suppressed from the defense. Specifically, Dennes asserted that
the state failed to disclose a contractual arrangement with Harris County
involving different criminal offenses from those in Dennes's case, and that the
state had dismissed two criminal charges against Balderas in exchange for his

9
App.A9

Case: 17-70010

Document: 00515259502

Page: 10

Date Filed: 01/06/2020

No. 17-70010
providing information also unrelated to Dennes's case. The deal allegedly
prompted Balderas to testify falsely against Dennes.
The state courts rejected these contentions.

The state trial court

evaluated the evidence of dealings between Harris County and Balderas and
concluded it did not see "the relevancy at all with regard to the trial of
[Dennes's] case or the testimony of anybody that has provided any evidence in
[Dennes's] case regarding the effect of these documents on [Balderas's]
testimony."

Indeed, the trial court emphasized that because the contract

involved wholly different offenses and the parties had fulfilled their
contractual obligations months before Dennes's trial began, this evidence
provided no incentive for Balderas to taint his testimony in favor of the State.
The TCCA agreed, holding, "As [Balderas] had no relation to the instant case
and the contract was completed before the trial in [Dennes's] case, [Dennes]
fails to show there was a reasonable probability the outcome of the trial would
have been different."
The district court also agreed that the completed contract between
Harris County and Balderas was not impeachment material because it
provided no reason for Balderas to fabricate his testimony against Dennes. See

Dennes, 2017 WL 1102697, at *6.
In his brief to this court, Dennes argues that the information about these
dealings is material because it shows a relationship between Balderas and the
State, which he analogizes to the relationship between the sheriffs office and
the informant who was a star witness at the Banks capital murder trial. Banks

v. Dretke, 540 U.S. 668, 693-94, 124 S. Ct. 1256, 1273-74 (2004). In Banks,
the Supreme Court held that a Brady violation had occurred where the
prosecution failed to turn over evidence of a money payment to the testifying
informant for his involvement in the case against defendant Banks. 540 U.S.
at 685, 124 S. Ct. at 1269. Banks is distinguishable, among other reasons,
10
App. AIO

Case: 17-70010

Document: 00515259502

Page: 11

Date Filed: 01/06/2020

No. 17-70010
because the arrangement between Balderas and Harris County existed prior
to and wholly independent of the case against Dennes. l l And the Bagley case
is distinguishable because there, the witness received a benefit from testifying,
whereas Balderas received none in this case. Bagley, 473 U.S. at 671-72,
105 S. Ct. at 3378-79 (1985). As to this element of the claim, which was
exhausted in the state courts, the TCCA did not unreasonably apply governing
Supreme Court law by denying relief.
Dennes also seeks to enhance his Brady claim by asserting that the State
failed to disclose that Balderas was an ongoing informant for Harris County
from at least 1989 through 1999, two years after Dennes's trial. Dennes raised
this argument about Balderas's ongoing informant status for the first time in
his petition for a COA from this court. Dennes makes three claims based on
this allegation: 1) at trial, the State falsely represented that Balderas was not
an ongoing informant at the time of Dennes's trial; 2) this was valuable
impeachment evidence that Brady compelled the state to provide the defense
and which could have been used to attack Balderas's credibility under Davis v.

Alaska, 415 U.S. 308 (1974); and 3) the State trial court suggested it may have
ruled differently "if there was an ongoing relationship."
Several procedural hurdles must be overcome for Dennes to succeed on
this argument. The evidence in support of his contention that Balderas was
an ongoing informant for the State derives from statements made by
Balderas's attorney in a federal court sentencing hearing in 1999, the
transcript of which was never presented to the state courts. Federal courts are
precluded, absent limited circumstances, from considering evidence in habeas

11 Dennes's related claim, raised for the first time in federal court, that Balderas's
drug charges were dismissed as consideration for his testimony in Dennes's case, is not only
entirely speculative but is procedurally barred because he failed to present the claim to the
TCCA for review on either direct appeal or in his state habeas application, as recognized by
the district court. See 28 U.S.C. § 2254(b)(1); Dennes, 2017 WL 1102697, at *6-7.

11

App. All

Case: 17-70010

Document: 00515259502

Page: 12

Date Filed: 01/06/2020

No. 17-70010
proceedings that was not produced before the state courts for adjudication on
the merits. Cullen v. Pinholster, 563 U.S. 170, 185, 131 S. Ct. 1388, 1400-01
(2011). On that basis alone, this claim fails. But to the extent that Dennes
raises this as a standalone Brady claim, it is also procedurally barred by not
having been raised at all in the state courts. See 28 U.S.C. § 2254(b)(1).
Dennes attempts to show cause and prejudice as a means to overcome
the procedural bar against his unexhausted claim and to avoid AEDPA's
limitation on federal courts' review to evidence developed in state court
records.

Dennes relies on Banks for the proposition that a petitioner can

overcome a procedural bar to a Brady claim if suppression of material
exculpatory evidence caused the default. Banks, 540 U.S. at 691, 124 S. Ct. at
1272.
Cause, in this context, means that the State prevented Dennes from
gaining access to the relevant Brady information. "[A] petitioner shows 'cause'
if 'the reason for his failure to develop facts in state-court proceedings was the
State's suppression of the relevant evidence.'" Murphy v. Davis, 901 F.3d 578,
597 (5th Cir. 2018) (quoting Banks, 540 U.S. at 691, 124 S. Ct. at 1272).
Dennes claims he was not aware of Balderas's alleged longstanding status as
an informant for Harris County because the State withheld the information.
But evidence is not suppressed under Brady if the defendant knew or should
have known of Balderas's status. Here, there is ample evidence to suggest
that, at minimum, Dennes should have known about Balderas's status.
At the motion for new trial hearing, Dennes's counsel argued that
Balderas "had a working relation and we believe the documents speak of an

ongoing working relationship with the State of Texas out of which he received
a dismissal of a major drug case ... that relationship with the State and his
desire to work with the state in order to secure dismissal of the case ... should
have been disclosed under Brady." During the course of these proceedings, the
12
App. A12

Case: 17-70010

Document: 00515259502

Page: 13

Date Filed: 01/06/2020

No. 17-70010
State also turned over Balderas's informant contract to the trial court and

acknowledged his informant relationship with the State.

And, as if this

evidence were not enough, Dennes's counsel proffered the testimony of
Balderas's attorney, John Munier, who was present at the motion for new trial
hearing and was willing to testify about Balderas's informant relationship with
the State. 12 Taken together, these points establish that Dennes had, if not
actual knowledge, sufficient opportunity to learn of Balderas's status by the
conclusion of the motion for new trial hearing.
Dennes claims, however, he first learned of Balderas's status from the
transcript of Balderas's 1999 sentencing hearing. But supposing this is true,
the TCCA did not decide his direct appeal until Jan. 5, 2000, and his state
habeas

appeal

remained

pending

until

2013.

Dennes

v.

Davis,

2017 WL 1102697, at *3 (S.D. Tex. Mar. 22,2017). Thus, since Dennes should

have been aware during state court proceedings, he could have supplemented
his brief or raised this suppression issue in state courts before filing his federal
habeas petition. 13
Even assuming arguendo that Dennes's long-term informant status was
"suppressed," it is not material. "Unless suppressed evidence is material for

Brady purposes, [its] suppression [does] not give rise to sufficient prejudice to

12 John Munier was Balderas's attorney who also later handled Balderas's 1999
sentencing hearing, the transcript of which allegedly notified Dennes of Balderas's ongoing
relationship with the State.

Dennes claims that he could not have raised this suppression issue in state habeas
proceedings because the TCCA would have treated an amendment to his habeas application
as a successor petition. But if the 1999 hearing did reveal new and suppressed information,
then it would have satisfied the successor petition standard that the "current claims and
issues have not been and could not have been presented previously in a timely initial
application or in a previously considered application filed under this article or Article 11.07
because the factual or legal basis for the claim was unavailable on the date the applicant filed
the previous application[.]" E.g. TEx. CODE CRIM. PROC. ANN. ART. 11.071 § 5(a)(1) (West
2003).
13

13
App. Al3

Case: 17-70010

Document: 00515259502

Page: 14

Date Filed: 01/06/2020

No. 17-70010
overcome [a] procedural default." Banks, 540 U.S. at 698, 124 S. Ct. at 1276
(quotation marks and citations omitted). The test for materiality and prejudice
is whether "there is a reasonable probability that, had the evidence been
disclosed to the defense, the result of the proceeding would have been
different." Bagley, 473 U.S. at 682, 124 S. Ct. at 1276; Banks, 540 U.S. at 698,
124 S. Ct. at 1276; Strickler, 527 U.S. at 280, 119 S. Ct. at 1948. Balderas's
conflict of interest had already been made glaringly obvious to the jury. At the
time of Dennes's trial, Balderas had not received an official offer of immunity
in exchange for his testimony, and Dennes's counsel drew significant attention
to this fact. Additionally, and contrary to the narrative Dennes attempts to
craft suggesting that Balderas willingly helped the prosecution, Balderas
testified that the prosecution subpoenaed his testimony. That Balderas was
involuntarily "drug" into court suggests he did not take the stand pursuant to
an ongoing relationship with the State. Moreover, Munier's testimony at the
1999 sentencing hearing affirmed that Balderas received no benefit for his
testimony.
Evidence of Balderas's long-time informant status would have been, at
best, cumulative proof of bias. But cumulative impeachment is not material.
''Undisclosed evidence that is merely cumulative of other evidence is not
material[.]" Rocha v. Thaler, 619 F.3d 387, 396 (5th Cir. 2010); see Canales v.

Stephens, 765 F.3d 551, 575-76 (5th Cir. 2014) (finding that suppressed
evidence of inmate-witnesses receiving assistance with their housing and
parole issues in exchange for testimony was not prejudicial because "the jury
heard at least some of this information at trial," as "Canales's attorney at least
asked some inmate-witnesses about being encouraged to help the State in
exchange for benefits"); see also Felder v. Johnson, 180 F.3d 206, 213 (5th Cir.
1999) (citing United States v. Amiel, 95 F.3d 135, 145 (2d Cir. 1996)
("Suppressed evidence is not material when it merely furnishes an additional
14
App. A14

Case: 17-70010

Document: 00515259502

Page: 15

Date Filed: 01/06/2020

No. 17-70010
basis on which to impeach a witness whose credibility has already been shown
to be questionable."».
Additionally, circumstantial evidence strongly corroborates Balderas's
testimony. "[T]he impeached testimony of a witness whose account is strongly
corroborated by additional evidence supporting a guilty verdict ... generally is
not found to be material[.]" Rocha, 619 F.3d at 396-97 (quotation marks
omitted); see also Kopycinski v. Scott, 64 F.3d 223, 226 (5th Cir. 1995) (finding
that a witness leading police to the decedent's body was corroborative of his
testimony that the defendant had murdered the decedent such that "leading
the police to the body essentially makes his testimony unimpeachable").
The Tsang home invasion was undertaken for jewelry, as shown by
Fugon and Elvira's repeated demands for diamonds. Albert Ohayon and his
wife, Rachel, the likely intended targets of the robbery, lived just a few doors
away. Ohayon was a diamond salesman who had just returned to Houston
with approximately $500,000 worth of diamonds in his briefcase. Ms. Ohayon
testified that she knew Dennes from her work in the diamond business, and
that Dennes and her husband had worked for the same company, albeit at
different times. MGI, Ms. Ohayon's former place of employment, and Szucs
Jewelry were both subsidiary companies ofSatler's Jewelry, where Dennes had
worked.
Neither Balderas, Fugon, nor Elvira would have had any reason to know
where a diamond wholesaler lived. Balderas, for example, was an automobile
body shop worker. Moreover, both robberies occurred close in time, 14 both were
planned robberies of diamond wholesalers, and both were connected to the
company Dennes had previously worked for. Such evidence makes it unlikely
that a jury would have found Balderas to be any less credible based on his

14 The Tsang home invasion occurred on November 15, 1995. Szucs's robbery and
murder took place just over two months later, on January 24, 1996.

15
App. A15

Case: 17-70010

Document: 00515259502

Page: 16

Date Filed: 01/06/2020

No. 17-70010
alleged informant status on unrelated matters. Once again, Dennes is unable
to show materiality or prejudice.
Finally, several of Dennes's extreme claims about Balderas's "false"
testimony simply do not square with the record.

Dennes claims that the

prosecution falsely presented Balderas as an honest witness who came forward
of his own volition with information about the Tsang robbery and received
nothing but immunity in exchange for his participation. Yet Dennes offers
nothing except naked speculation to suggest this narrative is untrue. For
example, Dennes asserts that Balderas lied when he testified that he
"voluntarily" approached his brother-in-law, a Houston Police Department
(''HPD'') homicide detective, with information about the Tsang home invasion.
In support, Dennes points to Balderas's arrest for felony possession of
marijuana the same month he discussed the Tsang home invasion with the
HPD. Besides the sequence of events, however, Dennes offers no evidence that
there was a quid pro quo, the drug charges were dropped pursuant to a contract
that concluded prior to his testimony Dennes's trial, and Dennes ignores that
Balderas's testimony was subpoenaed. As another example, Dennes argues
that the prosecution lied about their intent to use Balderas as a witness. Not
only did the prosecution not have to disclose its witnesses or strategy at the
January 1997 pre-trial hearing, Dennes offers no evidence that raising the
Tsang home invasion or calling Balderas as a witness were definitive parts of
the State's strategy at that point. The State counters that there was no intent
to call Balderas until Fugon invoked his Fifth Amendment privilege and was
unavailable to testify while his conviction was pending on direct appeal. This
is corroborated by Officer Miller's 1996 letter indicating that he intended to
focus on securing Fugon's testimony against Dennes.
Dennes raises these claims of "false" testimony to avail himself of the
more lenient standard to establish prejudice under Giglio v. United States,
16
App. A16

Case: 17-70010

Document: 00515259502

Page: 17

Date Filed: 01/06/2020

No. 17-70010
405 U.S. 150, 154,92 S. Ct. 763, 766 (1972) ("A new trial is required if the false
testimony could ... in any reasonable likelihood have affected the judgment of
the jury ....") (internal quotation marks and citations omitted).

But, as

pointed out above, the allegations that the State knowingly used "false"
testimony are dubious at best and largely foreclosed by the record. In Giglio,
a key witness testified that he believed he could still be prosecuted for a crime
even though the State had granted him immunity in exchange for his
testimony.

Id. at 151-52, 765.

The prosecution's failure to correct this

blatantly false testimony led the Supreme Court to remand for a new trial.
Dennes has not shown that anything approximating that level of false
testimony occurred during his trial, and he is therefore held to the stricter
materiality standards under Brady. Accordingly, Dennes has failed to show
cause or prejudice to overcome the procedural barriers to his claims.

2. Evidence Concerning Fugon's and Elvira's Testimony
Dennes's remaining Brady claims assert that the State failed to disclose
until immediately before trial that the Tsang robbery would be offered as
evidence of extraneous crimes during any punishment phase. Specifically,
Dennes claims that the robbers' testimony at their trial for the Tsang home
invasion was known by the Harris County District Attorneys who were
handling that case,15 but that the State did not disclose Fugon's name or his
role in the crime until August 13, 1997, five days before the beginning of
testimony at the guilt phase of Dennes's case on August 18. Dennes asserts
his counsel had insufficient time to ascertain that both Fugon and Elvira had

15 Balderas offers a letter from 1996 that was faxed from an investigator in the Dennes
case to a then-prosecutor of Dennes regarding the investigator's discussions with Fugon,
Elvira, and Balderas. Because this letter does not appear to have been introduced in the
state courts, this court is prohibited from considering it. Pinholster, 563 U.S. at 185,
131 S. Ct. at 1400-01.

17
App. A17

Case: 17-70010

Document: 00515259502

Page: 18

Date Filed: 01/06/2020

No. 17-70010
testified that they did not know Balderas and that they could not identify

Dennes as an instigator of the Tsang robbery.16 Consequently, Dennes was
deprived of further impeachment evidence against Balderas, the only witness
presented by the State concerning Dennes's involvement in the Tsang robbery.
Dennes further argues that his federal habeas counsel only located Fugon's
testimony after "several months" because the State allegedly failed to provide
Dennes's trial counsel with Fugon's and Elvira's transcripts with enough time
to "make meaningful use of the impeachment information."
As with the late-breaking claims about Balderas's status as a long-term
police informant, the evidence of Fugon's and Elvira's testimony at the Tsang
robbery trial was not raised in the state courts and is therefore not amenable
to our consideration. Pinholster, 563 U.S. at 185, 131 S. Ct. at 1400-01. 17
In addition, the district court, ruling on the merits, observed that most
of this additional information originated from Fugon's trial, and thus "the bulk
of the allegedly suppressed evidence was available to Dennes."

Dennes,

2017 WL 1102697, at *6.

We agree that this evidence became available to Dennes at least in
sufficient time for him to have used it in state court proceedings. The Tsang
trial occurred almost a year before Dennes's capital murder trial. Fugon's and
Elvira's convictions were on appeal at the time of Dennes's capital murder
trial. Dennes had been informed in early 1996 of the State's plan to introduce
evidence of his connection to an extraneous home invasion robbery.

His

16 Dennes posed the timing issue in various ways in the state courts and was rebuffed.
To the extent that the timing ultimately raised only issues of state law, no federal
constitutional claims are involved.
17 Dennes's contention that his federal habeas counsel had to pry out the trial
testimony of Fugon and Elvira over "several months" rings hollow in light of the timing of
their trial in 1996 and the fact that the TCCA did not issue its ruling on Dennes's direct
appeal until January 5,2000.

18
App. Al8

Case: 17-70010

Document: 00515259502

Page: 19

Date Filed: 01/06/2020

No. 17-70010
counsel was given access to the HPD offense reports about the robbery, which
revealed the perpetrators' identities, before the beginning of the punishment
phase when the evidence of the Tsang robbery was introduced. Most important
for present purposes, even if, as counsel asserts, Dennes did not have timely
access to the FugonlElvira trial transcript during his own trial, the transcript
was certainly available during the over-two-year interlude between Dennes's
conviction and the rendering of the TCCA opinion affirming his conviction in
2000. The State has no obligation to provide exculpatory or impeachment
evidence that is available to the defense through the exercise of due diligence.

See Rector v. Johnson, 120 F.3d 551, 558-59 (5th Cir. 1997); see also Kutzner v.
Cockrell, 303 F.3d 333, 336 (5th Cir. 2002) ("Brady does not obligate the State
to furnish a defendant with exculpatory evidence that is fully available to the
defendant through the exercise of reasonable diligence."). The transcript was
not suppressed during state court proceedings, yet Dennes never sought to
offer it until his federal habeas petition.

As a result, this claim is also

unexhausted and procedurally barred from review in federal court. 28 U.S.C.
Sec. 2254(b)(1).

B. Jury Selection Claims
Dennes also seeks a COA based on a claim that the trial court violated
his Sixth and Fourteenth Amendment right to be tried by an impartial jury by
denying his challenges for cause to two prospective jurors. Dennes contends
that two venire members, Richard Miller and Martha Jean Gutierrez, were
biased and that challenges for cause should have been granted as to both
because their views would prevent or substantially impair the performance of
their duties as jurors in accordance with their oaths. Dennes argues that the
trial court erroneously required him to exercise his peremptory strikes to
remove those jurors, and he was denied effective use of additional peremptory
strikes whereby he would have removed two other allegedly biased jurors,
19
App. A19

Case: 17-70010

Document: 00515259502

Page: 20

Date Filed: 01/06/2020

No. 17-70010
Irene B. Collins and Belle Symmank. The TCCA rejected this claim on the
basis of state law.
The district court assumed arguendo that Miller and Gutierrez should
have been removed for cause according to federal constitutional law, but
because the record reflected that the trial court granted Dennes two additional
peremptory strikes, after which both parties "promptly accepted the next juror
on the list as the twelfth juror," Dennes failed to make any showing "that any
of the jurors, including the alternates, were not impartial."

Dennes,

2017 WL 1102697, at *12. The court reasoned that "[a]t most, Dennes was
forced to accept an alternate juror who he would have challenged if he had an
additional peremptory challenge," and thereby failed to demonstrate a Sixth
Amendment violation. Id.
The Sixth and Fourteenth Amendments guarantee an accused the right
to a trial by an impartial jury, but the forced use of a peremptory challenge
does not rise to the level of a constitutional violation. See Ross v. Oklahoma,
487 U.S. 81, 85-88, 108 S. Ct. 2273, 2277-78 (1988). Rather, a "district court's
erroneous refusal to grant a defendant's challenge for cause is only grounds for
reversal if the defendant establishes that the jury which actually sat to decide
his guilt or innocence was not impartial." United States v. Snarr, 704 F.3d 368,
386 (5th Cir. 2013) (internal quotation marks and citation omitted); see also

Jones v. Dretke, 375 F.3d 352, 355 (5th Cir. 2004) ("As a general rule, a trial
court's erroneous venire rulings do not constitute reversible constitutional
error 'so long as the jury that sits is impartial.'" (internal citation omitted)).
Even assuming that the trial court should have granted Dennes's
challenges for cause, Dennes cannot establish a constitutional violation
because he used peremptory strikes to exclude both Miller and Gutierrez from
the jury. See Ross, 487 U.S. at 85-88, 108 S. Ct. at 2277-78. Therefore, "[a]ny
claim that the jury was not impartial . . . must focus not on [Miller and
20
App.A20

Case: 17-70010

Document: 00515259502

Page: 21

Date Filed: 01/06/2020

No. 17-70010
Gutierrez], but on the jurors who ultimately sat." Id. at 86, 108 S. Ct. at 2277.

Although Dennes asserts that Collins and Symmank were actually biased
jurors who sat on his guilt-innocence and punishment phases of trial, he fails
to identify how or why they were biased or why his counsel did not use
peremptory strikes to remove them. Accordingly, there was no constitutional
violation because the challenged jurors were removed from the jury by
Dennes's use of peremptory challenges and Dennes cannot establish that he
was sentenced by a partial jury. Id. Reasonable jurists would not debate the
district court's application of the law governing juror selection and peremptory
strikes in capital trials to the decisions made by the state courts.
IV. Conclusion
For the above-stated reasons, we AFFIRM the district court's denial of
Dennes's federal habeas petition insofar as it raises Brady issues and DENY
COA on the jury selection issues.

21
App. A21

Case: 17-70010

Document: 00515332382

Page: 1

Date Filed: 03/04/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 17-70010
REINALDO DENNES,
Petitioner - Appellant

v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee

Appeal from the United States District Court
for the Southern District of Texas

ON PETITION FOR REHEARING
Before JONES, SMITH, and DENNIS, Circuit Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is denied.

ENTERED FOR THE COURT:
lsI EDITH H. JONES
UNITED STATES CIRCUIT JUDGE

App. A22

Case: 17-70010

Document: 00515054107

Page: 1

Date Filed: 07/29/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 17-70010

REINALDO DENNES,
Petitioner - Appellant

v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee.
On Appeal from the United States District Court
for the Southern District of Texas, Houston Division
No. 4:14-cv-0019; Hon. Sim Lake, Judge Presiding

APPELLANT'S MERITS BRIEF
*ORAL ARGUMENT REQUESTED IN THIS CAPITALIHABEAS CASE*

Kenneth W. McGuire
MCGUIRE LAW FIRM

Texas BarNo. 00798361
P.O. Box 79535
Houston, Texas 77279
TEL: 713-223-1558
FAX: 713-335-3340
Email: kennethmcguire@att.net

App. A23

Case: 17-70010

Document: 00515054107

Page: 2

Date Filed: 07/29/2019

CERTIFICATE OF INTERESTED PARTIES

No. 17-70010
REINALDO DENNES,

Petitioner - Appellant

v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,

Respondent - Appellee.
The undersigned counsel of record certifies the following listed persons have
an interest in the outcome of this case. These representations are made in order that
the judges of this court may evaluate their possible recusal or disqualification.
1. Lorie Davis, Respondent!Appellee. She is represented in the Fifth Circuit
by:
George D' Hemecourt
Office of the Attorney General
Postconviction Litigation Division
P.O. Box 12548, Capitol Station
Austin, Texas 78711-2548
Telephone: (512) 936-1400
Telecopier: (512) 320-8132
george.d 'hemecourt@oag.texas.gov
Jeremy C. Greenwell represented Ms. Davis in the district court.
2. Reinaldo Dennes, Appellant. Dennes is represented in the Fifth Circuit by:

ii

App.A24

Case: 17-70010

Document: 00515054107

Page: 3

Date Filed: 07/29/2019

Kenneth W. McGuire
MCGUIRE LAW FIRM

Texas Bar No. 00798361
P.O. Box 79535
Houston, Texas 77279
TEL: 713-223-1558
FAX: 713-335-3340
Email: kennethmcguire@att.net

The same counsel represented Dennes in the district court.
/s/ Ken McGuire
Kenneth W. McGuire

iii

App.A25

Case: 17-70010

Document: 00515054107

Page: 4

Date Filed: 07/29/2019

STATEMENT REGARDING ORAL ARGUMENT

Pursuant to FED. R. APP. P. 34(a), Petitioner Dennes respectfully requests
oral argument in this capital habeas/death penalty case. In support of this request,
Dennes would note that Dennes' Brady/Gig/io/Napue due process suppression and
false evidence claim relies heavily upon the record, and involves a complex set of
interrelated facts that are necessary to fully understand and adequately resolve the
claims and would be aided by oral argument. Oral argument and the assistance of
counsel in addressing any of the Court's questions would assist this Court in gaining
a full understanding of the facts and the law which form the basis of these claims.

iv

App.A26

Case: 17-70010

Document: 00515054107

Page: 5

Date Filed: 07/29/2019

TABLE OF CONTENTS
CERTIFICATE OF INTERESTED PARTIES ........•..................•..........••......... II
STATEMENT REGARDING ORAL ARGUMENT ....................................... IV
TABLE OF AUTHORITIES ............................................................................. VI
STATEMENT OF JURISDICTION ............................................................... VII

STATEMENT OF ISSUES FOR REVIEW .................................................. VIII
STATEMENT OF THE CASE .......................................................................... IX

SUMMARY OF ARGUMENT .......................................................................... IX
ARGUMENT ........................................................................................................ 1

I. THE TRIAL TESTIMONY OF DAVID BALDERAS ................................... 1
A. State Sentencing Phase Witness Balderas ..................................................... 1
B. False Testimony, False Representations, and Undisclosed Facts re: Balderas
3

C. Brady Suppression of Fugon's and Elvira's testimony contradicting Balderas
concerning Dennes' participation in the Tsang robbery ...................................... 8

II. STATE'S SUPPRESSION OF IMPEACHING INFORMATION .............. 8
A. Post-conviction Litigation of Brady/Napue Claim ...................................... 15
B. Banks Forecloses a Finding of Procedural Default ..................................... 16
i. Standard of Review....................... ..... ......... ........ ........ .......................... .. 16

III. CUMULATIVE MATERIALITY UNDER KYLES .................................. 18
A. Respondent Concedes No Available State Process ..................................... 30
CONCLUSION ................................................................................................... 30
CERTIFICATE OF COMPLIANCE ................................................................ 32

CERTIFICATE OF SERVICE AND CONFERENCE .................................... 33

v

App.A27

Case: 17-70010

Document: 00515054107

Page: 6

Date Filed: 07/29/2019

TABLE OF AUTHORITIES
SUPREME COURT CASES
Amadeo v. Zant, 486 U.S. 214 (1988) ................................................................... 18
Bagley v.- United States, 473 U.S. 667 (1985) ....................................................... 18
Banks v. Dretke, 540 U.S. 668 (2004) ........................................................... passim
Coleman v. Thompson, 501 U.S. 722 (1991) .............................................. 4, 18,31
Davis v. Alaska, 415 U.S. 308 (1974) ................................................................... 15
Delaware v. Van Arsdall, 475 U.S. 673 (1986) .................................................... 15
Giglio v. United States, 405 U.S. 150 (1972 ) ................................................ passim
Kyles v. Whitely, 514 U.S. 419 (1995) ...................................................... 11, 19,22
Mitchell v. United States, 526 U.S. 314 (1999) ..................................................... 13
Strickler v. Greene, 527 U.S. 263 (1999) ....................................................... 10, 16
Wearry v. Cain, 136 S.Ct. 1002 (2016) (per curiam) ................................. 19, 21, 25
Youngblood v. West Virginia, 547 U.S. 867 (2006)(per curiam) ........................... 11

STATUTES
28 U.S.C. § 2254(b)(1)(B)(i) ................................................................................ 30

vi

App.A28

Case: 17-70010

Document: 00515054107

Page: 7

Date Filed: 07/29/2019

STATEMENT OF JURISDICTION

The district court had subject matter jurisdiction under 28 U.S.C. § 2241. This
Court has appellate jurisdiction under 28 U.S.C. § 1291, after granting certificate of
appealability under 28 U.S.C. § 2253 on May 29,2019.

vii

App.A29

Case: 17-70010

Document: 00515054107

Page: 8

Date Filed: 07/29/2019

STATEMENT OF ISSUES FOR REVIEW
This Court granted the COA limited to the following issues:
1. the claim that the state suppressed evidence that Balderas was a "long-time

informant" for law enforcement in Harris County, Texas; and
2. the claim that the state suppressed evidence or denied due process by not timely
revealing information about Balderas's, Fugon's and Elvira's participation in the
Tsang robbery; and
3. how petitioner satisfies the cause/prejudice standards for not having raised these
issues in the state court.

viii

App. A30

Case: 17-70010

Document: 00515054107

Page: 9

Date Filed: 07/29/2019

STATEMENT OF THE CASE
Due to the extreme page limitations for an opening m.erits brief, we refer the
Court to the Motion for Certificate of Appealability for the Statement of the Case.

SUMMARY OF ARGUMENT
The state suppressed material Brady/Giglio impeaching evidence that key
sentencing phase witness Balderas was a corrupt, long-time informant for law
enforcement in Harris County, Texas committing serious crimes while acting as an
informant, and presented false evidence under Napue and Giglio before the trial
court and jury regarding its ongoing relationship with Balderas. The state also
suppressed exculpatory evidence and denied due process by not timely revealing
information about Fugon's and Elvira's participation in the Tsang robbery that
impeached Balderas' testimony concerning the Tsang robbery, including Balderas'
status as a corrupt informant while he participated in the Tsang robbery, or simply
invented his knowledge. Dennes satisfies the cause/prejudice standards under
Strickler v. Greene, Banks v. Dretke, and Coleman v. Thompson, for not having

raised these issues in the state court, because the state's suppression of this
information constitutes cause, and the cumulative total of the suppressed and false
evidence presented was material to the jury's decision to impose the death penalty,
and constitutes prejudice.

ix

App.A31

Case: 17-70010

Document: 00515054107

Page: 10

Date Filed: 07/29/2019

After grant of the issues stated in the Certificate of Appealability, Appellant
would respectfully show the Court the following:

ARGUMENT
I. The Trial Testimony of David Balderas
A summary of undisputed facts related to Appellant's Brady/Napue claim
regarding State's sentencing witness David Balderas ["Balderas"] is provided here
to help frame the issues the Court has instructed the parties to address. It is important,
therefore, to set forth these undisputed facts in summary fashion.
A. State Sentencing Phase Witness Balderas
David Balderas ["Balderas"] was the State's critical witness at the sentencing
phase. Balderas testified that he hired two Hispanic males, Fugon and Elvira,l to
commit a diamond robbery at the home of Danny Tsang, all at Dennes' instigation.
Balderas also testified under oath that he then voluntarily approached his brother-inlaw, a Houston Police Department homicide detective, over a family dinner in
February 1997, with information about Balderas' involvement in the crime, and that
the only benefit Balderas received was immunity for what he had told the police.
ROA.2S83-ROA.2S89.

I Fugon and Elvira received fifty and thirty-year state sentences for their participation in the robbery that Balderas
testified he orchestrated. Balderas was never charged or even arrested for the robbery he admitted to police he
orchestrated. See HPD Sgt. Todd Miller Letter to ADA Rosenthal, dated 7/9/1996. ROA.4708-ROA.471O.

1

App.A32

Case: 17-70010

Document: 00515054107

Page: 11

Date Filed: 07/29/2019

This is the sum total about Balderas disclosed by the prosecutors to the
defense and the jury. Critically, the Texas Court of Criminal Appeals found
Balderas' testimony was the only evidence linking Dennes to the Tsang home
invasion robbery. Direct Appeal Opinion, ROA.5266.
The prosecution relied heavily on Balderas's testimony before the jury. The
only other aggravating evidence presented at sentencing was the submission of a
single misdemeanor deferred adjudication probation for indecent exposure when Mr.
Dennes was in his early 30's. Thus Balderas's testimony about Mr. Dennes's alleged
participation in another armed robbery was the critical additive sentencing fact relied
upon by the prosecution to set the case apart from other murder cases un-deserving
of death. Unsurprisingly then, the prosecution urged the jury to find Mr. Dennes a
future danger and therefore worthy of the ultimate punishment, by argumg
strenuously at closing argument the facts attested to by David Balderas:
MR. SMYTH: Special Issue Number One [re: future dangerousness],
we all talked to you about that ... You think about Danny Tsang. You
think about Christina Tsang. You think about little nine-year-old
Christina Tsang. Does that help you answer that question? And what
is the answer? Yes, this man is a continuing threat to society.

***

Ladies and gentlemen, I don't want you to forget what this case is all
about. ... After Danny Tsang met the defendant, his life has been
changed forever. Defendant's hench men his life has been changed.
And even with Christina Tsang, huddled under her covers, a pillow
over her head, having never even seen the defendant's hench man, her
life has been changed forever.
ROA.2820; ROA.2842-ROA.2844.

2

App.A33

Case: 17-70010

Document: 00515054107

Page: 12

Date Filed: 07/29/2019

B. False Testimony, False Representations, and Undisclosed Facts re:
Balderas
Subsequent to trial, many new, critical, previously undisclosed facts were
revealed andlor discovered about Balderas, his testimony in this case, law
enforcement's handling of him, and the manner in which the prosecution developed
him as a witness and lied about many aspects of Balderas and his use as a critical
sentencing phase witness. These facts, too, are not in dispute.
At all times before, during, and after the trial, Harris County law enforcement
falsely presented Balderas as an honest witness who supposedly just came forward
of his own "good citizen" volition with his alleged information about the Tsang
robbery, and in exchange, received immunity for his participation in that robbery.
Nothing else.
What the prosecution hid from defense, the jury, and the trial judge, was a far
different picture about Balderas, and one that would have exposed Balderas to be
what U.S. District Judge Hinojosa later described as a "worthless" witness no jury
would find credible. The prosecution knowingly presented Balderas's false
testimony, and failed to inform jury, defense, or judge. Moreover, the prosecution
lied to the court and to the defense on multiple occasions about Balderas, his abjectly
false testimony, and his status as a longtime and ongoing informant for Houston
police. The prosecution in Mr. Dennes' case never affmnatively disclosed any of

3

App.A34

Case: 17-70010

Document: 00515054107

Page: 13

Date Filed: 07/29/2019

this, and it was only discoverable and discovered by post-conviction counsel well
after the possibility of timely presentation in any state court proceeding. 2
The prosecution team was well aware that Balderas had maintained a longstanding relationship as an informant for the Houston Police Department, from at
least 1989 until his federal sentencing in 1999. They never told anyone. Defense
counsel was oblivious, as was the jury. And, the trial judge, who mistakenly assumed
otherwise (because the prosecution had told him so) when denying Dennes' motion
for new trial precisely on the basis that Balderas was not an ongoing informant for
Houston police. (ROA.11943-ROA.11946). Prosecutors repeated to the trial court
the false evidence that there was no ongoing informant relationship between the
State and Balderas at the time of Balderas' testimony, and failed to disclose the
relationship. (ROA.11945-ROA.11946).
The facts of Balderas's ongoing status as an informant were revealed in a July
1999 federal court proceeding, in which Balderas had been indicted and convicted

2 During oral argument Judge Jones questioned whether state habeas counsel could have discovered Balderas'
suppressed status as a corrupt longtime HPD informant and amended the state habeas petition with this new evidence
so the CCA would have simply adjudicated the claim. The answer is no. Dennes exhausted his Balderas Brady claim
on direct appeal. Any state habeas petition filed after the initial habeas filing deadline is considered a successor petition
subject to the state successor bar. Art. 11.071 § 5. The State in its briefing argues Dennes' new Brady/Napue
suppression evidence concerning Balderas is barred from consideration under the Texas successor petition bar, unless
Dennes can show cause for the default and resulting prejudice under Coleman v. Thompson. ''Now, even if he were
given the opportunity to return to state court, there is no question that the CCA would dismiss any new application as
successive pursuant to Texas Code of Criminal Procedure Article 11.071, Section 5. See Fuller v. Johnson, 158 F.3d
903,906 (5th Cir. 1998) (fexas's abuse-of-the-writ doctrine is regularly and strictly applied); Nobles v. Johnson, 127
F.3d 409, 423 (5th Cir. 1997) (finding an unexhausted claim, which would be barred by the Texas abuse-of-the-writ
doctrine if raised in a successive state habeas petition, to be procedurally barred). Thus, Dennes' s new claim is barred
unless he can show cause for the default and resulting prejudice, or demonstrate that the court's failure to consider his
claim will result in a "fundamental miscarriage of justice." Coleman v. Thompson, 501 U.S. 722, 750 (1991}."
Respondent's Opposition to Application for Certificate of Appealability at 21-22.

4

App.A35

Case: 17-70010

Document: 00515054107

Page: 14

Date Filed: 07/29/2019

for a federal cocaine trafficking conspiracy while still serving as an infonnant for
Houston Police Department ("HPD"). ROA.4731-ROA.4732. (USA v. David
Balderas, Sentencing Transcript). Balderas's attorney in that federal case, John

Munier, a fonner prosecutor for the Harris County District Attorney, acknowledged
these facts in the sentencing proceedings in this case. ROA.4726-ROA.4731.
Balderas' longtime HPD infonnant status was even confinned by the federal
prosecutor Martinez in that same proceeding. ROA.4733-ROA.4734. Again, as for
Mr. Dennes' case, these facts were not disclosed by the State of Texas, but rather
were uncovered by federal habeas counsel through super-diligent efforts, and in any
event were not available until well after trial and after all state court post-trial
proceedings were over or unalterably underway.
Importantly, as the federal court record makes clear, Balderas was serving in
his infonnant status when he participated in the Tsang home invasion, and when he
testified at Mr. Dennes's sentencing phase trial. ROA.4730-31. This is critical: it

means that the State -- aware or at least presumed to be so under well-established
jurisprudence -- knowingly allowed Balderas to testify falsely at Dennes's trial, and
presented him, and the context within which he testified, in a decidedly false light
before the jury. The prosecution did so and yet never disclosed the false picture, or
their own complicity in it, to the jury, the judge, or defense counsel.

5

App.A36

Case: 17-70010

Document: 00515054107

Page: 15

Date Filed: 07/29/2019

Worse yet, and also never disclosed by the State, Balderas was not merely an
informant, but a decidedly corrupt one, one who was engaging in serious criminal
acts while serving as an HPD informant, and police and prosecutors knew this.
ROA.4726-ROA.4734. United States District Judge Hinojosa, observing at the
federal sentencing proceeding, without prompting or hesitation, made plain that with
regard to a witness like Balderas, one who was committing crimes as an active police
informant, there is "very serious distrust of that type of behavior" by juries. Balderas,
according to Judge Hinojosa, was "worthless to the government" as a witness before
a jury who knew this. No jury, Judge Hinojosa observed unremarkably, would trust
his testimony if made aware of this information. ROA.4726-ROA.4732 (United

States v. David Balderas, Sentencing Transcript, at p.8-l4).
In fact, Balderas' federal attorney Munier attempted to argue in mitigation

that Balderas was acting in his informant capacity for Houston Police Department
when he was arrested by federal agents for the cocaine trafficking conspiracy. Judge
Hinojosa had heard enough, applied his own credibility calculus to Balderas, and
refused to believe that was true. ROA.4732-ROA.4734.
Balderas also lied at Dennes' trial about what was at stake for him in exchange
for his testimony against Dennes. He testified that he "voluntarily" approached his
brother-in-law, a Houston Police Department homicide detective, with information
about Balderas' participation in the Tsang home invasion, and was never "arrested

6

App.A37

Case: 17-70010

Document: 00515054107

Page: 16

Date Filed: 07/29/2019

on something else that led you to talk to the DA about this offense." ROA.2583.
That was simply not true and the prosecution knew it full well.
In fact, Balderas was arrested on 2/4/1997 for felony possession of marijuana

for more than 50 but less than 200 Pounds in Cause No. 744292, 339th District
Court, Harris County, Texas. ROA.3674. The jury never knew this. This was the
same month that Balderas claimed as a good citizen he had voluntarily approached
his brother-in-law, the Houston Police Department homicide detective, with Tsang
robbery information. ROA.2588. Thus Balderas' trial testimony to the question,
"When did you get arrested on something else that led you to talk to the D.A. about
this offense? A. Never did" was also false. A true answer would have been highly
impeaching, and dramatically more so if Dennes' jury knew that, in addition to
committing the felony marijuana offense while Balderas was serving as an HPD
informant, Balderas orchestrated the Tsang home invasion while acting as a police
informant. Furthermore, although no documentary evidence has ever been disclosed
by the state, the February marijuana charge was dismissed by the Harris County
DA's office in May 1997, without explanation. That alone should have been revealed
to the defense, and thus the jury, as it clearly suggests this too was a benefit Balderas
received in exchange for his testimony against Dennes, testimony which was secured
by July 1996 according to HPD Sgt. Todd Miller and communicated to prosecutor

7

App. A38

Case: 17-70010

Document: 00515054107

Page: 17

Date Filed: 07/29/2019

Rosenthal. See HPD Sgt. Todd Miller Letter to ADA Rosenthal, dated 7/9/1996.
ROA.4708-ROA.4710.

c. Brady Suppression of Fugon's and Elvira's testimony contradicting
Balderas concerning Dennes' participation in the Tsang robbery
Balderas' trial testimony concerning the Tsang home invasion robbery also
conflicted with the statements of the two persons convicted for the Tsang home
invasion robbery, Luis Hector Fugon and Angel Francisco Tabares Elvira. Law
enforcement were well aware of this fact, and not only before the trial, but over a
year before it. See HPD Sgt. Todd Miller Letter, Id. This clearly material
Brady/Giglio impeachment information was never di,sc1osed to Mr. Dennes'

counsel.
II. State's Suppression of Impeaching Information
From early on, the prosecution knew they needed Balderas as a critical
sentencing phase witness on future dangerousness. HPD Sgt. Todd Miller Letter, Id.,
ROA.4710 ("If we can get something worked out with Fugon concerning the home
invasion or just go with Balderas' statement, and taking into account the Burglary,
and the shooting Albert lied about, maybe we can get "death" on Ray and or Albert.")
They also knew, however, that their star witness was compromised, and so they hid
information about him and suborned his perjury before the jury, in a careful
manipUlation of their relationship to Balderas, and their representations to the
defense and to the court. All of this, by design and with effect, prevented the truth
8

App.A39

Case: 17-70010

Document: 00515054107

Page: 18

Date Filed: 07/29/2019

about their highly impeachable star sentencing witness from ever reaching the jury's
awareness.
The Dennes capital murder case was originally being handled by Harris
County prosecutor Chuck Rosenthal (who later served as the elected District
Attorney of Harris County, and resigned under a cloud of scanda13). Sgt. Todd Miller
was the lead homicide detective. Unbeknownst to the defense, the jury, or the court,
as early as July 1996 Rosenthal knew about Balderas, his offers of testimony against
Dennes and what he claimed to know on the Tsang robbery case, and the conflict in
the evidence between Balderas' statements and Fugon and Elvira's version of the
participants and facts regarding the Tsang home invasion extraneous offense. This
was well over a year before trial. ROA.4708-ROA.4710 4 (Sgt. Miller letter to
Rosenthal). Contrast that with the fact that the prosecution claimed during pretrial

Brian Rogers, "Rosenthal cites prescription drugs in resignation as DA," Houston Chronicle, Feb. 15, 2008
https://www.chron.comlnews!houston-texas/articlelRosenthal-cites-prescription-drugs-in-resignation-1600712.php
(last visited July 29, 2019)("Rosenthal, 62, said a combination of prescription drugs had impaired his judgment, and
constant media coverage of his controversial e-mails - which included some sexually explicit and racist content,
along with affectionate notes to his executive assistant - had taken its toll on his family.").
4 Sgt. Miller wrote to prosecutor Rosenthal regarding this suppressed Brady impeachment evidence: "We interviewed
Luis Hector Fugon, and Francisco Elvira, the two crooks hired by Ray and Albert to rob the jeweler at his home.
Fugon and Elvira both denied everything, especially regarding Ray and Albert.") Sgt. Miller mentions Fugon's written
confession differing from Fugon's oral statement, but the written confession is in English, ROA.4686, Fugon speaks
only Spanish and required an interpreter during his trial, ROA.4459, and the State never established that Fugon reads
English. ROA.4463. When the State obtained written consent to search Fugon's apartment, the consent form HPD
used and Fugon signed is in Spanish. ROA.4693; ROA.4463. The consent form for taking specimens from Fugon
HPD used was also in Spanish. ROA.4696. Elvira's written confession (ROA.4690) like his statement to Sgt. Miller
makes no mention of David Balderas or any Cubans, and is also in English, a language Elvira did not speak, read or
write. ROA.4448, ROA.4451, ROA.4454. Fugon's written confession was subject to impeachment as being inaccurate
and not a true statement of Fugon, because it was in a language Fugon admittedly did not understand, and was
translated by his legal adversary-the HPD officers who arrested him. Elvira's written and oral statements to police
failed to incriminate Dennes at all, and made no mention of David Balderas either. Fugon denied even knowing David
Balderas when questioned by Sgt. Miller and HPD Officer De Los Santos, and Fugon testified at this trial that "it was
a fantasy" that Fugon was involved with Balderas. First Amended Writ Petition, at 65-68, ROA.319-ROA.322 (citing
State v. Luis Hector Fugon Trial Transcripts (RR. Vol. 3, p. 52-53) (ROA.4174-ROA.4175).
3

9

App.A40

Case: 17-70010

Document: 00515054107

Page: 19

Date Filed: 07/29/2019

hearings in August 1997 that they'd only just learned of the Tsang case and witness

Balderas. 5
Sometime between the July 1996 letter to Rosenthal and the January 1997 pretrial hearing, Rosenthal left the prosecution team in the Dennes case, and handed it
off to Mark Vinson and Don Smyth. Rosenthal maintained involvement in Dennes'
prosecution, as did Sgt. Miller, as both became fact witnesses who testified for the
State against Dennes. ROA.ll1l6 et seq (Rosenthal trial testimony); ROA.10157
(Sgt. Miller trial testimony). At that January 1997 pre-trial hearing exists the first
recorded documentation of prosecutorial misrepresentations about Balderas: they
falsely claimed that they had no extraneous offense evidence or witnesses to disclose
to the defense at that time. ROA.5776. The State promised that it would comply with
Brady information requested by defense counsel and ordered produced by the Court.

ROA.5778-ROA.5779. 6 While it is possible it was unwitting at that point, later
occurrences (namely their continued willingness to lie and hide evidence impeaching
their case) suggest otherwise. In any event, that possibility is of no legal moment, as

ROA.1l905-ROA.119l3; ROA. 119 l4-ROA. I 1919.
Direct appeal and state habeas counsel were entitled to rely on this representation and promise by the State to
comply with their Brady obligations ordered by the state trial court, and by the State's continued assertion on direct
appeal that there was no ongoing State relationship with Balderas. State's Direct Appeal Brief, at 31-35, ROA.5348ROA.5352. This reliance constitutes cause for the procedural default. Strickler v. Greene, 527 U.S. 263, 283-88
(1999); Banks v. Dretke, 540 U.S. 668, 698 (2004) ("In summary, Banks' prosecutors represented at trial and in state
postconviction proceedings that the State had held nothing back. Moreover, in state postconviction court, the State's
pleading denied that Farr was an informant. It was not incumbent on Banks to prove these representations false;
rather, Banks was entitled to treat the prosecutor's submissions as truthful. Accordingly, Banks has shown cause for
failing to present evidence in state court capable of substantiating his Farr Brady claim.")
5
6

10

App. A41

Case: 17-70010

Document: 00515054107

Page: 20

Date Filed: 07/29/2019

they worked in the same office with Chuck Rosenthal, and are legally presumed to
know what police and Rosenthal knew about the case. 7
Once the transition to new prosecutors was under way, the State played dumb
and hide-the-ball thereafter. As noted, at the January 1997 pre-trial hearing, when
specifically asked about any possible extraneous offense by defense counsel for
Dennes's co-defendant, the prosecutors lied and claimed they had no plans to
introduce an extraneous offense at punishment:
MR. VINSON: But right now I don't see any reason, based
on my understanding of the case, I don't see any reason for
an extraneous other than the offense was committed during
the course of the alleged crime and everything surrounding
that alleged incident.
THE COURT: Okay. So you are saying the State doesn't
have any plans to offer any extraneous other than what are
part and parcel of this offense.
MR. VINSON: That's correct ....
ROA.488-ROA.490.
These representations were false: Mr. Vinson was lying (or at least falsely
representing information known within the DA' s office and police) when he claimed
he had no intention at that time to introduce an extraneous offense at Dennes'
punishment phase: the prosecution already planned to do so, as reflected in the July

"Brady suppression occurs when the government fails to tum over even evidence that is known inly to police
investigators and not to the prosecutor." Youngblood v. West Virginia, 547 U.S. 867, 869-870 (2006)(per curiam).
"This in tum means that the individual prosecutor has a duty to learn of any favorable evidence known to the others
acting on the government's behalf in the case, including the police. But whether the prosecutor succeeds or fails in
meeting this obligation (whether, that is, a failure to disclose is in good faith or bad faith, see Brady, 373 U.S., at 87),
the prosecution's responsibility for failing to disclose known, favorable evidence rising to a material level of
importance is inescapable." Kyles v. Whitely, 514 U.S. 419, 437-38 (1995).
7

11

App.A42

Case: 17-70010

Document: 00515054107

Page: 21

Date Filed: 07/29/2019

1996 Sgt. Miller Letter to Rosenthal, and the fact that police had already interviewed
Balderas about his alleged orchestration of the Tsang home invasion offense, had
secured his cooperation, had not charged Balderas, but had charged and tried Fugon
and Elvira. Vinson likewise lied about the prosecution not having any specific
information about the Tsang robbery or their star witness Balderas as of the January
1997 hearing; this same letter documents the fact that they had plenty of details names, witnesses, crime, etc. - about Balderas and the Tsang extraneous offense.
They didn't say a word about any of this.
The prosecution continued to hide these facts until the Dennes trial was
already underway. They failed to disclose even the existence of the Tsang robbery
extraneous offense to Dennes' trial counsel Odom - even claimed only to have
become recently aware of it, even though they had specific detail both about
Balderas and about impeaching information regarding his testimonial proffer, as
early as July 1996, over a year previously - until jury selection was almost
completed, just days before the guilt-innocence trial began. At this point, as
discussed during oral argument, it was too late for trial counsel to investigate, obtain
and effectively use this information or carry out a reasonable investigation.
ROA.4769-ROA.4774; ROA.3677-ROA.3679; ROA.3603-ROA.3608 (Affidavits

12

App.A43

Case: 17-70010

Document: 00515054107

Page: 22

Date Filed: 07/29/2019

of Trial Counsel Wendell Odom and Investigator James Gradoni). 8 Furthermore, the
State never disclosed to trial counsel the fact that Balderas was a longtime, ongoing
and corrupt informant for the police, nor did they disclose Balderas had felony
marijuana and misdemeanor assault prosecutions dismissed against him after he had
spoken to HPD Sgt. Todd Miller in July 1996 regarding the Tsang home invasion
offense, and Sgt. Miller had secured his cooperation.
The intentional late disclosure as trial was starting of Balderas and his planned
testimony disrupted the ongoing proceedings. Trial counsel Odom moved for a
continuance, to obtain sufficient time to investigate the late-disclosed Tsang home
invasion extraneous. He did so orally, ROA.2530-ROA.253 7, and by written motion,
ROA.3677-ROA.3679, but the trial court denied the continuance motion.
ROA.2537-ROA.2539. The trial court also denied trial counsel's motion to exclude
the late-disclosed Tsang home invasion extraneous offense despite violation of its
order. ROA.2534-ROA.2536. The prosecutors' efforts had worked out brilliantly:
they had kept it secret that they had a long-time corrupt informant on their team, they
snuck through the fact that he was going to lie for them, they had a star sentencing

8 Trial counsel Odom could not have reasonably obtained, digested, and found that Balderas's proffer was not
supported by the 982-page Fugon-Elvira trial transcript. Once federal habeas counsel identified the existence of the
Fugon-Elvira trial transcript, it took habeas counsel approximately six weeks to find, locate, order and then obtain the
Fugon-Elvira trial transcript from the First Court of Appeals Clerk. It would have taken diligent counsel at least a
week of dedicated effort to digest the trial transcript, comprehend it, and locate the favorable Brady information
contained within the transcript relative to Odom's client Dennes. Interviewing and developing potential witnesses,
such as Fugon and Elvira, would have taken even longer and most likely could not have produced useable testimony.
At the time of Dennes' trial, Fugon and Elvira's direct appeals were pending, and Fifth Amendment privileges still
applied. Mitchell v. United States, 526 U.S. 314, 325-26 (1999).

13

App.A44

Case: 17-70010

Document: 00515054107

Page: 23

Date Filed: 07/29/2019

phase witness who would bring it all home for them, and defense counsel were
completely unprepared.
After the trial, during the hearing on the motion for new trial, the prosecution
continued to lie about Balderas. In response to the defense's Brady assertions
regarding Balderas, the State falsely told the court that they had disclosed all
impeachable information about Balderas, and that any potential informant status
had terminated well prior to the Dennes case and was in any event unrelated to that
case. Without knowing what the prosecutors knew, which was only revealed in the
unrelated federal proceedings well after trial, the defense were left empty-handed to
rebut these false assertions. At the motion for new trial hearing, the trial judge denied
the defense's Brady claims in express reliance upon the false representations of the
prosecutor that there was no ongoing informant relationship with Balderas:
THE COURT: I could see your point if there was an ongoing
relationship, if the documents were to be clear enough that any
relationship that may was already either -- well, let's say concluded well
before the trial date, how exactly would that impact on Mr. Balderas'
testimony? His obligations were totally severed at that point.
(RR. Vol. 36 p. 119), ROA.11943. 9

9 Counsel for Respondent asserted during the oral argument that Dennes's attorney could have discovered Balderas's
status as an ongoing informant by simply inquiring of counsel for Balderas, John Munier. This flies in the face of the
Supreme Court's decision in Banks v. Dretke, 540 U.S. 668 (2004), discussed infra. It is also contrary to settled ethical
rules governing the attorney-client privilege under the Texas Disciplinary Rules of Professional Conduct, see Rule
1.05 regarding confidentiality, and clearly established Texas law, see Texas Rule of Evidence 503(b)(1) & (2)
regarding lawyer-client privilege. The privilege belongs to the client, not the lawyer. Balderas' ongoing status as a
police informant is not information Balderas himself volunteered while testifying at Dennes' punishment phase.
Balderas' usefulness as a confidential informant would be destroyed if it became widely known among the legal
community that he was an informant. The idea that Balderas would waive attorney-client privilege is specious, and in
any event, could not have occurred when Balderas was not even present during the motion for new trial hearing.

14

App. A45

Case: 17-70010

Document: 00515054107

Page: 24

Date Filed: 07/29/2019

A. Post-conviction Litigation of Brady/Napue Claim

Direct appeal counsel for Mr. Dennes exhausted a Brady/Giglio claim with
respect to witness Balderas in two points of error (II and III) (ROA.5142) and in a
motion for rehearing in the Texas Court of Criminal Appeals. ROA.509l. The claim
was based upon all available information thus far disclosed by the State, namely,
that the State had improperly suppressed the fact that Balderas had entered into
a contract with Harris County prosecutors, and that two pending charges -- a
misdemeanor assault charge and a felony marijuana possession charge - were
dismissed

shortly before

his

testimony

in

Dennes's

punishment trial.

Citing Brady and Giglio, appellate counsel argued that the contract and the
dismissed charges were bias impeachment evidence under the confrontation clause,
Delaware v. Van Arsdall, 475 U.S. 673 (1986), and Davis v. Alaska, 415 U.S. 308

(1974), and should have been disclosed. (ROA.5142-ROA.5155, ROA.5156ROA.5l58, ROA.5091-ROA.5092).
Once the case reached federal court, undersigned counsel on a hunch searched
federal court records for any charges levelled against Balderas, and fortuitously
discovered he had been prosecuted and convicted for federal cocaine trafficking
conspiracy. Further records requested from the National Archives ultimately led

15

App.A46

Case: 17-70010

Document: 00515054107

Page: 25

Date Filed: 07/29/2019

months later to habeas counsel obtaining Balderas' federal sentencing transcript in
2015.

B.

Banks Forecloses a Finding of Procedural Default

i.

Standard of Review

Dennes alleged in his direct appeal that that the prosecution knowingly failed
to tum over impeaching and exculpatory evidence involving Balderas in violation of
Dennes' due process rights. (Point of Error II and III) (ROA.5142) and in a motion
for rehearing in the Texas Court of Criminal Appeals. ROA.5091. Dennes thus
satisfied the exhaustion requirement as to the legal ground for his Balderas Brady
claim. Banks, 540 U.S. at 690; Strickler, 527 U.S. at 281-282. Because there is cause
and prejudice for the failure to present additional evidence supporting Dennes'
Brady/Gig/io/Napue due process claim in state court, as shown below, the

procedural default is excused. "'[C]ause and prejudice' in this case 'parallel two of
the three components of the alleged Brady violation itself.' Thus, if Banks succeeds
in demonstrating 'cause and prejudice,' he will at the same time succeed in
establishing the elements of his FaIT Brady death penalty due process claim." Banks,
Id. at 691 (citing Strickler, Id. at 282).
As previously argued in the First Amended Writ Petition, at 92, ROA.346,
this case is on all fours with the Supreme Court's decision in Banks v. Dretke, 540
U.S. 668 (2004). There, as here, the State of Texas suppressed critical information

16

App. A47

Case: 17-70010

Document: 00515054107

Page: 26

Date Filed: 07/29/2019

about a critical witness at a Texas capital punishment phase and suborned the in-trial
perjury of that witness and suppression of informant status. There, as here, the State
of Texas continued to hide this information until well past trial, and well past the
deadline for the filing of any state appeal or initial state post-conviction application.
In both cases the defendant's attorney discovered the suppressed evidence well after
the availability of state post-conviction remedies, and raised them at the first
opportunity in federal habeas corpus proceedings. And finally, just as in this case, in
Banks the State of Texas sought to benefit from its due process violations by arguing

that the federal petitioner was procedurally barred from raising new facts/claims in
federal court.
The Banks Court was unequivocal in its condemnation of such tactics: "[aJ
rule ... declaring 'prosecutor may hide, defendant must seek,' is not tenable in a
system constitutionally bound to accord defendants due process." 540 U.S. at 696.
The Court thus explicitly rejected the notion that "the prosecution can lie and conceal
and the prisoner still has the burden to ... discover the evidence, so long as the
potential existence of a prosecutorial misconduct claim might have been detected."
Id. (internal quotation marks and citations omitted).

The Court in Banks therefore refused to oblige the State's reliance on
procedural default, finding the State's suppression of the Brady/Giglio evidence
provided "cause" for the failure to raise the new facts in support ofthe claim in prior

17

App.A48

Case: 17-70010

Document: 00515054107

Page: 27

Date Filed: 07/29/2019

state court proceedings. Banks, 540 U.S. at 693 ("[S]tate habeas counsel, as well as
trial counsel, could reasonably rely on the State's representations. In short, because
the State persisted in hiding Farr's informant status and misleadingly represented
that it had complied in full with its Brady disclosure obligations, Banks had cause
for failing to investigate, in state postconviction proceedings, Farr's connections to
Deputy Sheriff Huff. ") 10
Instead, the Court in Banks reached the merits of the Brady/Giglio claim,
found the new facts material, and equated that with a finding of "prejudice" for the
failure to previously present this information in the state courts of Texas, after
finding the State's Brady suppression "cause" under Coleman v. Thompson. The
same result should obtain here.

III. Cumulative Materiality under Kyles
It is important to emphasize at the outset that the applicable standard for
materiality depends upon the type of claim asserted. An assertion of suppression
only, under Brady, requires a showing of materiality as set forth in Bagley. II An
assertion of knowing use of false testimony, however, under Giglio and Napue, has
a completely different materiality standard and one that is decidedly more favorable

10 See also Amadeo v. Zan!, 486 U.S. 214, 222 (1988) ("If the District Attorney's memorandum was not reasonably
discoverable because it was concealed by Putnam County officials, and if that concealment, rather than tactical
considerations, was the reason for the failure of petitioner's lawyers to raise the jury challenge in the trial court, then
petitioner established ample cause to excuse his procedural default under this Court's precedents.").
II Bagley v. United States, 473 U.S. 667, 682 (1985).

18

App.A49

Case: 17-70010

Document: 00515054107

Page: 28

Date Filed: 07/29/2019

to the accused and much easier to meet. The materiality standard for the first type of
claim requires a showing that "there is a reasonable probability that, had the evidence
been disclosed, the result of the proceeding would have been different." Cone v. Bell,
556 U.S. 449, 469-470 (2009). A reasonable probability does not mean that the
defendant "would more likely than not have received a different verdict with the
evidence," only that the likelihood of a different result is great enough to
"undermine[ ] confidence in the outcome of the trial." Kyles, 514 U.S. at 434.
The materiality standard for the second category of Brady/GigliolNapue
claim, where false testimony was presented to the court or jury that was known or
should have been known to be false, or was allowed to go uncorrected, only requires
a showing that there is any reasonable likelihood it could have affected the judgment
of the jury. "A new trial is required if 'the false testimony could ... in any reasonable
likelihood have affected the judgment ofthe jury .... ' Napue, supra, at 271." Giglio
v. United States, 405 U.S. 150, at 154 (1972 ) (quoting Napue v. Illinois, 360 U.S.
264 (1959). See Wearry v. Cain, 136 S.Ct. 1002, 1006 and at fh. 6 (2016) (per
curiam) ("Given this legal standard, Wearry can prevail even if, as the dissent
suggests, the undisclosed information may not have affected the jury's verdict.").
Notably, just as here, the Wearry case involved both false evidence claims and nondisclosure Brady claims.

19

App.A50

Case: 17-70010

Document: 00515054107

Page: 29

Date Filed: 07/29/2019

To be clear, this case presents, fIrst and foremost, a claim involving a lying
witness and prosecutors and law enforcement who allowed the lies, failed to correct
them, and in fact knowingly covered them up on more than one occasion. Balderas
expressly lied on cross-examination about the "voluntary" way in which he came
forth with the Tsang robbery information, and the prosecutor knew it. It was not a
good-citizen voluntary disclosure, but rather part of an ongoing informant
relationship in which Balderas would bring information to the police to get leniency
for ongoing criminal acts of his own. The prosecutor allowed this false testimony to
go uncorrected.
As noted, the prosecutor had already lied about facts surrounding the
development of Balderas as a witness against Mr. Dennes at the pre-trial hearings in
January 1997 and August 1997. 12 Then at trial, also as noted, the prosecutor let
Balderas lie and did nothing to correct the record or reveal the lies to defense
counsel, the jury, or the court.

12 As suggested above, while it is possible ADA Vinson did not personally know, in January 1997,
about the facts surrounding the development of Balderas as a witness against Mr. Dennes (when
he misrepresented those facts to the court and the defense at that January hearing), the knowledge
of Rosenthal and the police is imputed to the prosecution team; Vinson had a legal duty to know
and to disclose accurately, and he violated that duty. Moreover, at trial, Vinson repeated the false
narrative about how Balderas had only just been discovered as a witness by the prosecution, when
he argued against trial counsel Odom's request for a continuance. ROA.9566-ROA.9569. This was
not true. Then later, by the time of the Motion for New Trial hearing, it was clearly a known lie
and cover-up that there was no ongoing informant relationship between Balderas and the State,
which suborned a false and erroneous trial judge ruling and formed the basis of his denying a new
trial.

20

App. AS1

Case: 17-70010

Document: 00515054107

Page: 30

Date Filed: 07/29/2019

Next, during motion for new trial proceedings, the prosecutor continued to lie
about Balderas and their development of him and handling of his trial testimony.
They repeated the false claim that they had only "discovered" Balderas as a witness
just before trial and offered him immunity on the underlying robbery. Critically, also
noted above, prosecutors failed to correct the judge's erroneous statement, which
formed the stated basis for his rejection of any legal claims involving Brady or
Napue, namely, his declaration that Balderas's cooperation was done and over and

thus there was no ongoing informant relationship and incentive at the time of the
Dennes's trial. ROA.11943-ROA.11945; ROA.11947. That was not true, and the
prosecutors and police knew it.
In short, the prosecution lied, they hid their own lies, their witness lied, and
none of this was disclosed or provided to the defense, the jury, or the judge, before
during or after trial. Such false testimony, and the false light in which the entire
scenario was proffered, and repeatedly so, by the prosecution, presents a claim that
is governed by the much more lenient materiality standard set forth in Napue and its
progeny. See Wearry v. Cain, supra.
It is important to emphasize here that when assessing materiality, the Court

must assess the impact of all prosecutorial suppression and misconduct at one time,

and not in a piecemeal fashion. In fact the Supreme Court expressly overruled this
Court's failure to have done so in Kyles. See Kyles v. Whitley, 514 U.S. 419, 441

21

App.A52

Case: 17-70010

Document: 00515054107

Page: 31

Date Filed: 07/29/2019

("the result reached by the Fifth Circuit majority is compatible with a series of
independent materiality evaluations, rather than the cumulative evaluation required
by Bagley"); see also Wearry v. Cain, 136 S.Ct. at 1007 ("the state postconviction
court improperly evaluated the materiality of each piece of evidence in isolation
rather than cumulatively, see Kyles v. Whitley, 514 U.S. at 441 [requiring a
'cumulative evaluation' of the materiality of wrongfully withheld evidence],").
Ironically, it was the same argument the Texas Attorney General's office made in

Banks v. Dretke, and it was rejected there as well. The Court should thwart
Respondent's attempts to avoid either learning or applying settled Supreme Court
jurisprudence.
Regardless, under whatever standard of materiality is applied, when
considered cumulatively, as is required, there is clear materiality presented by the
claims here. As found by the Court of Criminal Appeals, Balderas was the only
witness linking Dennes to the home invasion case. ROA.5266 ("No evidence other
than Balderas testimony linked appellant to the Tsang robbery."). He lied to the jury
about his true status and the true benefit-package and pendency. He told the jury he
had just come forward voluntarily to his brother-in-law when in fact he was receiving
substantial and ongoing undisclosed benefits, including the recent dismissal of two
criminal charges and maintaining his longtime, ongoing informant status with
police. Prosecutor Chuck Rosenthal stated to Fugon's attorney he "wanted to put a

22

App.A53

Case: 17-70010

Document: 00515054107

Page: 32

Date Filed: 07/29/2019

needle in his [Balderas'] arm" for the Szucs murder, but then withdrew that threat
when Balderas became a witness for the State. Amended Writ Petition at 61-63,
ROA.315-ROA.317; Fugon Trial transcript, ROA.4435-ROA.4436; ROA.4744
(Robert F. Alexander Affidavit). Moreover, Balderas' proffer of testimony against
Dennes was part and parcel of his ongoing informant relationship with the Houston
Police Department, which investigated the homicide. In fact, he didn't volunteer
information against Dennes at all, but rather provided information for incentives and
cover as a part of an ongoing informant relationship that continued before and after
the Dennes trial. The prosecution -- including police -- knew all of this and never
disclosed it. 13
As noted, Balderas ongoing informant relationship was confirmed in later
federal proceedings before U.S. District Judge Hinojosa. Also, as Judge Hinojosa
declared, had all of this been disclosed to the jury, Balderas' would have been a
"worthless" state's witness. The State urged during closing argument that the Tsang
robbery extraneous offense, and Balderas' testimony as the sole witness
affirmatively linking Dennes to that robbery, helped as grounds for imposing the
death penalty. Smyth Closing Argument, supra at 3, ROA.2842-ROA.2844 ("MR.
SMYTH: Special Issue Number One Ere: future dangerousness], we all talked to you

13 HPD sgt. Todd Miller, who wrote the July 1996 letter to prosecutor Rosenthal about Balderas and the conflict in
his testimony with Fugon and Elvira statements, supra, testified as a fact witness at Dennes' guilt phase, ROAI 0 157,
as did prosecutor Chuck Rosenthal, who received Sgt. Miller's letter. ROA11116.

23

App.A54

Case: 17-70010

Document: 00515054107

Page: 33

Date Filed: 07/29/2019

about that ... You think about Danny Tsang. You think about Christina Tsang. You
think about little nine-year-old Christina Tsang. Does that help you answer that
question? And what is the answer? Yes, this man is a continuing threat to society.")
The prosecution team a year before Dennes' trial felt the Tsang robbery
extraneous offense was needed and material to "get death on Ray". HPD Sgt. Todd
Miller Letter to Rosenthal, Id., ROA.4710. By the State's own words to the jury, the
Tsang robbery extraneous offense was material to the State obtaining death against
Dennes. The State knew that Balderas' status as a longtime corrupt informant
committing serious crimes while acting as an informant made Balderas a "worthless
witness" before any jury, as found by u.S. District Judge Hinojosa, and disclosing
Balderas' ongoing informant status during the motion for new trial hearing would
have caused the state trial judge, in his own words, to grant the new trial motion.
Surely there can be no clearer indications the false evidence and suppression
claim here was material under any standard. The false testimony and suppressed
impeaching evidence cumulatively surely could in any reasonable likelihood have
affected the judgment of the jury, Giglio, Napue, supra, even if it may not have
affected the jury's verdict, Wearry, 136 S.Ct. at 1006 fn. 6, supra.
Furthermore, as noted, the prosecutor was aware of all of this despite false
claims to the contrary. Rosenthal, the initial lead prosecutor in the case, already
possessed a letter dating back to the summer of 1996 from the lead HPD police

24

App.A55

Case: 17-70010

Document: 00515054107

Page: 34

Date Filed: 07/29/2019

officer in the Dennes case, Todd Miller, that not only was Balderas a key potential
extraneous offense witness for the State in the Dennes case, but also that Balderas's
story was impeachable on its face. 14 Even though Rosenthal handed off the case to
other prosecutors before trial, they are all within the law enforcement penumbra of
knowledge, and in any event, prosecutor Rosenthal remained involved in the case,
as he was a witness at Mr. Dennes' s trial (he testified, though he was the prosecutor
initially representing the State, as a fact witness about his investigation of the
murder). ROA.11116, as was Sgt. Miller. ROA.I0157.
Also as noted, at the motion for new trial yet another state prosecutor
misrepresented these facts to the trial judge:
THE COURT: Well, again, I go back and I'll let the State pick this up- I go back to the fact there is a contract and that contract has been
fulfilled and concluded well before the time of trial. I don't really see
the correlation between Mr. Balderas' testimony to be in favor or biased
in favor of the State, any or all obligations that he mayor may not have
had with the State will be concluded long before the trial occurred, such
that he would be under no incentive to taint his testimony, given the
fact that any charges that may have been at one time pending against
him had been concluded.

14 Sgt. Miller wrote to prosecutor Rosenthal regarding this suppressed Brady impeachment evidence: ''We interviewed
Luis Hector Fugon, and Francisco Elvira, the two crooks hired by Ray and Albert to rob the jeweler at his home.
Fugon and Elvira both denied everything, especially regarding Ray and Albert.") Sgt. Miller mentions Fugon's written
confession differing from Fugon's oral statement, but the written confession is in English, ROA.4686, Fugon speaks
only Spanish and required an interpreter during his trial, ROA.4459, and the State never established that Fugon reads
English. ROA.4463. When the State obtained written consent to search Fugon's apartment, the consent form HPD
used and Fugon signed is in Spanish. ROA.4693; ROA.4463. The consent form for taking specimens from Fugon
HPD used was also in Spanish. ROA.4696. Elvira's written confession (ROA.4690) like his statement to Sgt. Miller
makes no mention of David Balderas or any Cubans, and is also in English, a language Elvira did not speak, read or
write. ROA.4448, ROA.4451, ROA.4454. These written confession were subject to impeachment as being inaccurate
and not the true statements of Fugon and Elvira, because they were in a language neither understood, and were
translated by their legal adversary-the HPD officers who arrested them.

25

App.A56

Case: 17-70010

Document: 00515054107

Page: 35

Date Filed: 07/29/2019

MR. CHARLTON: Again, those charges can be resurrected but
nevertheless and within the statute of those charges resurrected, he still
has a motive to stay on the -THE COURT: Does the State wish to respond?
MS. VOLLMAN: Judge, there is a case this is a Court of Criminal
Appeals out of Texas and an Ex Parte Scott Kimes. I think 872 SW 2d,
700.
THE COURT: Spell that.
MS. VOLLMAN: K-I-M-E-S and it basically talks about the Brady
issue, if a prosecutor fails to provide certain evidence. The Court on
page 702 said, "Thus, under Bragley [sic], a due process has occurred
if' -- referring back to because information that was not provided under
Brady has occurred -- if the prosecutor failed to disclose the evidence,
the evidence is favorable to the defendant; and the evidence is material,
such that there is a reasonable probability that had the evidence been
disclosed to the defense, the outcome of the trial would have been
different. "
"A prosecutor does not have a duty to tum over evidence that
would be inadmissible at trial. Evidence offered by a party to show bias
of an opposing witness should be excluded if that evidence has no
legitimate tendency to show bias of an opposing witness."
And I think in this particular case it's not directly on point, but 1
think it does go to show that the crucial issues in this case, what bias
would that man have if the contract was completed and it was over, one
issue, you know, one case. It was completed, and it was over with by
the time he testified.
THE COURT: That's my point.
Does the State wish to further comment on the record? Does that pretty
well qualify?
ROA.11944-ROA.11946. The prosecutor's claims about Balderas's informant status
was a blatant falsehood, and it was never corrected by Harris County law
enforcement, nor has it been to this day.
On the issue of materiality, it is important to note that Respondent makes
much of the heinousness of the crime. However, and be that as it may, the fact of the

26

App. A57

Case: 17-70010

Document: 00515054107

Page: 36

Date Filed: 07/29/2019

matter is Mr. Dennes had one prior misdemeanor deferred adjudication for public
lewdness for having consensual sex in a public park with his girlfriend. That's it.
This is not a case involving a career violent criminal, far from it.
In a sense, Respondent's current counsel continue to propagate the false light
in which Balderas was handled and presented in this case. Respondent continues to
argue, just as the trial prosecutors falsely claimed, that the impeachment value of
Balderas's ongoing contract with law enforcement as a paid informant is negligible
because that work was about other cases and was concluded by the time of his
testimony against Dennes. See Respondent's reply at p. 17. Again, the record belies
that assertion. Either Respondent is wrong and should be aware of that fact, or U.S.
District Judge Hinojosa was misled himself; his statements about Balderas's
character and status as a credible witness are either accurate and thus self-evident of
clear materiality, or not, in which case Respondent has a duty to clear up the matter.
Notably, the federal court record upon which Judge Hinojosa relied is backed by the
consistent representations of both defense and government counsel (one of whom,
Balderas attorney Munier, was himself a former Harris County prosecutor).
However, should Respondent or this Court have any doubt about which view is
accurate, a remand for further factual development is the only available remedy.
There is irony in the extreme here with Respondent's reliance in his COA
Response upon the trial court finding at the motion for new trial, which was itself

27

App.A58

Case: 17-70010

Document: 00515054107

Page: 37

Date Filed: 07/29/2019

based directly on the prosecutor's false denial about Balderas's ongoing status as an
informant. Respondent's citation to a faulty trial court finding, the error of which is
derived from the false prosecutorial statements made to that judge, strains credulity.

Rather than simply acknowledging the prosecutor's unclean hands in suborning not
only a witness's lies, but also a judge's erroneous ruling, Respondent tries to hide
behind its falsity. And, although perhaps the particular contract concerning one of
Balderas's ongoing crimes or set of crimes may have been concluded, it is simply
painting the picture in a "false light" to leave out the fact that Balderas nevertheless
had an existing and ongoing relationship as a corrupt HPD informant which was not
concluded and would have undoubtedly been a factor in his motivation to testify and
certainly, as Judge Hinojosa aptly notes, in his impeachability as a witness for the
State before Dennes' jury, and in the state trial court's decision as to whether to grant
the motion for new trial.
Finally, Respondent relies upon varying arguments of waiver and procedural
default with regard to Mr. Dennes's Brady nondisclosure claims and his due process
Banks/Napue/Giglio knowing use of false testimony and false representations claim.

Once again, Respondent fails to adhere to the law set forth in Banks, a case the Texas
Attorney General's office lost in the Supreme Court. Banks v. Dretke, 540 U.S. 668,
690-704 (2004) makes clear:
The State here nevertheless urges, in effect, that "the prosecution can
lie and conceal and the prisoner still has the burden to . . . discover the
28

App. A59

Case: 17-70010

Document: 00515054107

Page: 38

Date Filed: 07/29/2019

evidence," so long as the "potential existence" of a prosecutorial
misconduct claim might have been detected. A rule thus declaring
"prosecutor may hide, defendant must seek," is not tenable in a system
constitutionally bound to accord defendants due process. "Ordinarily,
we presume that public officials have properly discharged their official
duties." Courts, litigants, and juries properly anticipate that
"obligations [to refrain from improper methods to secure a conviction]
... plainly rest[ing] upon the prosecuting attorney, will be faithfully
observed." Prosecutors' dishonest conduct or unwarranted concealment
should attract no judicial approbation. (citations omitted). Id. at 696.
Thus part and parcel of a Banks-type error, embedded within the claim itself, is the
appropriate rejection of Respondent's duplicitous reliance upon a waiver or default
argument as to these claims: hiding evidence constitutionally required to be
disclosed cannot produce a later finding of waiver or procedural default. Mr. Dennes
expressly relied upon Banks/Strickler cause and prejudice in the lower court
pleadings. There can be no question that these arguments are properly preserved and
before this Court.
The jurisprudence makes clear that once a Banks-type error has been
demonstrated, namely, that the state hid some Brady or Napue evidence, or both,
then by that same token the state cannot hide behind an argument asserting a failure
to previously raise the very claim or set of claims it had kept hidden from the defense.
Here the information and evidence relied upon to demonstrate the Brady and Napue
claims presented here were either affirmatively hidden by the state, or were simply
not available until after they could have been presented in a timely manner in state
court, on direct appeal or in state post-conviction proceedings, or both. Thus Mr.
29

App.A60

Case: 17-70010

Document: 00515054107

Page: 39

Date Filed: 07/29/2019

Dennes's prior express reliance upon Banks settles the question of waiver or
procedural default.
A.

Respondent Concedes No Available State Process

As the Court is aware, the information concerning Balderas's ongoing status
as an informant was never disclosed by the State, and was only discovered
fortuitously by the undersigned from review of the sentencing proceedings in
Balderas's federal case, which occurred two years after the trial in Appellant's case,
and after the deadline for the filing of the state habeas corpus petition and direct
appeal. Under these circumstances, Respondent has conceded that there is no
available state corrective process for the litigation of this new information to support
his pre-existing Brady/Giglio claim:
[E]ven if he were given the opportunity to return to state court, there is
no question that the CCA would dismiss any new application as
successive pursuant to Texas Code of Criminal Procedure Article
11.071, Section 5. Thus, Dennes's new claim is barred unless he can
show cause for the default and resulting prejudice, or demonstrate that
the court's failure to consider his claim will result in a "fundamental
miscarriage of justice."
Respondent's Opposition to Application for Certificate of Appealability, at 21-22,
26, quoting Coleman v. Thompson 501 U.S. 722, 750 (1991). Under 28 U.S.C. §

2254(b )(1 )(B)(i), therefore, all exhaustion requirements have been met.
CONCLUSION
For all the reasons set forth above and in prior pleadings and argument before

30

App.A61

Case: 17-70010

Document: 00515054107

Page: 40

Date Filed: 07/29/2019

this Court, Dennes respectfully prays that this Court grant his appeal and enter an
order granting Appellant a new sentencing hearing.

Respectfully submitted,
/s/ Ken McGuire
Kenneth W. McGuire
MCGUIRE LAW FIRM

Texas BarNo. 00798361
P.O. Box 79535
Houston, Texas 77279
TEL: 713-223-1558
FAX: 713-335-3340
Email: kennethmcguire@att.net

31

App. A62

Case: 17-70010

Document: 00515054107

Page: 41

Date Filed: 07/29/2019

CERTIFICATE OF COMPLIANCE

1. This brief complies with the type-volume limitations of Federal Rule of
Appellate Procedure 32(a)(7)(B) because this brief contains 8,397 words, excluding
the parts of the brief exempted by Federal Rule of Appellate Procedure 32(f).
Counsel has moved to exceed the page limit set by the Court in the order granting
Certificate of Appealability.
2. This brief complies with the typeface requirements of Federal Rule of
Appellate Procedure 32(a)(5) and the type-style requirements of Federal Rule of
Appellate Procedure 32(a)(6) because this brief has been prepared in a
proportionally spaced typeface using Microsoft® Office Word 2016 in 14-Point
Times New Roman font.
/s/ Ken McGuire
Kenneth W. McGuire

32

App.A63

Case: 17-70010

Document: 00515054107

Page: 42

Date Filed: 07/29/2019

CERTIFICATE OF SERVICE AND CONFERENCE
I certify that this Brief on Appeal was filed with the Court in electronic fonnat
via the ECF system on the 29th day of July, 2019. I further certify that an electronic
copy of the brief was served on all counsel of record by filing on the ECF System
on the same date, and that counsel has conferred with opposing counsel below and
their position on this motion is OPPOSED.
George D'Hemecourt
Office of the Attorney General
P.O. Box 12548, Capitol Station
Austin, Texas 78711-2548
george.d'hemecourt@oag.texas.gov
/s/ Ken McGuire
Kenneth W. McGuire

CERTIFICATE OF SERVICE
I certify that one copy of this motion was served on Reinaldo Dennes, TDCJ
Number 999248, on the 29th day of July, 2019, at the address below:
Reinaldo Dennes, TDCJ#999248
Polunsky Unit
3872 FM 350 South
Livingston, TX 77351
/s/ Ken McGuire
Kenneth W. McGuire

33

App.A64

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 1 of 42
United States District Court
Southern District ofTexas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION

REINALDO DENNES,
Petitioner,

March 23, 2017
David J. Bradley, Clerk

§
§
§

§

v.

§

CIVIL ACTION NO. H-14-00l9

§

LORIE DAVIS, Director,
Texas Department of Criminal
Justice-Correctional
Institutions Division,
Respondent.

§

§
§
§

§
§

MEMORANDUM OPINION AND ORDER

Petitioner Reinaldo Dennes, currently in the custody of the
Texas Department of Criminal Justice,
corpus

application pursuant

to 28

filed this federal habeas

U. S. C.

§

2254.

Dennes was

convicted of capital murder and sentenced to death for the murder
of Janos Szucs during the course of a robbery.

This case is before

the court on Dennes's First Amended Death Penalty Case Application
for. Post-Conviction Writ of Habeas Corpus
(Docket Entry No.
Brief in Support

22)

("Amended Petition")

and Respondent Lorie Davis's Answer with

("Respondent's Answer")

(Docket Entry No.

30).

Having carefully considered the Amended Petition, the Answer, and
the arguments and authorities submitted by counsel, the court is of
the opinion that Dennes's Amended Petition should be denied.

App.A65

ff

I

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 2 of 42

I •

Background

The Texas Court of Criminal Appeals

("TCCA" ) set out the

relevant facts in its opinion on Dennes's direct appeal.
In December of 1995, Antonio Ramirez came from Ecuador to
work in Texas. Shortly after his arrival, Ramirez met a
man named Francisco Rojas who sold jewelry for [Dennes].l
Some time later, Ramirez gave several rings to Rojas that
he wanted to sell. Rojas then took Ramirez and the rings
to [Dennes] at [Dennes]' s office in the Greenrich Building
on Richmond Avenue. During this visit, Ramirez noticed
a lathe in [Dennes]'s jewelry workshop and began to play
with it. [Dennes] asked Ramirez if he knew how to operate
the machine and Ramirez said that he did.
[Dennis] then
"hired" Ramirez to make watch bezels for him. 2
Shortly thereafter [Dennes] invited Ramirez to travel to
Mexico with him to buy a diamond.
After the diamond
purchase, the pair returned to Texas and [Dennes] gave
Ramirez more work. In early January 1996; [Dennes] made
a sketch for Ramirez and asked him if he could make the
obj ect depicted.
By the time he completed the job,
Ramirez had manufactured what turned out to be a silencer
for [Dennes].
After the silencer was completed,
[Dennes], his brother Alberto, and Ramirez went to a
field a few minutes away to test it.
Thinking the
silencer did not work as it should [Dennes] modified his
design and had Ramirez make another one.
[Dennes] test
fired this model in his office.
Shortly after the completion of the second silencer,
[Dennes] asked Ramirez to help him and Alberto rob a
jewelry dealer who also had an office in the Greenrich
Building.
[Dennes] explained that he would take the
videotape from the security station while Ramirez secured
the diamonds and Alberto shot th'e dealer.
Ramirez
consented, but returned to South America two days later. 3

1

[Dennes] ran a business called "Designs by Reinaldo."

2Ramirez stated that he did not expect to be paid for this
work, but thought it would be a good thing to do while waiting to
get money from the sale of his rings.
3Ramirez testified that he only consented so as not to alarm
the Dennes brothers; however, he had no intention of helping them.
-2-

App.A66

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 3 of 42

Estrella Martinez, [Dennes]'s lover, had a cleaning job
at the Greenrich Building. In January of 1996, [Dennes]
told Martinez he wanted her to let him in a side door of
the building after working hours.
He told her he was
going to take some videotapes from the security guard's
station on the first floor.
On January 22, 1996,
[Dennes] gave Martinez a cellular phone with which he
planned to call her to tell her when to let him and
Alberto into the building. [Dennes] also wanted Martinez
to distract the guard so he could take the tapes.
Janos Szucs was a reputable wholesale diamond dealer who
had an office in the Greenrich Building. Shortly before
his death, Szucs had a diamond inventory worth more than
$3,600,000 which he kept in his office safe. He also had
approximately $200,000 in cash that he planned to use to
purchase diamonds on an upcoming trip.
Szucs did not
have a receptionist or secretary; access to his office
was controlled through an electronically-locked door.
Szucs had a television monitor in his office so he could
see who was at the door and he would allow people in by
pushing a remote button located on his desk. In early
January 1996, Szucs and Sam Solomay formed a partnership
and Solomay moved into Szucs's office suite.
On January 24th, Solomay left the office at 5:40 p.m.,
but Szucs remained, explaining that he had an appointment
that evening. David Copeland was the security guard on
duty at the Greenrich Building that evening, working the
3:00 p.m. to 11:00 p.m. shift. A videotape recorder at
the security desk recorded the images from the security
cameras around the building. When Copeland arrived for
his shift, a technician was there working on the
surveillance system.
Around 6: 30 P . m. that same evening, [Dennes] called
Martinez on the cellular phone he had provided her and
told her to open the loading dock door.
[Dennes] and
Alberto entered and immediately turned into a stairwell,
thereby avoiding the security guard's desk.
Shortly
after 7:00 p.m. [Dennes] called Martinez and told her to
distract the security guard. Martinez told copeland that
she had locked her keys in a fifth floor office and asked
him to help her retrieve them. A little after 7:30 p.m.,
[Dennes] again called' Martinez and told her that he
needed another distraction. The security guard kept the
key to the snack bar so Martinez approached Copeland and
told him that she needed to clean the area and asked if
he would let her in.
Shortly after Martinez began
-3-

App.A67

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 4 of 42

cleaning, however, the owner of the snack bar arrived and
told her to come back later.
When Copeland returned to the lobby, he found a man
kneeling behind the security desk apparently working on
the security system. Copeland assumed this was related
to the earlier repairs. As Copeland approached, the man
scrambled to his feet and walked briskly toward the
loading dock door. As Copeland neared the security desk,
the man turned and headed back toward the guard. When he
reached Copeland, the man placed his left hand on
Copeland s shoulder, stuck a .9 mm gun with a silencer to.
Copeland's chest with his other hand and fired. The man
shot the guard again after he had fallen. As Copeland
lay there playing dead, he heard the man walk to the
security desk. He then heard equipment and wires being
moved around followed by footsteps running toward the
loading dock door.' The owner of the snack bar called
"911."
I

Houston Police Officer Paul Terry arrived on the scene to
find Copeland lying face down in the lobby.
Copeland
told Terry what had happened and the officer
unsuccessfully searched for a suspect. Inside the lobby,
Terry found spent shell casings and fragments of a fired
bullet.
He also noticed that the video equipment was
missing.
That same evening, Szucs's wife, Nicole, became concerned
that her husband had not arrived home.
After several
failed attempts to reach her husband, she received a c.all
from a friend who worked in the Greenrich Building who
told her that the building guard had been shot. Nicole
asked the friend to contact the building's office
manager. Sometime after 11: 00 p. m., the building manager
approached one of the officers remaining at the scene.
Officer M.R. Furstenfeld and a couple of other officers
then accompanied the manager to Szucs's suite to check on
his welfare.
Upon gaining access to the office,
Furstenfeld found Szucs s dead body .
Detectives who
I

fAS she walked toward the restrooms, Martinez looked into the
lobby and saw a man in overalls approaching the guard with his
hands behind his back. Martinez recognized this person as [Dennes]
by his walk, but noted that he was wearing a mustache and some sort
of disguise. Shortly after entering the bathroom, Martinez heard
a strange sound. When she returned to the lobby, Martinez saw the
guard lying on the floor bleeding.
-4-

App. A68

t•

I

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 5 of 42

arrived at the scene noted no signs of a forced entry.
They also noticed that the safe was empty and there were
no signs of the 3.6 million dollar diamond inventory
Szucs maintained or the $200,000 he was supposed to have
on hand in cash. Plus, Szucs was not wearing the fivecarat diamond pinky ring he always wore nor was the ring
ever recovered. 5
The detectives also discovered that
Szucs's computer had been damaged as if someone had tried
to remove a disc with tweezers. 6
The police eventually focused their investigation upon
[Dennes]. A search of his office revealed a lathe that
had been broken down and boxed up, a fired .9 mm bullet,
and an owner's manual for a .9 mm Taurus handgun.
Firearms examiner Robert Baldwin determined that the
bullets recovered from Szucs's body, the bullet found in
[Dennes]'s office, and the bullets found in the lobby of
the Greenrich Building were all fired from the same gun.
Moreover, the cartridge casings found in the lobby of the
Greenrich Building and those found in the field where
[Dennes] tested the silencer were fired from the same
gun. The weapon was determined to be either a Taurus or
a Beretta .9 mm handgun.
Dennes v. State, No. 72,966 (Tex. Crim. App. Jan. 5, 2000), slip
op. at 2-7 (footnotes in original, footnote numbering changed to
keep notes sequential in this opinion) .
The jury found Dennes guilty of capital murder for murdering.
Szucs during the commission of a robbery.

(CR at 2, 137)7

conclusion of the punishment phase of Dennes's trial,

At the

the jury

found that there was a probability that Dennes would commit acts of
criminal violence constituting a continuing threat to society, that

5Nicole testified that her husband was wearing the ring that
morning when she took him to work.
6S ZUCS kept his diamond inventory records on the computer.
7·"CR" refers to the Clerk's Record on Dennes's state postconviction proceedings.
-5-

App. A69

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 6 of 42

Dennes caused Szucs's death, intended to kill Szucs, or anticipated
that a human life would be taken, and that the mitigating evidence
did not warrant imposition of a life sentence.
Accordingly,

Id. at 151-54.

the trial court sentenced Dennes to death.

Id. at

155-56.
The TCCA affirmed Dennes' s conviction and sentence.
State,

No.

72,966

(Tex.

Crim.

App.

Jan.

5,

2000).

subsequently denied Dennes's application for a
corpus.

Ex parte

Dennes,

No.

WR-34,627-02

Dennes v.
The

TCCA

writ of habeas

(Tex.

Crim.

App.

Dec. 18, 2013).
Dennes filed his initial federal habeas corpus petition on
December 17, 2014, and amended the petition on September 17, 2015.
Respondent answered the amended petition on July 1, 2016.
II.

The Applicable Legal Standards

This federal petition for habeas relief is governed by the
applicable provisions of the Antiterrorism and Effective Death
Penalty Act ("AEDPA"), which became effective April 24, 1996.
Lindh v. Murphy,

521 U.S.

320,

335-36

(1997).

See

Under the AEDPA

federal habeas relief based upon claims that were adjudicated on
the merits cannot be granted unless the state court's decision
(1) "was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court
of

the

United

States"

or

(2)

"was

based

on

an

unreasonable

determination of the facts in light of the evidence presented in
-6-

App. A70

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 7 of 42

§

2254(d); Kitchens v.

Johnson, 190 F.3d 698, 700 (5th Cir. 1999).

For questions of law

the State court proceeding."

28 U.S.C.

or mixed questions of law and fact adjudicated on the merits in
state court, this court may grant federal habeas relief under 28
U.S.C.

§

2254 (d) (1) only if the state court decision "was contrary

to, or involved an unreasonable application of, clearly established
[Supreme Court precedent]."
(5th Cir. 2001).

See Martin v. Cain, 246 F.3d 471, 475

Under the "contrary to" clause, this court may

afford habeas relief only if

,,\ the

state court arrives at a

conclusion opposite to that reached by . . . [the Supreme Court] on
a question of law or if the state court decides a case differently
than

[the Supreme

indistinguishable facts.'"
41 (5th Cir. 2000)

court]

has

on a

set of materially

Dowthitt v. Johnson, 230 F. 3d 733, 740-

(quoting Williams v. Taylor, 529 U.S. 362, 406

(2000» .
The "unreasonable application" standard permi ts federal habeas
relief only if a state court decision "identifies the correct
governing

legal

rule

from

[the

Supreme

Court]

cases

but

unreasonably applies it to the facts

of the particular state

prisoner's case" or "if the state court

. unreasonably extends

a legal principle from [Supreme Court] precedent to a new context
where it should not apply . . .

"

Williams, 529 U.S. at 407.

"In

applying this standard, we must decide (1) what was the decision of
the state courts with regard to the questions before us and

-7-

App.A71

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 8 of 42

(2) whether there is any established federal law, as explicated by
the Supreme Court, with which the state court decision conflicts."
Hoover v. Johnson, 193 F.3d 366, 368 (5th Cir. 1999).

A federal

court's "focus on the 'unreasonable application' test under Section
2254(d) should be on the ultimate legal conclusion that the state
court reached and not on whether the state court considered and
discussed every angle of the evidence."
683,

696

(5th Cir.

(en bane).

2001), aff' d,

Neal v. Puckett, 239 F. 3d

286 F. 3d 230

The sole inquiry for a

federal

(5th Cir. 2002)
court under the

'unreasonable application' prong becomes "whether the state court's
determination is 'at least minimally consistent with the facts and
circumstances of the case.'"

Id.

(quoting Hennon v. Cooper, 109

F.3d 330, 335 (7th Cir. 1997»; see also Gardner v. Johnson, 247
F.3d 551, 560 (5th Cir. 2001)

("Even though we cannot reverse a

decision merely because we would reach a different outcome, we must
reverse when we conclude that the state court decision applies the
correct legal rule to a given set of facts in a manner that is so
patently incorrect as to be 'unreasonable.''').
The AEDPA precludes federal habeas relief on factual issues
unless the state court's adjudication of the merits was based on an
unreasonable determination of the facts in light of the evidence
presented
§

in

the

state

court

proceeding.

See

28

U.S.C.

2254 (d) (2); Hill v. Johnson, 210 F.3d 481, 485 (5th Cir. 2000).

The state court's factual determinations are presumed correct

-8-

App. A72

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 9 of 42

unless rebutted by "clear and convincing evidence."
§

28 U.S.C.

2254(e) (1); see also Jackson v. Anderson, 112 F.3d 823, 824-25

(5th Cir. 1997).
III.

Analysis

Dennes's Amended Petitiori raises 33 claims for relief.

The

claims are addressed below.
A.

Denial of Motion For New Trial

Dennes's first three claims relate to the trial court's denial
of his motion for a new trial on the grounds that juror Irene
Collins failed to disclose that she had been previously charged
with two misdemeanor offenses.

She received probation for both.

(Amended Petition, pp. 23-50)
Respondent argues that Dennes' s first claim relies entirely on
state law, and is therefore not cognizable on federal habeas corpus
review.

She argues that the second claim, citing federal law, is

unexhausted and procedurally defaulted.
not,

in fact,

Dennes's third claim is

a claim for relief but is an argument that any

procedural default of these claims can be excused under Martinez v.
Ryan, 132 S. Ct. 1309, 1318-19 (2012).
In fact, Dennes's first claim cites two federal cases.

The

first of these, McDonough Power Equipment, Inc. v. Greenwood, 464
U.S. 548 (1984), addressed questions concerning the selection of a
civil jury in federal court under the Federal Rules of civil
-9-

App.A73

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 10 of 42

Procedure and federal statute.

It held that a party is entitled to

a new trial when he can demonstrate that a juror gave inaccurate
answers and was biased against that party.

Id. at 556.

The second case cited by Dennes in support of his first claim
is United States v. Scott, 854 F.2d 697 (5th Cir. 1998).
the

juro~

In Scott

in question failed to disclose that his brother was a

deputy sheriff in an office that performed some investigation in
the case for which the juror was selected.

The issue in Scott was

the juror's bias, not merely providing an inaccurate answer.
While respondent's argument that Dennes' s

first claim is

purely a state law claim is not accurate, the federal cases Dennes
cites do not support his contention that the allegedly inaccurate
answers,

by themselves,

merited a

new trial.

Rather,

both

McDonough and Scott stand for the proposition that a party's right
to a fair trial is violated by a biased juror whose bias is
undiscovered before trial because the juror gave inaccurate answers
to material voir dire questions.

Dennes, however, argues merely

that the juror gave inaccurate answers.
bias by the juror.

Indeed,

He makes no showing of

as respondent notes,

the juror's

experiences with the criminal justice system seem more likely to
make her biased against law enforcement than against one charged
with a crime.
Assuming that Dennes's citations to McDonough and Scott were
sufficient to alert the state courts to the federal constitutional
nature of his claim, he nonetheless is not entitled to relief.
-10-

App.A74

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22117 Page 11 of 42

While the juror in question failed to disclose her arrests and
probation for the misdemeanor charges of public lewdness and
prostitution, Dennes fails to demonstrate any bias on her part.

He

therefore fails to demonstrate any entitlement to a new trial based
on this juror's misleading answers, or any error by the trial court
in denying his motion.

He is not entitled to relief on his first,

second, or third claims for relief.
B.

Suppression of Evidence
In his fourth claim for relief Dennes contends that the State

suppressed material impeachment evidence concerning punishment
phase witness David Balderas.

Balderas testified to Dennes's

involvement in an extraneous robbery.

According to Balderas,

Dennes hatched a plan to rob a diamond courier.

Dennes would

follow the courier home when he knew that the courier had diamonds,
and then call Balderas who would call two confederates to break in
to the courier's home and steal the diamonds.

When the call came,

however, the two accomplices broke into the wrong house, detained
Danny Tsang and his family, and stole some jewelry and other items
from them.

Balderas testified that he was never arrested or

charged for the Tsang robbery, that he told prosecutors everything
he knew about it, that he received immunity with regard to the
Tsang robbery, and that he had not reached any other deal with
prosecutors.

(34 Tr. at 83-88)

Dennes contends that the State

failed to disclose that Balderas entered into an agreement with the
-11-

App.A75

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 12 of 42

State to provide information unrelated to Dennes's case, and that
the State dismissed two criminal charges against Balderas in
exchange for the information.
A prosecutor must disclose evidence favorable to an accused if
it "is of sufficient significance to result in the denial of the
defendant's right to a fair trial."

u.s.

97,

108

Evidence

(1976).

United States v. Agurs, 427
is material

"if

there

is

a

reasonable probability that, had the evidence been disclosed to the·
defense, the result of the proceeding would have been different."
United States v. Bagley, 473 U.S. 667, 682 (1985).
not whether the result would have been different.

The question is
Rather, it is

whether given the non-disclosures of material evidence the verdict
is less worthy of confidence.
disclosure,

it

is

In defining the scope of the duty of

no answer that a

prosecutor did not

possession of the evidence or that he was unaware of it.

have

Rather,

the prosecutor "has a duty to learn of any favorable evidence known
to the others acting on the government's behalf in the case,
including the police."

Kyles v. Whitley, 514 U.S. 419, 437 (1995).

"[T]he suppression by the prosecution of evidence favorable to an
accused upon request violates due process where the evidence is
material either to guilt or to punishment, irrespective of the good
faith or bad faith of the prosecution."

Banks v. Dretke, 540 U.S.

668, 691 (2004) (citing Brady v. Maryland, 373 U.S. 83, 87 (1963)).
In

Strickler

components

or

v.

Greene

essential

the

Supreme

elements

of

Court
a

framed

Brady

the

three

prosecutorial

-12App.A76

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 13 of 42

misconduct claim:
accused,

"The evidence at issue must be favorable to the

either because

it

is exculpatory,

or because

it

is

impeaching; that evidence must have been suppressed by the State,
either willfully or inadvertently; and prejudice must have ensued."
Banks, 540 U.S. at 691 (quoting Strickler v. Greene, 527 U.S. 263,
281-82 (1999».
On Dennes' s motion for a new trial the state trial court found
that the contract between Balderas and law enforcement authorities
was not Brady material because it was unrelated to Dennes's case,
and because the terms of the contract had already been fulfilled by
both parties before Balderas testified at Dennes's trial.
now

argues

information,

that

the

State

failed

to

disclose

Dennes

additional

including the fact that Balderas was considered a

suspect in the Szucs murder, and that one of Balderas's alleged
accomplices in the Tsang robbery -- Luis Hector Fugon -- testified
at his own trial that he did not know Balderas.
Respondent

points

out

that

most

of

the

submitted by Dennes comes from Fugon's trial.
place almost a year before Dennes' s trial.

new

information

That trial took

Respondent asserts that

counsel could have obtained those transcripts, and correctly notes
that the State has no obligation to provide exculpatory evidence
that is available to the defense through the exercise of due
diligence.
1997) .

See Rector v. Johnson, 120 F.3d 551, 558-59 (5th Cir.

Thus, the bulk of the allegedly suppressed evidence was

-13-

App. A77

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 14 of 42

available to Dennes, and was not suppressed within the meaning of
Brady.
Whether or not the evidence was suppressed, Dennes fails to
demonstrate that the evidence was material, i.e., that there is a
reasonable probability that he would have been sentenced to life
imprisonment had the evidence been disclosed.

As noted above, the

trial court found that the agreement Balderas had with the State
was unrelated to Dennes's case, and was completed before Dennes's
trial.

Because the contract was completed by both parties before

trial, it provided no reason for Balderas to fabricate testimony.
Dennes

argues

that Balderas

testified falsely about

the

circumstances under which he provided information about the Tsang
robbery.

Balderas testified that he provided the information to

his brother-in-law, a Houston homicide detective, and that it was
not the result of Balderas being arrested.

Dennes argues that

Balderas provided the information in connection with his arrest for
felony possession of marijuana, but provides nothing more than his
speculation that the two events were connected.

A petitioner's

speculation about the suppression of exculpatory evidence is an
insufficient basis to support a Brady claim.

Hughes v. Johnson,

191 F.3d 607, 630 (5th Cir. 1999).
On direct appeal Dennes argued that information about the
dropped charges was material because it showed a relationship
between Balderas and the prosecution.
Dennes's direct appeal, pp. 60-63.

See Brief for Appellant in
The TCCA rej ected Dennes' s

-14App.A78

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 15 of 42

argument on the grounds that Balderas was never convicted on these
charges, and that evidence of the alleged crimes would
inadmissible under Texas law.

therefo~e

be

Dennes v. State, No. 72,966 (Tex.

Crim. App. Jan. 5, 2000) slip op. at 14.

Dennes makes no showing

that this ruling is incorrect.
To the extent that Dennes now argues that the charges were
dropped as consideration for Balderas's testimony against Dennes,
such a claim is unexhausted. ,The AEDPA requires that a prisoner
exhaust his available State remedies before raising a claim in a
federal habeas petition.
An application for a writ of habeas corpus on behalf of

a person in custody pursuant to the judgment of a State
court shall not be granted unless it appears that-(A) the applicant has exhausted the
available in the courts of the State; or
(B) (i) there is an absence
corrective process; or

of

remedies

available

State

(ii) circumstances exist that render such process
ineffective to protect the rights of the applicant.
28 U.S.C.
~DPA

§

case,

2254(b) (1).

As the Fifth Circuit explained in a pre-

"federal courts must respect the autonomy of state

courts by requiring that petitioners advance in state court all
grounds for relief, as well as factual allegations supporting those
grounds."

" [A] bsent

special

circumstances,

a

federal

habeas

petitioner must. exhaust his state remedies by pressing his claims
in state court before he may seek federal habeas relief."
Cain,

228

F.3d

616,

619-20

(5th

Cir.

2000)

i

see

Orman v.
28

U.S.C.

-15-

App.A79

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 16 of 42

§

2254 (b) (1)

(\\An

application for a writ of habeas corpus on behalf

of a person in custody pursuant to the judgment of a State court
shall not be granted unless it appears that . . . the applicant has
exhausted the remedies

. '. ") .

available

in the

courts of

the State

This rule extends to the evidence establishing the

factual allegations themselves.

Knox v. Butler, 884 F.2d 849, 852

n.7 (5th Cir. 1989) (citing 28 U.S.C. § 2254(b})

i

see also Jones v.

Jones, 163 F. 3d 285, 298 (5th Cir. 1998) (noting that \\ [s] ubsection
(b) (1)
§

[of

2254(b)").

AEDPA]

is

substantially

identical

to

pre-AEDPA

Because Petitioner did not present this claim to the

Texas state courts, he has failed to properly exhaust· the claim,
and this court may not consider it.
ordinarily,

a

federal

Knox, 884 F.2d at 852 n.7.

habeas

petition

that

contains

unexhausted claims is dismissed without prejudice, allowing the
petitioner to return to the state forum to present his unexhausted
claims.

Rose v. Lundy, 455 U.S. 509 (1982).

Such a result in this

case,' however, would be futile because Petitioner's unexhausted
claims would be procedurally barred as an abuse of the writ under
Texas law.

On habeas review, a federal court may not consider a

state inmate's claim if the state court based its rejection of that
claim on an independent and adequate state ground.
Maxey, 98 F.3d 844, 847 (5th cir. 1996).
federal

habeas

review

A

the

Martin v.

procedural bar for

also

occurs

if

court

to

which

a

petitioner must present his

claims

to satisfy the exhaustion

-16-

App.A80

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 17 of 42

requirement would now find the unexhausted claims procedurally
barred.

Coleman v. Thompson, 501 U.S. 722, 735 n.1 (1991).

Texas

prohibits

successive

writs

challenging

the

same

conviction except in narrow circumstances. TEx. CODE CRIM. PROC. ANN.
art. 11.071 § 5(a).
consider

the

merits

The Texas Court of Criminal Appeals will not
or grant

relief

on a

subsequent

habeas

application unless the application contains sufficient specific
facts establishing the following:
(1) the current claims and issues have not been and could
not have been presented previously in a timely initial
application or in a previously considered application
filed under this article or Article 11.07 because the
factual or legal basis for the claim was unavailable on
the date the applicant filed the previous application;
(2) by a preponderance of the evidence, but for a
violation of the United States Constitution no rational
juror could have found the applicant guilty beyond a
reasonable doubt; or
(3) by clear and convincing evidence, but for a violation
of the United States Constitution no rational juror would
have answered in the state's favor one or more of the
special issues that were submitted to the jury in the
applicant's trial under Article 37.071, 37.0711, or
37.072.
Id.

The Texas Court of Criminal Appeals applies its abuse of the

writ doctrine regularly and strictly.

Fearance v. Scott, 56 F.3d

633, 642 (5th Cir. 1995) (per curiam) .
Dennes does not claim that he could not have presented the
claim in his direct appeal or his state habeas petition because the
factual basis for the claim did not exist, or that he is actually
innocent.

Therefore, his unexhausted claim does not fit within the
-17App. A81

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 18 of 42

exceptions to the successive writ statute and would be procedurally
defaulted in the Texas courts.

Coleman, 501 U.S. at 735 n.1.

That

bar precludes this court from reviewing Dennes's claim absent a
showing of cause for the default and actual prejudice attributable
to the default, or absent a showing that this court's refusal to
review the claim will result in a fundamental miscarriage of
justice.

Id. at 750.

"Cause" for a procedural default requires a showing that some
objective factor external to the defense impeded counsel's efforts
to comply with the state procedural rule or a showing of a prior
determination of ineffective assistance of counsel.

Murray v.

Carrier, 477 U.S. 478, 488 (1986); Amadeo v. Zant, 486 U.S. 214,
222 (1988).

Dennes makes no showing of cause.

A "miscarriage of justice" means actual innocence, either of
the crime for which Butler was convicted or of the death penalty.
Sawyer v. Whitley, 505 U.S. 333, 335 (1992).

"Actual innocence of

the death penalty" means that, but for a constitutional error,
Butler would not have been legally eligible for a sentence of
death.
innocent.

Id. at 343.

Dennes makes no claim that he is actually

Therefore, the miscarriage of justice exception to the

procedural default rule is inapplicable.

Because Dennes fails to

demonstrate cause for his procedural default, this court cannot
address his claim that the dropped charges constitute impeachment
evidence.
-18-

App.A82

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 19 of 42

c.

Extraneous Offense Evidence

In his fifth through ninth claims for relief Dennes complains
that the trial court erred in admitting evidence of his involvement
in the Tsang robbery.

Dennes' s counsel testified that he was

advised in early 1996 that the state was trying to develop evidence
of Dennes's involvement in a home invasion robbery.
20; 36 Tr. at 47-49, 81-83)

(24A Tr. at

At a pretrial conference in January of

1997 the trial court ordered the State to provide notice of any
extraneous offense evidence it intended to introduce at least two
weeks before trial.

(3 Tr. at 7-8)

The prosecutor testified that he had hoped to call Hector
Fugon as a witness, but that Fugon's case was still on appeal at
the time of Dennes's trial, and Fugon's attorney did not want him
to testify.

(36 Tr. at 82-84)

It was only after learning that

Fugon was unavailable that the prosecution became aware that
Balderas could testify about the Tsang robbery.

Id. at 84 - 85.

prosecutor spoke to Balderas on August 12,

1997,

defense

intention to

counsel

Balderas.

the

following

Id. at 85-87.

day

of

his

and informed
call

Individual jury voir dire commenced on

July 22, 1997, and was completed on August 18, 1997.
24A Tr. at

The

(5 Tr. at 2,

44)

Defense counsel objected to the extraneous offense evidence
because the State gave notice less than two weeks before trial.
(24A Tr.

at 4-21)

Balderas's testimony.

He requested a continuance to prepare for
The State responded that it gave notice
-19App. A83

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 20 of 42

immediately after obtaining the evidence.

Id. at 17-18.

Defense

counsel renewed the objection and the request for a continuance
before the beginning of the punishment phase.
denied both.
1.

The trial court

(34 Tr. at, 29-38)

Notice/Unfair SU6Prise

In claims five,

six,

and seven Dennes c9ntends that the

admission of the Tsang robbery evidence unfairly surprised him,
that he was not given proper notice of the State's intent to
introduce this evidence, and that the trial court improperly denied
his request for a continuance.

Dennes disputes the timing of

events discussed above, arguing that the State knew much earlier
that

Fugon

would

be

unavailable

to

testify.

Implicitly

acknowledging that there is no federal constitutional basis for a
claim that the State must disclose the identities of witnesses
ahead of time,

Denne~

attempts to characterize this information as

falling under the Brady standards discussed above, and argues that
he is entitled to voir dire jurors about their attitudes toward
extraneous offense evidence.
As discussed above, Brady and its progeny pertain to evidence
that is either exculpatory or impeaching.

There is nothing about

the identity of the witness or the State's intention to introduce
this evidence that is either eXCUlpatory or impeaching.
While a defendant facing a possible death sentence does have
a right to determine potential jurors' attitudes about the death
-20-

App.A84

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 21 of 42

penalty,

see,

e.g.,

Adams v.

Texas,

448 U.S.

38,

45

(1980);

Witherspoon v. Illinois, 391 U.S. 510 (1968), the record clearly
demonstrates that Dennes was aware that the State was at least
considering presenting extraneous offense evidence at the time of
jury voir dire.

See 24A Tr. at 20; 36 Tr. at 47-49, 81-82.

thus had the opportunity to

inqui~e

Dennes

about jurors' attitudes.

The

fact that the State did not make its final decision until later did
not impinge on that opportunity.

Therefore,

Dennes fails

to

demonstrate any constitutional violation caused by the timing of
the State's disclosure, or by the trial court's denial of Dennes's
request for a continuance.
2.

Accomplice Testimony

In his eighth and ninth claims for relief Dennes notes that
the only evidence linking him to the Tsang robbery was accomplice
testimony by Balderas.

He argues that it 'was unconstitutional to

allow uncorroborated accomplice testimony.
Dennes correctly observes that the Supreme Court has held that
the constitution imposes a requirement of heightened reliability on
capital proceedings.
U. S.

280

requires

(1976).

See, e.g., Woodson v. North Carolina, 428
He argues that this heightened reliab,ility

corroboration

for

accomplice

testimony.

Dennes

acknowledges that federal courts have rejected the claim that
accomplice testimony must be corroborated,

~

Thompson v. Lynaugh,

821 F.2d 1054 (5th Cir. 1987), but argues that this ignores the
requirements of Woodson.
-21App.A85

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22117 Page 22 of 42

Dennes is unable to cite a single case in the almost 30 years
since Thompson that holds that Woodson requires corroboration of
accomplice
offense.

testimony

concerning

In Thompson,

rejected the

an

however,

unadjudicated

the

extraneous

Fifth Circuit

claim now asserted by Dennes.

"The

expressly
state-law

requirement that accomplice witness testimony be corroborated has
no independent constitutional footing."
1062.

Thompson,

821 F. 2d at

The fact that the Fifth Circuit has expressly rejected the

claim that accomplice testimony must be corroborated, along with
the fact that no federal court has ever held to the contrary ,
persuades the court that Dennes' s eighth and ninth claims for
relief should be denied.
D.

Eyewitness Identification

David Copeland, the security guard at the building where Szucs
had his office, identified Dennes in a photo spread and at trial as
the person who shot him on the night of the murder.

In his tenth

and eleventh claims for relief Dennes argues that the photo spread
and lineup at which Copeland identified him were unduly suggestive.
In his twelfth claim for relief Dennes argues that Copeland's incourt

identification of Dennes

was

tainted by the

allegedly

suggestive out-of-court identifications.
At a

su~pression

hearing Copeland testified that he was shown

a photo spread at his home on or about February 5, 1996.
spread consisted of

two

sheets;

each

containing

The photo

six photos.

-22App.A86

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 23 of 42

Copeland chose a picture that looked familiar to him.

Copeland

said that the person in the photo had similar facial features to
the man who shot him.

(6 Tr. at 72-75)

The man he picked was not

Dennes.
The. following day,

Dennes was arrested on February 22.

Copeland viewed a lineup consisting of Dennes, his brother Albert,
and four other men.

Id. at 13.

Copeland testified that he was

told before the lineup that an arrest had been made, id. at 75, but
the homicide detective who called Copeland disputed that statement,
id. at 19.

The detective testified that he told Copeland that the

person who shot him might or might not be in the lineup, id., and
Copeland testified that he was told that he was under no obligation
to pick anyone out of the lineup, id. at 75.

Copeland testified

that all six of the men in the lineup were similar in height and
weight.

Id. at 76.

Copeland identified Dennes as the one who was

closest in appearance to the shooter, though Copeland noted that
Dennes had shorter hair and was not wearing glasses or a mustache
in the lineup.

Id. at 77.

Following the hearing, the trial court

denied Dennes's motion to suppress the identification.
At trial Copeland testified about the photo spread and how he
identified someone who looked similar to the shooter, but that it
was not, in fact, the shooter.

(25 Tr. at 149-52)

that he picked Dennes out of a lineup,

He testified

and that he had some

reservations because of the difference in Dennes's hair and the

-23-

i
App. A87

t
I

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 24 of 42

absence of the disguise.

Id. at 152-57.

When Dennes donned the

disguise in court, Copeland identified him as the shooter.

Id. at

142-43.

An identification resulting from an unduly suggestive lineup
must be suppressed.
(1967).

See, e.g., Stovall v. Denno, 388 U.S. 293, 298

The admissibility of identification evidence is governed

by a two-step analysis.
to

whether

the

Initially, a determination must be made as

identification

suggestive.

Next,

totality of

the

procedure

was

impermissibly

the court must determine whether,

circumstances,· the

suggestiveness

under the

leads

substantial likelihood of irreparable misidentification.

to

a

Lavernia

v. Lynaugh, 845 F.2d 493, 499 (5th Cir. 1988).
Dennes

argues

that

the

photo

spread

and

lineup

were

impermissibly suggestive because Copeland knew that the police had
a suspect in custody.
Even assuming that

That assertion is disputed in the record.

it

is correct,

however,

the

identification

contains sufficient indicia of reliability to be admissible.
The

Supreme

determining

the

Court

has

reliability

noted several
of

an

factors

relevant
(1)

identification:

to
the

opportunity of the witness to view the criminal at the time of the
crime;
the

(2) the witness's degree of attention;

witness's

prior

description;

(4)

the

(3) the accuracy of
level

demonstrated by the witness at the confrontation;

of

certainty

and

length of time between the crime and the confrontation.

(5)

the

Neil v.

Biggers, 409 U.S. 188, 199-200 (1972).
-24-

App.A88·

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 25 of 42

The record establishes that Copeland initially saw Dennes in
the lobby of the office building from a distance of about 10 yards.
The lobby ,was well lit.

(6 Tr. at 67-68)

He saw Dennes again a

short time later when Dennes carne within inches of Copeland and
shot him.

Id. at 69-71.

Copeland was working as a security guard and saw ])ennes in the
lobby.

Dennes presents nothing to suggest that Copeland was

inattentive.

Copeland

also

gave

a

detailed

description of the shooter to the police.
Copeland

identified

Dennes

at

the

and

accurate

(6 Tr. at 65-87)
lineup,

expressing

reservations only about the length of Dennes's hair and the lack of
disguise.

When Dennes put on the disguise in court, Copeland was

certain of the identification.

(25 Tr. at 142-43)

Copeland testified that the photo spread occurred somewhere
around February 5, and the live lineup occurred on February 23,
1996.

Both dates are within a month of the murder, on January 24,

1996.
Under the totality of the circumstances, the identification is
reliable.

The trial court did not err in admitting Copeland's

identification.
E.

Testimony of Antonio Ramirez

In his thirteenth through sixteenth claims for relief, Dennes
contends that the trial court erred in admitting the testimony of
Antonio Ramirez.

Ramirez testified during the guilt-innocence
-25-

App.A89

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 26 of 42

phase that he assisted Dennes
United

States

from

Mexico,

in smuggling diamonds

and

that

he

manufactured

into

the

two

gun

silencers for Dennes.
Dennes complains that this amounted to extraneous offense
evidence that was not relevant to the crime for which he was on
trial.

He

further argues

that

the· trial court erred in not

instructing the jury that it must determine if Ramirez was an
accomplice and,

if so,

that his testimony must be corroborated.

All of these claims allege errors of Texas evidence law.

Dennes

cites no federal authority in support of any of these claims.
As discussed above, the Fifth Circuit has held that there is
no basis in the United States Constitution for a rule requiring
corroboration
fifteenth

and

of

accomplice

sixteenth

testimony.

claims

for

Therefore,

relief

fail

to

Dennes's
state

a

cognizable claim for relief.
His complaints about the general admissibility of Ramirez's
testimony are complaints about state court evidentiary rulings.
"[I]t is not the province of a federal habeas court to reexamine
state-court determinations on state-law questions.

In conducting

habeas review, a federal court is limited to deciding whether a
conviction violated the Constitution,
United States."

Estelle v. McGuire,

laws,

or treaties of the

502 U.S.

62,

67-68

(1991).

Because Dennes fails to identify a constitutional violation, he is
not entitled to relief on his claims that the trial court erred
with regard to the testimony of Antonio Ramirez.
-26-

App.A90

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 27 of 42

F.

SUfficiency of the Evidence
In his seventeenth and eighteenth claims for relief, Dennes

argues that the evidence was insufficient to support his conviction
for

capital

underlying

murder

offense

evidence

"the

of

relevant

in the

the

robbery

evidence

or

did

attempted

not

prove

robbery

the

beyond

a

In addressing a sufficiency of the evidence

reasonable doubt.
claim,

because

question

light most

is

whether,

favorable

to

after

viewing

the

the prosecution,

any

rational trier of fact could have found the essential elements of
the crime beyond a reasonable doubt."

u.s.

307, 319 (1979)

evidence

is a

Jackson v. virginia, 443

(emphasis in original).

mixed question of

The sufficiency of
See Gomez v.

law and fact.

Acevedo, 106 F.3d 192, 198 (7th Cir.), vacated on other grounds,
522 U.S. 801 (1997).

Therefore, as noted above,

grant federal habeas relief under 28 U.S.C.
the

state

court

decision

unreasonable application of,
precedent]."

"was

contrary

§

this court may

2254(d) (1) only if

to,

or

clearly established

involved

an

[Supreme Court

Martin v. Cain, 246 F.3d 471, 475 (5th Cir. 2001).

The TCCA summarized the evidence in addressing these claims.
Ramirez's testimony
indicated that [Dennes]
intended to rob and murder a jewelry dealer who kept an
office in the Greenrich Building.
The testimony also
indicated that [Dennes] test-fired a weapon in a field.
Further testimony and physical evidence indicate that a
jewelry dealer was shot to death in the Greenrich
building with bullets matching those used to shoot the
security guard as well as matching some spent casings
from bullets test-fired in a field.
[Dennes] was seen
approaching the security guard and immediately thereafter
the guard was found wounded and lying on the floor of the

l

-27-

E

App. A91

l
J

i

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 28 of 42

building where the murder victim was eventually found.
All of this evidence connects [Dennes] to Szucs's murder.
Regarding the proof supporting the robbery, testimony
revealed that Szucs was in possession of $3.6 million in
diamond inventory and approximately $200,000 dollars in
cash at the time of the murder.
Plus-Szucs' s wife
testified that the victim always wore a diamond ring on
his pinky and had been wearing that ring the morning of
his death. However Szucs was not wearing this ring when
his body was found by the police shortly after he had
been killed nor was the ring ever recovered.
Finally
access to Szucs's office was limited to persons who had
a key or persons who were let in from the inside of the
office.
[Dennes] speculates that someone else could have taken
these i terns during the course of the evening as he
committed his own crime but he has presented no evidence
that anyone else was near the scene of the murder. Hence
the only reasonable conclusion for the jury to draw was
that [Dennes] or his accomplice took the items and killed
Szucs.
Dennes v. State, No. 72,966 (Tex. Crim. App. Jan. 5, 2000), slip
op. at 7-8.
The TCCA's discussion accurately summarizes the evidence.
Even if robbery by Dennes was not the only reasonable conclusion
for

the

jury

conclusion.

to

have

drawn,

it

was

certainly

a

reasonable

Therefore, the evidence was sufficient under Jackson,

the TCCA's conclusion is entitled to deference, and Dennes is not
entitled to relief on his seventeenth and eighteenth claims for
relief.
G.

Denial of Challenges for Cause
In his nineteenth and twentieth claims for relief, Dennes

argues that the trial court erred in denying his challenges for
-28-

f
App.A92

I

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 29 of 42

cause to two venire members.

Dennes asserts that Richard Wayne

Miller stated that "I have my mind made up right now" that a
defendant found guilty of capital murder would probably kill again
in the future.

18 Tr. at 100 .. Venire member Martha Jean Gutierrez

stated that she could not consider mitigating evidence after
finding a defendant guilty of capital murder and finding that he
would pose a future danger to society.

In a capital case, a juror

can be challenged for cause if "the juror's views would 'prevent or
substantially impair the performance of his duties as a juror in
accordance with his . . . oath.'"
412, 424 (1985)

Wainwright v. Witt, 469 U.S.

(quoting Adams v. Texas, 448 U.S. 38, 45 (1980)).

Dennes used peremptory strikes to remove both Miller and Gutierrez
after the trial court denied his challenges for cause.
Assuming that
challenges

for

the trial

cause

to

court erred in denying Dennes' s

these

two

venire

members,

Dennes

nonetheless fails to demonstrate any constitutional violation.
Dennes used peremptory strikes to remove both Miller and Gutierrez.
While he contends that he used all of his peremptory challenges and
was forced to accept an unfavorable juror, the record shows that
the trial court granted him two additional peremptory strikes, and
both parties then promptly accepted the next juror on the list as
the twelfth juror.

See 24A Tr. at 30-34.

At most, Dennes was

forced to accept an alternate juror who he would have challenged if
he had an additional peremptory challenge.

He makes no claim,

-29-

App.A93

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 30 of 42

however, that any alternate juror participated in deliberations or
in rendering the verdict.
As a general rule, a trial court's erroneous venire
rulings do not constitute reversible constitutional error
"so long as the jury that sits is impartial."
United States v. Martinez-Salazar, 528 U.S. 304, 313, 120
S.Ct. 774, 145 L.Ed.2d 792 (2000) (quoting Ross v.
Oklahoma, 487 U.S. 81, 88, 108 S.Ct. 2273, 101 L.Ed.2d 80
(1988»; see also United States v. Prati, 861 F.2d 82,87
(5th Cir. 1988) ("Only in very limited circumstances ...
will such an unintentional mistake warrant reversal of a
conviction.") .
Jones v. Dretke, 375 F.3d 352, 355 (5th Cir. 2004).
no showing that any of
not impartial.

th~

Dennes makes

jurors, including the alternates, were

He therefore fails to demonstrate a Sixth Amendment

violation.
Moreover, on federal habeas review, error is harmless unless
it

"had

[aJ

substantial and injurious effect or influence in

determining the jury's verdict."
619, 623 (1993)

Brecht v. Abrahamson, 507 U.S.

(internal quotation marks and citation omitted) .

The burden of proving such injury is on the petitioner.
637.

Id. at

Dennes makes no showing that any juror whom he found

unacceptab.le participated in deliberations.

He therefore fails to

demonstrate that any trial court error in denying his challenges
"had a substantial and injurious effect or influence in determining
the jury's verdict."
H.

Therefore, any error was harmless.

Burden of Proof on Mitigation Special Issue

One of the special issues submitted to the jury required the
jury to determine:
-30App.A94

I
l.

t

1

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 31 of 42

Whether, taking into consideration all the evidence,
including the circumstances of the offense,
the
defendant's character and background, and the personal
moral culpability of the defendant, there is a sufficient
mitigating circumstance or circumstances to warrant that
a sentence of life imprisonment without parole rather
than a death sentence be imposed.
TEX. CODE CRIM. PRoe. art. 37.071(e)

(Vernon Supp. 1998).

In his

twenty-first claim for relief, Dennes argues that the trial court
erred in not instructing the jury that the State bears the burden
of disproving the existence of any mitigating evidence.
The Fifth Circuit
has held that "[n]o Supreme Court or Circuit precedent
constitutionally requires that Texas's mitigation special
issue be assigned a burden of proof." Rowell v. Dretke,
398 F.3d 370, 378 (5th Cir. 2'005).
In Avila v.
Quarterman, this court rejected a petitioner's argument
"that allowing a sentence of death without a jury finding
beyond a reasonable doubt· that there were no mitigating
circumstances sufficient to warrant a sentence of life
imprisonment violated his Sixth and Fourteenth Amendment
right to due process and a fair trial." 560 F.3d 299,
315 (5th Cir. 2009).
Qther decisions have likewise
rejected the argument that failure to instruct the jury
that the State has the burden of proof beyond a
reasonable
doubt
on
the
mitigation
issue
is
unconstitutional. See, e.g., Scheanette v. Quarterman,
482 F.3d 815, 828 (5th Cir. 2007); Granados v.
Quarterman, 455 F.3d 529, 536-37 (5th Cir. 2006) .
Druery v. Thaler, 647 F.3d 535, 546-47 (5th Cir. 2011).

Therefore,

well-established Fifth Circuit precedent shows that Dennes is not
entitled to relief on this claim.
I.

Meaningful Appellate Review

In his twenty-second claim for relief Dennes argues that the
Texas capital sentencing scheme is unconstitutional because the
-31App.A95

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 32 of 42

jury's conclusions

on the special

meaningful appellate review.

issues are not

capable of

Federal death penalty jurisprudence

requires state's to provide an opportunity for review by appellate
courts to guard against arbitrary imposition of the death penalty.
See, e.g., Clemons v. Mississippi, 494 U.S. 738, 749 (1990).

The

Supreme Court has also held, however, that there is a difference
between the jury's decision whether a defendant is eligible for the
death penalty, and its decision whether to impose a death sentence.
Tuilaepa v. California, 512 U.S. 967 (1994).

While the former must

follow a process that is rationally reviewable by appellate courts,
the

latter

"requires

individualized

sentencing

and

must

be

expansive enough to accommodate relevant mitigating evidence so as
to assure an assessment of the defendant's culpability."
973.

Accordingly,

"the

sentencer

may

be

given

Id. at

'unbridled

discretion in determining whether the death penalty should be
imposed after it has found that the defendant is a member of the
class made eligible for that [death] penalty.'"

Id. at 979-80.

As the Fifth Circuit has explained,
[a] capital murder trial in Texas proceeds in a
bifurcated process. In the first, or "guilt-innocence,"
phase, a defendant's eligibility for consideration of the
death penalty is determined. Once that eligibility is
determined, the trial proceeds to the second, or
"punishment," phase, wherein the defendant is either
selected for death or for the alternative sentence of
life imprisonment.
Woods v. Cockrell, 307 F.3d 353, 359 (5th Cir. 2002).
jury's answers

to the special issues

Because the

is not relevant to the

-32-

App.A96

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 33 of 42

question of a defendant's eligibility for the death penalty,
Dennes's twenty-second claim for relief has no merit.
J.

The 12-10 Rule

Article

37.071 of

the

Texas

Code

of

Criminal

Procedure

requires a jury instruction informing the jury that it must have at
least 10 "no" votes to answer "no" on the aggravating special
issues, and at least 10 "yes" votes to answer yes on the mitigation
special issue.

In his twenty-third claim for relief Dennes argues

that this "12-10 rule" confuses jurors as to the effect of a single
negative vote on the special

issues,

and might cause jurors

inclined to vote against a death sentence to waver and vote for a
death sentence instead.
Petitioner relies on Mills v. Maryland, 486 U.S. 367 (1988),
and McKoy v. North Carolina, 494 U.S. 433 (1990), to support his
claim.

In those

cases

the Supreme

Court held that

capital

sentencing schemes requiring the jury to unanimously find the
existence of any mitigating factor before giving that factor any
weight violated the Eighth Amendment.

Instead, the Court held,

each juror must be free to give any mitigating evidence any weight
that

juror deems

appropriate

in

weighing

mitigating

against

aggravating evidence.
The Fifth Circuit has rejected this claim.

"Mills is not

applicable to the capital sentencing scheme in Texas.

We have

concluded that' [u]nder the Texas system, all jurors can take into
-33-

App.A97

I

I

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 34 of 42

account any mitigating circumstance.

One juror cannot preclude the

entire jury from considering a mitigating circumstance.'"

Miller

v. Johnson, 200 F.3d 274, 288-89 (5th Cir. 2000) (quoting Jacobs v.
Scott, 31 F.3d 1319, 1329 (5th cir. 1994».
While the trial court in this case informed the jury that it
could not affirmatively find that the mitigating evidence was
sufficient to warrant a life sentence unless at least 10 jurors
agreed, it never instructed the jury that any particular number of
jurors had to agree that any particular piece of evidence was
mitigating.

In other words, even if only one juror felt that a

specific piece of evidence was mitigating, that juror could give
the evidence any weight he deemed appropriate.
stated

only

that

at

mitigating evidence,

least
had

to

10

jurors,

agree

mitigating evidence to impose a

that

The instruction

individually
there

life sentence.

was

weighing

sufficient

Because this

instruction does not suffer from the constitutional flaw underlying
Mills and McKoy, Dennes is not entitled to relief.
K.

Conclusory Claims

In his twenty-fourth through thirty-second claims for relief
Dennes asserts numerous claims of error in conclusory fashion with
no citations to the record, and only one citation to any authority.
"The . . . presentation of conclusory allegations unsupported by
specifics is subj ect to summary dismissal.
Allison, 431 U.S. 63, 74 (1977).

. . ."

Blackledge v.

Therefore, claims twenty-four

through thirty-two will be dismissed.
-34App.A98

f

I
f

,
f

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 35 of 42

L.

Ineffective Assistance of Counsel
In his thirty-third and final claim for relief Dennes contends

that he
respects.

received ineffective assistance of

counsel

in several

To prevail on a claim for ineffective assistance of

counsel, Dennes
must show that . . . counsel made errors so serious that
counsel was not functioning as the "counsel" guaranteed
the defendant by the Sixth Amendment.
Second, the
defendant must show that the deficient performance
prej udiced the defense.
This requires showing that
counsel's errors were so serious as to deprive the
defendant of a fair trial, a trial whose result is
reliable.
Strickland v. Washington, 466 U.S. 668, 687 (1984).

In order to

prevail on the first prong of the Strickland test, Petitioner must
demonstrate that counsel's representation fell below an objective
standard of reasonableness.

Id.

at 687-88.

Reasonableness is

measured against prevailing professional norms and must be viewed
under the totality of the circumstances.
counsel's performance is deferential.

Id. at 688.

Review of

Id. at 689.

Where a state court has decided an ineffective assistance
claim

adversely

to

the

petitioner,

the

petitioner

faces

an

extraordinarily difficult burden.
Establishing that a state court'~ application of
Strickland was unreasonable under § 2254(d) is all the
more difficult. The standards created by Strickland and
§ 2254 (d) are both "highly deferential, " [Strickland, 466
U.S.] at 689, 104 S.Ct. 2052; Lindh v. Murphy, 521 U.S.
320, 333, n.7, 117 S.Ct. 2059, 138 L.Ed.2d 481 (1997),
and when the two apply in tandem, review is "doubly" so,
Knowles [v. Mirzayance], 556 U. S., at 123, 129 S. Ct.
[1411], at 1420.
The Strickland standard is a general
one,
so the range of reasonable applications is
-35-

App.A99

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 36 of 42

substantial.
556 U.S., at 123, 129 S.Ct. at 1420.
Federal habeas courts must guard against the danger of
equating
unreasonableness
under
Strickland
with
unreasonableness under § 2254 (d) .
When § 2254 (d)
applies, the question is not ,whether counsel's actions
were reasonable. The question is whether there is any
reasonable argument that counsel satisfied Strickland's
deferential standard.
Harrington v. Richter, 562 U.S. 86, 105 (2011).
Probable Cause

1.

Dennes first complains that counsel failed to object when
police officer Todd Miller testified that Dennes was arrested
pursuant to a warrant based on a probable cause determination by a
Miller explained what an arrest warrant is,

judge.

"Attached to the warrant is a detailed probable cause,

stated:

which the judge goes over in which the officer . .
154.

and then

"

27 Tr. at

Counsel then objected, and the objection was sustained.

Id.

Miller gave no further testimony about the contents of the warrant.
Dennes now complains that the reference to the finding of
probable cause suggested to the jury that a judge had already made
a determination of Dennes's guilt.

He argues that counsel should

have obj ected to the testimony as irrelevant and requested an
instruction for the jury to disregard the testimony.
Dennes clearly cannot demonstrate that he was prejudiced by
his attorney's conduct -- counsel objected,
sustained,
subject

the objection was

and the witness did not mention the objectionable

matte~

again.

Dennes makes no showing that a different

objection would have produced a more favorable result.
-36App. AIOO

I

I
I
.I

!

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 37 of 42

Dennes also claims that counsel should have requested an
instruction to disregard.

Counsel submitted an affidavit

connection with Dennes's state habeas application.

in

Counsel stated

that he did not request an instruction because he did not wish to
highlight the statement for the jury.

He also noted that the judge

stopped the witness's statement when counsel objected, and counsel
did not think any further action was necessary.

SH at 174.

The

state habeas court found that counsel was not ineffective because
his objection ~as sustained, and it was a reasonable decision to
choose not to emphasize the witness's statement.

Id. at 240.

The Supreme Court has held that "strategic choices made after
thorough investigation of law and facts relevant to plausible
options are virtually unchallengeable .
u.s. at 690.

"

strickland, 466

Thus, counsel's strategic decision not to emphasize

the officer's statement is "virtually unchallengeable," and the
state

habeas

court's

conclusion

that

counsel

did

not

render

ineffective· assistance is reasonable, and is entitled to deference
under the AEDPA.
2.

Hearsay

Dennes next
hearsay

objection

complains that counsel should have raised a
to

testimony

by

Officer

Miller

concerning

statements made by Dennes's counsel and by David Copeland at the
pretrial lineup.

Miller testified that he asked Dennes's lineup

counsel, Ellis McCullough, if he had any problem with the fill-ins
-37-

App.AIOl

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 38 of 42

used in the lineup, and that McCullough stated that they were "fine
as they were."

27 Tr. at 167.

McCUllough's statements were not hearsay.

The Texas Rules of

Evidence define hearsay as an out-of-court statement offered to
prove the truth of the matter asserted.

See Tex. R. Evid. 801(d).

The State did not introduce McCullough's statement for the truth of
the

statement,

i.e.,

that

the

fill-ins

were

fine,

but

to

demonstrate that counsel was satisfied with the makeup of the
lineup.

Because the statement was not hearsay, counsel was not

deficient for failing to raise a hearsay objection.
Miller also testified that David Copeland identified Dennes in
the

lineup,

tentative.

though

he

characterized

the

identification

as

When Miller was asked why the identification was

tentative, counsel objected on hearsay grounds.

Id. at 176-77.

The prosecutor rephrased the question to ask if Copeland eliminated
anyone

from

the

lineup,

and

eliminated three fill-ins.

Id.

Miller

responded

that

Copeland

He also testified that Copeland

stated that number five in the lineup, which was Dennes, looked
closest to the shooter.

Id.

There was nothing objectionable about Miller's testimony that
Copeland eliminated three fill-ins.

The testimony does not relate

a statement, but an action that Miller observed.

Thus, to the

extent that Dennes complains about this testimony, the complaint is

I

I

meritless.

II

-38-

,i
App. AI02

I
ii
I

Case 4:14-cv-00019 Document 36 Filed in TX'SD on 03/22/17 Page 39 of 42

The state habeas court found that Copeland's statement that
Dennes looked most like the shooter came within the present sense
impression exception to Texas's hearsay rule.
(citing Tex. R. Evid. 803(1).

See SH at 240

Therefore, it was not hearsay.

Because none of the complained-of statements were hearsay, any
hearsay objection would have been futile.

Counsel's failure to

raise a meritless claim did not constitute deficient performance.
See, e.g., Sones v. Hargett, 61 F.3d 410, 415 n.5 (5th Cir. 1995)
("Counsel cannot be deficient for failing to press a frivolous
point."); Koch v. Puckett, 907 F.2d 524, 527 (5th Cir. 1990) ("This
Court has made clear that counsel is not required to make futile
motions or objections.").

In addition, because such objection

would have been without merit, it is not reasonably probable that
counsel would have obtained any relief had the objection been made.
Dennes fails to demonstrate deficient performance by counselor
Strickland prejudice.
3.

Leading Questions

In his final claim Dennes argues that counsel was ineffective
by failing to object to several allegedly leading questions posed
to Estrella Martinez.

Martinez was the cleaning lady in the

Greenrich Building on the night of the murder.
Martinez testified through an interpreter.

Respondent points

out that the Texas Rules of Evidence allow for leading questions
when necessary to develop the testimony of a witness, and argues
-39-

App.AI03

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 40 of 42

that leading questions were necessary here because of the language
barrier.

Dennes's trial counsel stated the same in his affidavit,

SH at 176, and the state habeas court found that this was the case,
id.

at 241.

Dennes makes no showing that the state court's

conclusion was unreasonable.

Moreover, even if the questions were

improper and counsel was deficient by failing to object, Dennes
makes no showing that such deficiency caused him any prejudice.
IV.

Dennes has

not

Certificate of Appealability

requested a

certificate of appealability

("COA"), but this court may determine whether he is entitled to
this relief in light of the foregoing rulings.

See Alexander v.

Johnson, 211 F. 3d 895, 898 (5th Cir. 2000) ("It is perfectly lawful
for district court's [sic] to deny COA sua sponte.

The statute

does not require that a petitioner move for a COA; it mere'ly states
that

an

appeal

may

not

be

taken

appealability having been issued.").

without

a

certificate

of

A petitioner may obtain a COA

either from the district court or an appellate court,

but an

appellate court will not consider a petitioner's request for a COA
until the district court has denied such a request.

See Whitehead

v. Johnson, 157 F.3d 384, 388 (5th Cir. 1988); see also Hill v.
Johnson, 114' F.3d 78, 82 (5th Cir. 1997)

("[T]he district court

should continue to review COA requests before the court of appeals
does.") .
A COA may issue only if the petitioner has made a "substantial
showing of the denial of a constitutional right. "

28 U. S . C.

-40App.AI04

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22117 Page 41 of 42

§

2253(c) (2); see also United states v. Kimler, 150 F.3d 429,431

(5th Cir. 1998).
demonstrates

A petitioner "makes a substantial showing when he

that

his

application

involves

issues

that

are

debatable among jurists of reason, that another court could resolve
the issues differently, or that the issues are suitable enough to
deserve encouragement to proceed further."
213 F.3d 243, 248 (5th Cir. 2000).

Hernandez

V.

Johnson,

The Supreme Court has stated:

Where a district court "has rejected the constitutional
claims on the merits, the showing required to satisfy
§
2253 (c) is straightforward:
The petitioner must
demonstrate that reasonable jurists would find the
district court's assessment of the constitutional claims
debatable or wrong.
The issue becomes somewhat more
complicated where . . . the district court dismisses the
petition based on procedural grounds.
We hold as
follows:
When the district court denies a habeas
petition on procedural grounds without reaching the
prisoner's underlying constitutional claim, a COA should
issue when the prisoner shows, at least, that jurists of
reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional
right and that jurists of reason" would find it debatable
whether the district court was correct in its procedural
ruling.
Slack

V.

McDaniel, 529 U.S. 473, 484 (2000).

of whether a

COA should issue must

"[T]he determination

be made

by viewing the

petitioner's arguments through the lens of the deferential scheme
laid out in 28 U.S.C.

§

2254 (d) ."

Barrientes

V.

Johnson, 221 F.3d

741, 772 (5th Cir. 2000).
The court has carefully considered each of Dennes' s claims and
concludes that each of his claims is foreclosed by clear, binding
precedent.

The court concludes that Dennes has failed to make a

"substantial showing of the denial of a constitutional right."

28

-41App.AI05

Case 4:14-cv-00019 Document 36 Filed in TXSD on 03/22/17 Page 42 of 42

u.S.C.

§

2253{c) (2).

Dennes is not entitled to a certificate of

appealability.

v.

Conclusion and Order

For the foregoing reasons, it is ORDERED as follows:
1.

Peti tioner Reinaldo Dennes' s First Amended Death
Penalty Case Application for Post-Conviction Writ
of Habeas Corpus (Docket Entry No. 22) is DENIED
and is DISMISSED with prejudice.

2.

No Certificate of Appealability shall issue.

SIGNED at Houston, Texas, on this 22nd day of March, 2017.

E

UNITED STATES DISTRICT JUDGE

-42-

App. A106

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-34,627-02

EX PARTE REINALDO DENNES

ON APPLICATION FOR WRIT OF HABEAS CORPUS
CAUSE NO. 750313 IN THE 263 RD DISTRICT COURT
HARRIS COUNTY

Per curiam.

ORDER
This is a post conviction application for writ of habeas corpus filed pursuant to the
provisions of Texas Code of Criminal Procedure article 11.071.
Applicant was convicted in 1997 of capital murder committed in January 1996.
TEX. PENAL CODE ANN. § 19.03(a)(2). Based on the jury's answers to the special issues
set forth in the Texas Code of Criminal Procedure, Article 37.071, sections 2(b) and 2(e),

App.AI07

Dennes -2
the trial court sentenced him to death. Art. 37.071, § 2(g). I This Court affirmed
applicant's conviction and sentence on direct appeal. Dennes v. State, No. 72,966 (Tex.
Crim. App. January 5, 2000) (not designated for publication).
Applicant presented nine allegations in his application in which he challenges the
validity of his conviction and sentence. The trial judge entered findings of fact and
conclusions of law and recommended that relief be denied.
This Court has reviewed the record with respect to the allegations made by
applicant. We agree with the trial judge's recommendation and adopt the trial judge's
findings and conclusions. Further, we hold that applicant's allegations one through four,
and allegations six through nine, are procedurally barred. Based upon the trial court's
findings and conclusions and our own review of the record, relief is denied.
IT IS SO ORDERED THIS THE 18TH DAY OF DECEMBER, 2013.
Do Not Publish

I Unless otherwise indicated all references to Articles refer to the Code of Criminal
Procedure.

App. A108

FILED
ChrIs Daniel -

.' .~

DistrIct Clerk
CAUSE NO. 750313-A

EX PARTE

REINALDO DENNES,
Applrcant

AUG 19 2013

§

IN TIlE 263"" OISTRICflGOllI>L-~

§

OF

§

HARRIS COUNTY, TEXAS

The Court, having considered the applicant's application
the Respondent's Original Answer, the evidence elicited at
trial In cause no. 750313, affidavits submitted In cause
documents and records In cause nos. 750313 and
fact and conclusions of law:

r

~~

SlATE'S PROpoSED FINDINGS OF FACI.
CONCWSmNS OF LAW AND ORDER

.

n51

~

~

for~Qof habeas corpus;

th~cant's capital murder

n~~313-A,
~--

and official court

750313~akes the following findings of

IF

<>~

<J
<>~

FINDIN~ACT
1. The applicant, Relnaldo Dennes,
capital murder in cause no. 750313 in
2. The applicant was

~~dlcted and convicted of the felony offense of

th~RD District Court of Harris County, Texas.

repres~at trial by counsel Wendell Odom.

3. On August 28, 1997, tgpPlicant was found guilty of capital murder (XXXm R.R.
at 107); on September 3,
after the applicant's
mitigation spedal

4. On

19~~e
trial court assessed the applicant's punishment at death
~
.

jU~~ered

the first and second special Issues1 affirmatively and the

iSSU~atlVelY (XXXV R.R. at 108-9).

la"'~'5' 2000, the Court of Criminal Appeals affirmed the applicant's capital

murder conv~ln an unpublished opinion.

Dennes v •. State,

No. 72,966 (Tex. Crlm. App.

lan. 5, 2000}(not designated for publication).

1 The first special Issue asked whether th~re Is a probability that the applicant would commit acts of
violence that would constitute a continuing threat to sodetyi the second special Issue asked whether
the applicant actually caused the death of the deceased or did not actually cause the death of the
deceased but Intended to kill the deceased or another or anticipated that a human life would be taken.

1

RECORD~SMEMORANDUM

This Instrument is of er..9~~09
at the time of~

I

,....'1

.....

I

~

FACTS OF THE OFFENSE

5. The complainant, Janos Szucs, a wholesale diamond dealer, shared an office with
another diamond wholesaler In a multi-story office building where the applicant, Reinaldo
Dennes, a jewelry dealer, also had an office (XXXI R.R. at 163-8)(XXXII R.~ 61).
6. In

Decemb~r, 1995, Antonio Ramirez met the applicant at his ~~ and gave him

rings from Ecuador that Ramirez wanted the applicant to sell for him
7. In January, 1996, Ramirez made a silencer for the

~ R.R. at 89-96).

a~nt 'after the applicant

gave Ramirez a sketch of the device and money for matr§!; however, the applicant

~

,

determined it was too loud after he test-fired it in an ope~e d near his apartment (XXVI
o~

'h~

R.R. at 97, 113-25, 149).

~@r

8.

After Ramirez made a second

silenc~t

,

the applicant's Instructions, the

o~
applicant's brother Alberto test-fired It in the ~ field and the applicant told Ramirez to

modify the second silencer by placing

©

.

32).

more~~ wool Inside the silencer (XXVI R.R. at 128@

9.

The applicant test-fire~~ modified silencer In his office In Ramirez's and

Alberto's presence by firing ttOun through telephone books; Ramirez also made
modifications to a 9mm gun

~t the silencer would fit on the gun (XXVI R.R. at 132-3,

O(J;

136).
10. On
of a jeweler In

Janua'h~ 1996, the applicant asked Ramirez to participate in the robbery

th~lIcant's office building; the plan was that Alberto would shoot the

jeweler; Ram#Uld get the diamonds, and the applicant would take the building's
security videotapes (XXVI R.R. at 153-58).
11. On January 19, 1996, Ramirez, who did not intend to participate In the robbery,
called the applicant and unsuccessfully tried to get the silencer back from the applicant
before Ramirez left for Ecuador the next day (XXVI R.R. at 159-62).

2

App. AIIO

12. In January, 1996, the applicant talked to Estrella Martinez about her letting him
In the side door of the office building after working hours so he could take videotapes from
the security areai Martinez, who cleaned offices In the building, was In an Intimate
relationship with the married applicant (XXVIII R.R. at 8-13).

13. On January 22, 1996, the applicant bought Martinez a cell phone so he could
phone her when she needed to distract the security guard so the
videotapes; however, the robbery was postponed because certain

ap~wuld get the

p~ did not leave the

~

building when expected (XXVIII R.R. at 14-23, 38).

~

14. On January 24, 1996, Martinez opened the 10ad~Ck door for the applicant

and Alberto after the applicant called Martinez on the cell ~ne around 6:00 or 6:30 p.m.;

o~F

the applicant called Martinez again around 7:00 p.m.,~ told her to distract the security

~J@Jv
guard so she told the guard she had locked her key~n upstairs office (XXVIII R.R. at 44-

o~

~

8).

~

15. When
rE ~ eland, returned to the lobby, the applicant
. the security guard, David
~'\;<?,p
was kneeling behind the security desk an~ppeared to be working on the security system;
Copeland assumed the applicant

W~hnlcian working on the system (XXV R.R. at 106-

16. 120-1).

0

16.

Later In the

Copeland by having him

ev~,

the applicant called Martinez who again distracted

~pany her to the snack bar area; Martinez saw the applicant

copeI8~'hen she and Copeland returned to the lobby; the applicant was
~tIf!dr
overalls ~ cap and had a mustache - something he normally did not have

walking toward
wearing

(XXVIII R.R.

17.

~'~2).
M~nez

went Into the bathroom and the applicant, who had something In his

hand behind his leg, walked to Copeland, shot him In the chest with a 9mm gun with a
silencer, and then shot him In the back after he fell to the floor; Copeland, who played
dead, was able to describe his shooter when police arrived around 8:00 p.m. (XXV R.R. at
16-9, 22, 122-35).

3

App. AlII

o

III'

I

~

18. The video recording equlp!1lent was missing from the security area when police
arrived after Copeland was shot; the police secured the building but did not search the
locked offices in the multi-story building (XXV R.R. at 24).
19. The complainant's wife, Nicole Szucs, eventually called a business associate who
alerted the building manager when the complainant did not come home tha~enlng; police
then discovered the complainant's body in his locked seventh-floor
by the complainant buzzing someone through the locked
51)(XXVIII R.R. at 99-107, 186)(XXXI R.R. at 177-9).

OffIC~~ was accessed

dOO~XII

#

R.R. at 49-

u

20. Steel wool particles were on the complainant's b0t!;y~d desk; the complainant's
computer disc drive was wrecked and his safe was nearly .~ty (XXVIII R.R. at 121, 124,
o~~

'h~

204, 207-10)(XXIX R.R. at 20, 106).
21.

The complainant's five-carat ring

~@;'

w~issing,

along with $3,609,000 of

o~

diamond inventory and $200,000 cash the co~ant was planning to use on a diamondbuying trip (XXXI R.R. at 193-4,

197-9)(Xx~fGi).R. at 50-52)
~s
@

22. Although the murder weapon

never recovered, subsequent ballistic testing

determined that the same weapon ~he shell casings that were recovered from the field
where the applicant test-fired

from the building lobby, the
the bullets recovered
R.R. at 86, 103-5,

th~ncer, the shell casings and bullet fragments recovered

~ and fragments recovered from the applicant's'ofllce, and

fro~ complainant's body and

clothing during his autopsy (XXX

13g,t.:,..~, 162)(XXXV R.R. at 70-1).
~

23.

Accord~o Robert BaldWin,

.

Houston Police Department firearms examiner, the

©

recovered bu~~nd shell casings were most likely fired from a 9mm Luger Beretta or a
Taurus handgun; on February 22, 1996, a 9mm fired bullet and an owner's guide for a 9mm
Taurus semi-automatic weapon were recovered from the applicant's office (XXX R.R. at 27,
34-6,166).
24. The fingerprints of the applicant's brother, Alberto Dennes, were found on the
chair next to the door in the complainant's office (XXX R.R. at 115).

4

App.A112

'.. I,
25.

David Copeland, who survived the applicant's shooting him, underwent

surgeries, suffered damage to his left lung, and lost the full use of his left arm; Copeland
later Identified the applicant as the man who shot him (XXV R.R. at 143, 145-6).

0*

26. The complainant suffered flve gunshot wounds, Including two fatal gunshots: a
gunshot to his head with the bullet recovered from the left frontal lobe
gunshot to his left mid-chest that struck his heart and went

thrOUgh~~iaPhragm

and

~Q

pancreas and grazed his kidney (XXX R.R. at 74-82).

~

DEFENSE EVIDENCE AT GUILT-INNOCENCE

27.

brain and a

~

Firearms examiner Richard Earnst testified tha~was unable to match or

~-

.

eliminate the bullets recovered In the Instant case as belng~ed from the same weapon, so

o~F

he could not give an opinion as to whether the bUlle~~re fired from the same firearm;
Earnst determined that all the cartridge casings

;rJ,.@

wer~ed

In the same chamber of the same

o~

weapon - either a Beretta 9mm or some cOP~~UCh weapon such as a Brazilian Taurus

~(J

(XXXII R.R. at 83-119, 157, 170).
28.

Attorney Ellis McCullough t~fed that he was appointed to represent the

@

applicant and his brother Alberto D~ at the February 23, 1996 lineup; McCullough, who
had no objections to the lineup ~ns and who helped arrange the people in the lineup,
testlfled that the sole

male~ness

at the lineup did not identify anyone, but Ellis

o~<f? conducting the lineup determined that a "strong tentative"
Identification had beera~e although Ellis disagreed with the officer (XXXII R.R. at 174-82,
acknowledged that the

200).

~

29. J:#GradOni' private Investigator, testified that he was present when the
applicant's safety deposit box, containing only $1,000, was opened In Miami after the
applicant's arrest (XXXII R.R. at 202-14).
30. Daisy Dennes, the applicant's ex-wife, testified that the applicant had noticeable
markings on his abdomen, arm, and hand from being burned in a home accident in 1990;
trial counsel had the applicant display his burns to the jury (XXXIII R.R. at 4 - 9, 27-8).

5

App. A113

"

'.
STATE'S PUNISHMENT EVIDENCE

. 31. On April 1, 1989, the applicant was placed on deferred adjudication for 180 days
for the offense of Indecent exposure, cause no. 8911934, County Court #13 (XXXIV R.R. at

147-8, 151-5).
32. In October, 1995, the applicant approached David Balderas
of a large amount jewelry In his house on Portal Street; the applicant
around the country with jewelry and would have diamonds In

abo~Obblng

a man

sa~t the man flew

a~che

bag after he

~

returned from the airport (XXXIV R.R. at 50-7, 67-70).

~

33. On November 16, 1995, the applicant paged Bal~nd told him that the man
was home; Balderas relayed the message to Hector Fu&n and Francisco Elvira - men
o~~

Balderas recruited to actually enter the house for the ,~ery (XXXIV R.R. at 45-7, 57-62,

AJ@Jv
~

70-1).
34.

o~

Around 10:30 p.m., Danny T5an~~rd tapping on the back window of his

house on Portal Street; Fugon and Elvira

f~t;lrsang to open the door at gunpoint, tied up

Tsang, and repeatedly asked him where t~dlamonds were kept; Tsang, who knew that his

@

neighbor Albert Ohayon was In the ~ bUSiness, told Fugon and Elvira that they had the
wrong house {XXXIV R.R. at 102-@.

35. Fugon and Elvira ~ened Tsang's wife Christina who was sleeping with their
nine-year old daughter,
ransacked the
(XXXIV R.R. at
36.

~qnded

housel'~

the diamonds they had been told were In the house,

some jewelry and other Items, and then fled In Tsang's car

12~.

.

~

~~rds, Balderas told the applicant that It was the wrong house but the

applicant did not believe him; the applicant had told Balderas that there was supposed to be
one-half million to a

m~lIIon

dollars worth of Jewels In the house (XXXIV R.R. at 72-6,82).

37. The next morning the police checked on Tsang's neighbors, Rachel and Albert
Ohayoni Ohayon, who was In the diamond wholesale business, had just returned home the

6
App. Al14

I

•

previous evening with approximately $500,000 worth of jewelry; Ohayon knew the applicant
because they both once worked for the same company (XXXIV R.R. at 128-33).
38.

Nicole Szucs, the complainant's wife, testified that the complainant had a

working relationship with the applicant and sent business to him (XXXIV R.R. at 135-6).
DEFENSE PUNISHMENT EVIDENCE

39. calvin Wilson, Harris County Sheriff's Department,

testJfl~the applicant

had been written up on two occasions for three Infractions In the

y.e~nd a half that the
~

ob~n order and failure to
~
be properly dressed In the day room (XXIV R.R. at 159-66). ~
~
40. Jerome Brown, psychologist, testified that he ~ed with the applicant's sister,

applicant had been In jail; the infractions included refusing to

:rifF
~rvlewed
_~t@
Q

administered a battery of tests to the applicant, and
family background, any prior criminal history,

an~g

the applicant about his

or alcohol use, education, work,

_Q~~

marital Information, his early life and develop,~m., and his understanding of the charges

~

against him (XXIV R.R. at 185-9).

(})

~

41. Brown testified that there wa~n extraordinary lack of Information that would

@

suggest the applicant was capable ~~mlttlng capital murder; that Brown found nothing
to explain why the applicant
antisocial personality

strong religious
was In

the offense; that the applicant did not have an

dlsorde~t It was rare for someone to develop criminal aggression

at the applicant's age;
twenty years, an

co~~ed

th~e applicant had a stable family;

um.lli,,~event for Inmates on death row;

1&

c~tment;

that his first marriage lasted

that the applicant expressed a

and, that Brown could not have predicted that the applicant

dang:,~Olng something violent as few as six months before the offense (XXIV

R.R. at 189-201).
42.

Ray Dennes, the applicant's twenty-one year old son, testified that he was a

student at UT Austin; that he went to college on scholarship and lots of support from his
parents; that he worked as well as going to school full-time; that he was active In sports;
that his father had always been supportive and encouraged him to achieve goals; and, that

7
App.A115

'"

'.
he stili considered his father Influential and relied on him for advice and guidance (XXXIV
R.R. at 245-8).
43. Demetria Dennes, the applicant's mother, testified that the applicant was born
In Cuba and came to the United States with his family In 1961; that the applicant married at
age eighteen and began working as a jeweler; and, that he has a

tweIVe-y~ old

daughter

and a son with his first wife and a baby with his second wife (XXXV R.R. ~O).

44. Demetria Dennes Identified photos of the applicant with

~amllY and testified

chlldren~, protection, and an
~
him; t~e applicant was a loving, .

that the applicant was the best father who gave his
education; that his children were affectionate toward

attentive son on whom she could always count; that the~ ~ a close family; and, that the
applicant being found guilty almost felt like death
First Ground: trial court allegedly restricted
motIve for testIfyIng

(X'X'X'I,~. at 12-7).
A(gr

cross~mlnatlon

of AntonIo Ramirez re his

~

45. During cross-examination of Anto~amlrez, the applicant asked If anyone told
Ramirez what the punishment was for "th~pe" of murder; the prosecutor objected based
on relevance and the trial court sustaln~he objection (XXVII R.R. at 37).

b~Sking Ramirez, "In your dealings with avoiding a

46. The applicant latertf
state silencer law and any
and the trial court

U

pote~

5ustaine~e

Ramirez was Involved

dealings Involving any Involvement In a murder case...,"

prosecutor's objection that there was no evidence that

In~9murder case (XXVII R.R. at 41).

o(@

47. Prior t~~pPlicant's objected-to questions, the prosecutor elicited testimony
from Ramirez a~ meeting the applicant and Alberto, making the silencers at the
applicant's

~t,

being present when the silencers were test-fired, being asked to

participate in the robbery with the applicant and Alberto, unsuccessfully attempting to get
the silencer from the applicant, and leaving for Ecuador rather than participating In the
planned robbery (XXVI R.R. at 89-97, 113-36, 149, 153-62).

See Rndings Nos. 6-11,

supra.

8

App.Al16

L

'.

48. During direct examination, Ramirez testified that he did not know It was against
the law to make silencers until he talked to the FBI and he did not sign any written
agreement with authorities, but he was aware that charges would not be pursued against
him for making something Illegal (XXVI R.R. 183-4).
49.

During cross-examination, the applicant repeatedly qUestion~amlrez as to

whether he was told that he could be charged with capital murder a~ether Ramirez
knew that he could be charged with capital murder If he made a
be used In a robbery/murder (XXVII R.R. at 22-29, 36).
SO. When the applicant asked If Ramirez had been

for any robbery/murder, Ramirez testified that he had

slle~Uat he knew would

#

t~ would

not be prosecuted

b~Old he was not going to be

o~-

prosecuted for making the silencer at the applicant's r~st but he had not been told that

A~v

he would not be prosecuted for any robbery or any . e r (XXVII R.R. at 37).

o{@

51. The applicant then questioned Ra~~~bout his status as a legal resident In the
country, his wife's Illegal status In the
about his Wife, and any risk of

deportatio~e faced for "harboring" his wife (XXVII R.R. at
@

The Court finds thGe trial court allowed the applicant to cross-examine

Ramirez on numerous
being prosecuted for
murder, the

any agreement he had with HPD or INS

~

37-40).
52.

co~~,

factors~rdlng his motive for testifying, Including the possibility of

ma~ a silencer,

his possible Involvement, if any, In the capital

POSslblll~~receIVlng a reward for giving Information to the police, and any

Immigration cons#es (XXVII R.R. at 22-41).

'

©5

53. ~urt finds that the subject of Ramirez not being Involved In the capital
murder had been exhausted before the trial court sustained the prosecutor's objections to
the applicant's questions concerning whether anyone told Ramirez what the punishment was
for "this type" of murder and concerning "any potential dealings Involving any Involvement
In a murder case ..." (XXVII R.R. at 37, 41).

9

App. Al17

,

.
54. The Court finds that evidence showed that Ramirez was not Involved In the
capital murder and that he was not aware of the applicant's planned use of the silencer
when Ramirez made Iti the Court finds that Ramirez's awareness, If any, of the punishment
for capital murder Is Irrelevant.
r;:::d Two; alleged denial of fair trial

55.

based on Officer James Kay~

James Kay, Houston Police Department crime scene

test/~y re criminal

Urrt:J~stified

that two

possible suspects were brought to the scene of the offense by othe~cers, and that Kay
o~--

did an anatomiC absorption test on the palms of both men,

~ell

Speers and Michael

o~

Dalplnla, to determine If either handled or fired a weapon In~ last three hours (XXV R.R.

:~

o~

at 53, 72-3).
56.

In response to the prosecutor's

~

quest~euout

~

the -men's demeanor, McKay

testified that they were scared and did not seemo~now what was going oni the applicant

objected when Kay began statlng, "I dldn' r:fh"'l had anything to do -" and the trial
court noted that the testimony was not res&sive to the question (XXV R.R. at 73-5).
57. The prosecutor then aSke~Kay what were his feelings about the men based
on McKay's eighteen years of

t~g

a

and experience working on crime sceneSi the

applicant objected to what MCK~eelingS were or any speculation he may have had as to
the two men, and the trial
58. McKay

c~verruled the objection (XXV R.R. at 73-5).

testl~at It was his opinion that the two men were in the wrong place
o{/g

at the wrong time "fifjfoere scared and bewildered as to why they were picked up by the
police and
applicant's

"[t]hel~eanor wasn't that of a criminal typei" the trial court overruled the
o~n

of non-responsiveness and sustained the applicant's objection of

"asked and answered" (XXV R.R. at 73-5).
59.

The prosecutor asked McKay the baSis of his opinion and the trial court

sustained the applicant's hearsay objection made after McKay stated that, In over eighteen
years of talking with hundreds of suspects, he had developed a trait where he "can tell

10

App.A118

•

•
when a person Is telling [him] the truth and these men were saying they had nothing to do
with -" (XXV R.R. at 73-5).
60. The prosecutor asked Kay If the men were later excluded and Kay testified,
"Yes, sir. Well, they were released" later that night (XXV R.R. at 75).
During cross-examination, the applicant elicited testimony t~ Kay did not

61.

participate in interviewing the two men; that It could take up to two wee~get the results
from the anatomic absorption test; and, that If the jury had the

i~lon

7~3-S).
~
prosecutor ~d If Kay

that the men

were released as a result of the test, It was not true (XXV R.R. at
During redirect examination, the

62.

conclusion that the two men did not have anything to do

drew his own

w~e crime, and the trial court

o@-

sustained the applicant's objection that Kay was not

1'1~d

AJ@Jv

in questioning the men (XXV

'V

R.R. at 98).

o~
63. The prosecutor then eliCited testlm~om Kay that there were no charges filed
against the two men, and that they would e v e left the crime scene If they were "good"
suspects (XXV R.R. at 98).

©

@
64.

The Court finds that,' - to Kay's testimony, Paul Terry, Houston Police

Department, testified on cross-ex~ation that he indicated In his report it was determined
that the two suspects were
lady could Identify the

nO~lved In the offense; neither Keith Vacek nor the cleaning

me~v R.R. at 39-41).

red~ examination, Terry testified that the two men were released
f~
because the "mald~ermlned that neither was the person she saw do the shooting, and
65.

that HPD

During

wo~~t

release someone If it was believed that the person committed an

offense (XXV ~ at 46-7).
66. The Court finds that, after Kay's testimony, James Waltman, Houston Police
Department homicide division, testified that he Interviewed the two men that night; that
there was no reason to hold the men; and, that later results of the anatomic absorption
tests done on the two men did not give any reason to suspect them (XXVIII R.R. at 180-3).

11

App.AU9

•

•
67. During cross-examination of Waltman, the applicant elicited evidence that the
men were released primarily because Waltman had no reason to continue holding them, and

that neither Vacek nor Estrella Martinez could Identify them as someone they had seen
earlier than evening (XXIX R.R. at 43-5).
68. The Court finds that the applicant's habeas complaint - that he was denied a fair

c~~~tlfy criminal

trial by Kay testifying, without being qualified as an expert, that he

~comport

#

types and could tell when a person was telling the truth - does
appllcanrs objections at trial.

with the

69. The Court finds that the essence of Kay's testlm~ that the two men were

released without being charged and th'at he did not think
- was Introduced Into evidence Without objection
Sergeant Waltman's testimony. See Findings Nos.
70. The Court finds that Kay's

th.r~ Officer Terry's testimony and

~" supra.

o....~

testimon~"\:f,Oes

i:-)J~

~9were involved In the offense

<>lil

not imply or produce an Impression

that the applicant was guilty because he w..rt" ~t released In contrast to the two men who
were released without being charged.
71.

The Court finds

cg

dlstl~~ble

from the instant case the Court of Criminal

Appeals' opinion in Yount v. 5tat~ S.W.2d 706,711 (Tex. Crim. App. 1993), where the
Court held Inadmissible a
sexual abuse based
umimpeached victim. <>

hea~are professional's testimony that children

o~e
~

rarely lie about

expert's testimony Improperly bolstering the State's

dtii

72. The C~~llndS that, unlike the situation in Yount, the two men in the Instant
case were not
Kay did not

~sses and

their out-of-court statements were not admitted at trial, and

c~ment on the truthfulness of any testifying witness.

Ground Three:
alleged denial of fair trial based on admIssion of photographs of
,ornDlainant's body at the scene of offense

73. The Court finds that the applicant did not object at trial to the admission of
State's Exhibit 116, a photograph of the complainant's body.

12

App.A120

74. The Court finds that State's Exhibit 114 depicts the complainant's body slumped
In his office chair, with him holding a pair of eyeglasses; that State's Exhibit 115 depicts the
complainant's body from a different angle than State's Exhibit 114 and shows the steel wool
on the complainant's pants, shirt and desk; that State's Exhibit 116 Is a close-up view of the
complainant's head, neck, and chest with a gold chain necklace and bullet fragment visible
at the neckline of the complainant's shirt; that State's exhibit 118

*

dePI~ complainant's

desk and the complainant body In the chair at the desk; and, thagate's Exhibit 119
depicts the counter behind the complainant's desk with only a

,~of the complainant's

p~••

body viSible In the photograph. See State's Writ Exhibit C, phf1lllfi
75. The Court finds that the five photographs,
and 119, each depict something different; that

Q~_L
Exhibit 114,
o !!11F

St~s

th~otOgraphS

~~

115, 116, 118,

show the relatively

undisturbed nature of the complainant's desk and ~e, the condition and location of the

:~.& and details of the crime scene - such
complainant's body, the type and location of wo~s,
as the steel wool particles on the

complaln~clothing and desk and the glasses In his

hand.
76. The Court finds that
particularly gruesome; the
outweighed by possible

~

t~~OgraPhS are probative and are not cumulative or

court~~r finds that their probative value Is not substantially

prejUd~effect.

fI~qhat Sergeant Waltman's testimony concerning the matters
depicted In the photOgr~s was admissible at trial (XXVIII R.R. at 204-6)(XXIX R.R. at 577.

The Court

~

17).
78.

~~rt finds that the photographs provide evidence of a firearm being used

In the crlme i'1ifat the steel wool depicted In the photographs indicates that a silencer was
used In the shooting; and, that the lack of disarray and lack of signs of struggle indicate
that the shooter was likely a friend or acquaintance.
79. The Court finds that the complained-of photographs comprise only five exhibits
among approximately 174 State's exhibits introduced at trial.

13

App. A121

•

,

.
Ground Four: alle.ged denial of faIr trial based on testimony regarding arrest warrant for the
applicant

80. The Court finds that the applicant challenged the legality of his arrest through a
motion to suppress, alleging that there was no probable cause for his arrest and alleging
that his arrest was unlawful, and the trial court denied the applicant's motion after holding a
hearing on July 22, 1997 (I CI.R. at 80)(VI R.R. at 3, 101).
81.

During the applicant's trial, Todd Miller, Houston Police

~

~rtment homicide

division, testified that arrests were made In the case on Februa~~, 1996, pursuant to
"~warrants (XXVII R.R. at 154).
~
"~
82. When the prosecutor asked what an arrest warr~as, Miller testified It was a

~~person named In the warrant;
iJ~
the trial court sustained the applicant's objection ~~fter Miller added "attached to the

document signed by a judge authorizing police to

warrant is a detailed probable cause, which the

arrest"~

j~e

(j!'~

(XXVII R. R. at 154).
83. Miller acknowledged that he

hlht
'©-';' an

goes over In the which the officer -"

arrest warrant authorized and signed by a

district court judge for the applicant an~ose Albert Dennes, and Miller identified photos of
the applicant and Jose Albert
under the judge's authority
84. When asked
testified "[m]uch In
sustained th:

De~~ the men arrested pursuant to the warrants given
o .R. at 154-8, 162).

(XX~

hO~ obtained a search warrant for the applicant's office, Miller

the~Q. way as the arrest warrant process;" however, the trial court
"W}

apPI~~ objection made when Miller began to state that he "present(s) the

Judge with ... (XX~R.R. at 177-8),
85. , $ u r t finds that the prosecutor's questions concerning the circumstances of
the applicant's arrest, including the obtaining of arrest and search warrants, were neither
repetitive nor Improper, regardless of repetition of the word "warrant."
86. The Court finds that the prosecutor did not repeatedly make or elicit comments
about the fact that a judge had authorized the arrest of the applicant after the judge read a

14

App.A122

,

,

detailed probable cause affidavit; Instead, the only oblique reference to a probable cause
affidavit was made by Miller after being asked to explain what an arrest warrant was testimony to which the trial court sustained the applicant's objection (XXVII R.R. at 154).
87. The Court finds that Miller's testimony 'about obtaining an arrest warrant and
search warrant was part of the circumstances of the applicant's arrest an~ch testimony
did not Imply or express that a judicial determination of the apPlicant'~~ilt had already
been made.

#

~

~

Ground Five: alleged Ineffective assistance of counsel

LACK OF OBJEcnON TO ALLEGED IMPLICATION THAT JUDGE HAD D~INED APPLICANT'S GUILTY
AFTER SEEING PROBABLE CAUSE AFFIDAVIT
~"

88. According to the credible affidavit of trial

~~~ Wendell Odom made after he

co~1

~

reviewed the transcripts of the applicant's trial, he 0

'

~"

~d and the trial

court sustained his

objection when the State began asking Sergea~~ller about the details concerning the

~

.

applicant's arrest warrant; trial counsel OdO~ objected and the trial court sustained his
objection when the State questioned Mllle~out the circumstances surrounding the search

(g

warrant. State's Writ Exhibit B, FebruaWj2, 2008 affidavit of counsel Odom.

cred~~ffldavit of trial counsel Odom, he thought that an
cO
Instruction to disregard or clar~on questioning was not necessary after the trial court
89.

According to the

sustained his objections
that an Instruction to

and~ped further questioning In the area of probable cause, and

di~Qrd only emphasizes the comment or testimony If an Issue Is not

o_ilCf}

per se reversible e~~~tate's Writ Exhibit B, February 22, 2008 affidavit of counsel Odom.
LACK OF OBJEcrIO~~ALLEGED HEARSAY

90.

~~g

the applicant's trial, Sergeant Miller testified that attorney Ellis

McCullough was present when the lineup was composed and that McCullough assisted In
positioning and dressing some of the lineup participants - including the applicant and his
brother Alberto (XXVII R.R. at 161-9).

15

App. A123

o·

91. When asked If McCullough complained about the physical appearance of any of
the fill-Ins, Miller answered, "No. He said the fill-Ins were fine as they were" (XXVII R.R. at

167).
92. The Court finds that McCullough's statement was not offered through Miller to
show the truth of the matter, I.e., that the fill-ins were "fine" such that th~id not create
an Impermissibly suggestive lineup, but to show that McCullough ~not have any

r(J

objections to the fill-Ins.

~

93. The Court finds that McCullough's statement was

ma~~le he was viewing the

potential participants of the lineup; the Court finds that MCCU.'S statement Is a present

<Q"

~

sense Impression exception to hearsay.

94.

o~

The Court finds that Miller's testimony

applicant could wear his jacket during the lineup

t"~cCuliough

~-

~

asked a fill-in if the

not constitute an assertion that Is

o~
objectionable hearsay; Instead, It Is a question. ~

t~licant called Ellis McCullough as a witness
elicited testimony that McCullough ~de suggestions concerning the fill-Ins at the
95. In the defense's case-in-chief,

and

@

lineup; that he frequently had peo~ a lineup change clothes to look more uniform but
he had no specific recollection
made no positive or tentative
noted a "strong

o~ this

case; that, In McCullough's opinion, the witness

~tlfication; and, that McCullough was aware that the officer

tentatlve~~fication - a determination with which McCullough disagreed

175-8~~).
96. The ~ finds that the applicant cannot complain that trial counsel Is
Ineffective fo~ to object to the prosecutor's elidtlng the same evidence through Miller
(XXXII R.R. at

that trial counsel essentially presented In the defense's case-in-chief through witness Ellis
McCullough.
97. According to the credible affidavit of trial counsel Odom, he did not believe that
McCullough's statements were objectionable hearsay or that they harmed the applicant's
case; McCullough's statements were a present sense ImpreSSion regarding the composition

16
App.A124

of the line-up and a question about an.artlcle of clothing. State's Writ Exhibit B, February
22, 2008 affidavit of counsel Odom.

98.

Trial counsel objected to hearsay when the prosecutor asked Miller what

"features" concerned David Copeland so that he did not make a positive Identification at the
lineup, and Miller testified that Copeland eliminated numbers three, four and six after the

~
David Copeland Identified the applicant In-court as the per~ho shot him and

prosecutor rephrased the question (XXVII R.R. at 177).
99.

~
Copeland testified that he viewed two photo arrays, State's EXhi~ and 34; that he did
not Identify anyone in State's Exhibit 33; that he selected a
"the closest" to the person who shot him but he was not

~ In State's Exhibit 34 as

t~~rson who shot him; that he

o~

selected #5 from a live lineup as the person who Sho~~; and, that #5 "appeared to be
the one" because the hair had been changed and

~d no mustache (XXV R.R. at 143,

~

~.

150-7).

~Copeland, trial counsel elicited testimony
the~eup composition and procedure, and the

100. During cross-examination of
concerning the composite sketch,
photospreads and also eliCited

t~~~y ~hat

Copeland did not positively Identify the

applicant as the shooter until JUI~1997 (XXV R.R. at 158-68)(XXVI R.R. at 13-46).

101.

The Court

flnd~at

the applicant cannot complain that trial counsel is

~ to the prosecutor's eliCiting of the same evidence through
Miller that trial couns~~ted during cross-examination of Copeland.
102. Durl~rect examination, Copeland testified that the applicant Is the person
who shot him' ~ he Identified him at the Identification hearing; and, that the applicant
Ineffective for failing to

was without

~ustache but Copeland was positive that he was the shooter (XXVI R.R. at

53-4).
103.

According to the credible affidavit of trial counsel Odom, he questioned

Copeland about his tentative identification of the applicant, his viewing a photo spread prior
to the line-up, the statements made by Miller prior to the lineup-up, Copeland's first-time

17

App.A125

positive Identification of the applicant at the Identification hearing, the applicant's manner of
walking at the line-up, and the varying descriptions Copeland gave of the shooter. State's
Writ Exhibit B, February 22, 2008 affidavit of counsel Odom.

104. The Court finds that witness David Copeland testified at trial prior to Miller's
testimony;

that Copeland was subject to cross-examination concerning his lineup

IdenUficatlon of the applicant; and, that Miller's testimony about

Copela~ntiflcatlon of

the applicant Is governed by TEX. R. EVID. SOl(e)(l)(C), stating thfj statement is not
~

hearsay If the declarant testifies at trial, Is subject to

cross-e~atlon

.

concerning the

statement, and the statement Is one of Identification of a per~ade after perceiving the

<Q

person.

~

105. The Court finds that Copeland's

o~
tentatlv~ntlflcation
~f@

of the applicant and

elimination of certain other Individuals in the lineup ~ made Immediately after viewing the

..:..& exception to hearsay.
LACK OF OBJECTION TO ALLEGED LEADING QUES~OF ESTRELLA MARTINEZ
106. The Court finds that the apPI~t complains on habeas about the following five
lineup and, thus, falls within the present sense

questions the

I~sslon

prosecu~r asked Estr~rtlnez durtng direct examination:

(a) Is that Relnald DennOho told you that he rented the motel room so people
wouldn't know he was In
(b)

Old you

Dennes, In the side

HOUS~XXVIII R.R. at lS-9)?

hav~

other conversations about letting the defendant, Relnaldo

dg~ the building on

D.~~

Sunday, January 21, 1996, or Monday, January

22, 1996 (XXVIII ~~t 22)?
(c)

.

D~~t you (sic) tell you for somebody to let him in so he can give the tape to

somebody upS6f.rs (XXVIII R.R. at 23)?
(d) Has anybody for the district attorney's office, me or anybody else, promised to
intercede on our behalf with the immigration people (XXVIII R.R. at 91)?
(e)

And was that to make sure you didn't get deported before these trials are

finished (XXVIII R.R. at 91)?

18

App.A126

107. According to the credible affidavit of prosecutor Don Smyth, Estrella Martinez
did not speak English so he used a Spanish-speaking Interpreter to communicate with her
prior to trial and during trlali Smyth also had a difficult time getting Martinez to answer only
the question because she tended to ramble.

State's Writ Exhibit A, January 11, 2002

affidavit of prosecutor Smyth.

lOS.

According to the credible affidavit of prosecutor Don

carefully word his questions during direct examination of Martinez
translated and so Martinez would limit her answers to the

~

he tried to

s~ey could

~

qUeS~aSkedl

be easily

and there was

times when Martinez did not seem to understand his qUeS~1 0 he had to simplify the
questions by asking questions that called for a "yes" or
January 11,2002 affidavit of prosecutor Smyth.
109. According to the credible affidavit of

Q

"n~;t

o~

swer. State's Writ Exhibit A,

.~
~i@
~

counsel Odom, certain questions to

a~~ not speak English and testified through
Martinez had to be carefully crafted because sh~Y1W'

~

an Interpreter; trial counsel did not think thif' ~e five cited questions were objectionable as

~

leading because of the difficulty In ellcltln~artlnez's testimony; trial counsel had to ask the
trial court for leewav In

questlonln~nez because of the communication problem, and

there were times during Ma~ s testimony when trial counsel believed that the
questioning had to be done Iwadlng fashion. State's Writ Exhibit B, February 22, 2008
affidavit of trial counsel
110. The

o~

CO~dS that,

_4.&'

pursuant to TEX. R.

EVID.

611(c), leading questions may

be used when ne~"SI1 y to develop the testimony of a witness; the Court further finds that
leading

qUeS~I~ay be used when a witness has a language deficiency.
111.

~e

Court finds that that five cited questions were either necessary for

understanding or to develop Martinez's testimony, or were a repetition or clarification of
Martinez's previous answer, or were non-leading.

19

App. A127

ALLEGED CUMULATIVE EFFECT

112. The Court finds, based on the credible affidavit of trial counsel Odom, that trial
counsel Odom was hired to represent the applicant In his capital murder trial; that trial
counsel reviewed the State's file, Including the offense report, the autopsy report, and
witness statements; that trial counsel talked with the applicant many times about the case

pre.tri~~l'ons, Induding
motions to suppress evidence and the Identification testimony.; that WI counsel retained

and the law; that bial counsel prepared and flied over twenty

~

private Investigators and expert witnesses; that trial counsel In~ed witnesses, talked
to the applicant's family and visited the scene of the offen£f~at trial counsel obtained
discovery from the State; that trial counsel talked with
and life; that trial counsel hired a mental

o IIcant about his background

th~p

of3

healt~pert

~~

on the issue of future

dangerousness; and, that trial counsel presented I ~atlng evidence. State's Writ Exhibit

o~

B, February 22, 2008 affidavIt of counsel Odom. ~

~d, that trial counsel was familiar with the
law and facts In the applicant's case; th~rlal counsel made timely objections; that trial
113. The Court finds, based on the

@

counsel cross-examined State's WI~S; that trial counsel presented a defensive theory;
that trial counsel presented
presented mitigating

the defense case-in-chlef; that trial counsel

eVldenc~punlshment;

and, that trial counsel made coherent jury

0rtJ

argument.
114.

eVI~ during

The

applicant's case.

COy~ndS
~~

that trial counsel rendered effective representation In the

115. The Court finds that the applicant presented on direct appeal the claim that he
was unfairly surprised by the admission of the extraneous robbery of the Tsang family, and
the Court of Criminal Appeals rejected such claim. Dennes, No. 72, 966, slip op. at 15.

20
App.A128

116. The Court finds that TEX. CODe CRIM. PRoe. art. 37.071 does not require that the
State give notice of extraneous offenses in capital cases.

117. The Court finds that, on December 4, 1996, the applicant filed a written motion
requesting notice of all extraneous offenses the State Intended to use at punishment; that,
on January 13, 1997, trial counsel Informed the trial court that he had be~old the State
might Introduce an extraneous aggravated robbery offense but he ha~ot been given
details of the robbery; that the Stale noted It was not obligated bif&,a to give notice of

extraneous offenses to be offered at punishment In a capital
give trial counsel notice and allow him to read the offense

tr~~t the

State agreed to

r~f any extraneous offense

Q

the State proposed to offer; and, that the trial court orde~t at notice of any punishment
'(Q

o~

extraneous be give two weeks or fifteen days prior to t~~ Id., slip at 15-6.

£;{@i

11B. The Court finds that a hearing was heYn the extraneous matter on August

o~

18, 1997, after Individual voir dire as to capl~'rssues but before the entire panel was
questioned on general principles of law;

~
tt~al counsel

complained that the notice given

on August 13, 1997 was not timely beca~ it was less than fifteen days prior to trial; that

@

trial counsel filed a motion for co~~ce claiming he had not been given the necessary
time to counter the extraneous ~~ncei that trial counsel conceded that the State had
"hinted" of evidence of

som~e

prompted trial counsel

t~

extraneous offenses.

119. The

Invasions; and, that the lack of detailed information

his motions for notice of any evidence to be offered on

Z~IIP op. at 16.
fJf

rJIt

.

finds that the jury returned a guilty verdict on August 28, 1997, and

punishment

~~he next daYi that trial counsel renewed his objection to the admission of

extraneous

e~ence

at the beginning of the punishment phase; and, that the trial court

overruled the objection. Id.
120. The Court of Criminal Appeals, when holding on direct appeal that the applicant
failed to show he was unfairly surprised by admission of the extraneous offense or that the
trial court erred In denying his motion for continuance, noted that the applicant conceded

21
App. A129

, ,

that he vaguely knew about the possibility of the extraneous offense being offered several
months prior to trial; that he read the offense report describing the extraneous offense
more than fifteen days prior to the offer of the extraneous offense testimony; that the
applicant received notice at least fifteen days prior to the time the evidence was actually
offered even though he was not given fifteen days notice prior to trial; th~othing shows
that the applicant was prohibited from preparing for the admission ~he extraneous
offense; and, that nothing shows that the applicant was
prospective jurors about their views on extraneous offenses.

prev~from

Id,/~P' at 17.
n

121.

The Court finds that, on direct appeal

questioning

-~

~he

evidence f Co elan's

applicant's conviction, the

applicant contended that the trial court allegedly eJadmltting evidence of Copeland's

.

~..

out-of-court Identification;

that the

Impermissibly suggestive; and, that

photo

o~ad

and

procedure

were

allegedly

c:;.,pela~coort Identification was aUegedly tainted

by Impermissible out-of-court procedures. ~,,' slip op. at 18-9.
©~

122. The Court finds that the ~urt of Criminal Appeals, on direct appeal of the
applicant's conViction, held that'ithe totality of the Circumstances, it could not say
that the trial court abused

r,
Its ~~tlon

in finding that the pretrial Identification procedures

were not Impermissibly s"l:f"e and did not cause c:;.,peland to misidentify the applicant
Id., slip op. at 21.

~

o@

123. The ~~f Criminal Appeals,. on direct appeal of the applicant's conviction,
noted that, durln~e hearing to suppress Identification, Copeland testified that detectives
showed him $oto spread - two sheets of six photos each - around February 5, 1996;
that he chose the photo of the person who looked "familiar" and who had similar facial
features to the person who shot him; that he attended a lineup a few weeks later that
Included the applicant, his brother, and four fill-Ins; that he knew at the time of the lineup
that police had arrested someone; and, that he Identified the applicant In the lineup as the

22
App. A130

person who looked the closest to the person who shot him but noted that the applicant now
had shorter hair and was not wearing glasses or a mustache. Id., slip op. at 20.

124. The Court finds that the Court of Criminal Appeals, on direct appeal of the
applicant's conviction, noted that it was reasonable for Copeland to give only a "tentative"
identification at the lineup based on the fact that the applicant was wear~ a disguise at
the time of the shooting; that photos of the photo spread shows twelv~en with similar
features and characteristics; and, that the applicant was placed In
men with similar features and characteristics to his own,

~p with five other

Includln~wn brother.

[d.

12S. The Court finds that Copeland did not IdenUIy a?:f from the photospread as
the shooter; Instead, Copeland testified that he viewed
photo arrays each comprised of six men; that he did

~~ s Exhibits 33 and 34 -

oJ?tF
~dentlfy anyone

AfiffJ --

two

in State's Exhibit

33; and, that #S in State's Exhibit 34 was the clo~ to the person who shot him but he
o~~
was not the man who shot him (XXV R.R. at 1~'l50-7).

126. The Court finds, according to
that, to the best of Smyth's knowledge,

~credlble

affidavit of prosecutor Don Smyth,

t~pPlicant was not in either of the photospreads

~hlblt A, January II, 2002 affidavit of prosecutor
0;

shown to David Copeland. State's

Smyth.

127. The Court finds ~ the photo spreads, State's Exhibit 33 and 34, cannot be

impermiSSlbly~estive considering that Copeland did not Identify anyone in
the photo array as the~~oter and that It Is likely that the applicant was not included In the
considered

arrays.

128.
Informed

~~
!~~urt finds that there Is conflicting testimony as to whether Copeland was

Pri~ the live line-up that a suspect had been arrested:

Sergeant Miller testified

he called Copeland to come view the lineup and he did not tell Copeland that someone had
been arrested or that a suspect was going to be In the lineup (VI R.R. at 19); Copeland
testified that he was told that an arrest had been made and he needed to view a lineup (VI
R.R. at 75).

23
App. Al31

129. The Court finds that Sergeant Miller testified that he told Copeland that the

person who shot him mayor may not be in the lineup and he was not required to pick out
anybody In the lineup (VI R.R. at 20); Copeland also testified that he was told he was under
no obligation to pick anyone out of the lineup (VI R.R. at 75).

130. The Court finds that whether Copeland was told someone had been arrested
does not render the lineup Impermissibly suggestive; It Is likely
suppose that an arrest had been made when asked to view a lineup.

that~ltness would
r(j

~

dld~ositlvelY

131. The Court finds that Copeland testified that he

identify the

applicant as the shooter until July 22, 1997, during the Id~cation hearing; that his

o

Identification at the hearing was based on his recollectio~f1the shooting; and, that his
.

Identification of the applicant at trial was from his

o~

reco~lon
~t@

from the shooting as It was

an event he would never forget (XXVI R.R. at 24, 4~, 72) .
132. The Court finds that Copeland had

face, build, and height at the time of the

..~

~~uate

opportunity to view the applicant's

tZh~lng in the well-lit lobby (VI R.R. at 66-

~~

71)(XXV R.R. at 139, 148); that Copelan~stlfled he was very attentive when he saw the
applicant in the building lobby and
R.R. at 59, 65, 68-71, 87)(XXV
description of the applicant
composite sketch that is

lS9)(XXVI R.R. at
tentative
and a

A~ble to describe the applicant with so~e detail (VI

~t 126-9, 133, 139-40);

~

the shooting and was able to assist In developing a

~rkablY

1~

that Copeland gave a detailed

similar to the applicant (XXV R.R. at 141,2, 146-8,

that Copeland was positive In his identification after giving a

identific~~ the applicant who had shorter hair and was not wearing glasses

mustac~he lineup as he did during the offense and who donned a mustache and

glasses at

hi~:1 at the State's request (VI R.R. at 77, 91,

142-3, 156); and, that the

February 23, 1996 lineup was held just under a month after the January 24, 1996 shooting
(VI R.R. at 19, 7S)(XXV R.R. at 108, 112, 131).

133. The Court finds, based on the totality of the circumstances, that Copeland's incourt Identification of the applicant was reliable.

24

App.A132

CONCLUSIONS OF LAW

First Ground: trial court allegedly restricted cross-examination of Antonio Ramirez re his
motive for testifying

1. The trial court properly allowed the applicant to cross-exam Antonio Ramirez
concerning his motive for testifying, Including the possibility of Ramirez being prosecuted for
making a silencer, his possible Involvement, If any, In the capital murder~ether he had
.been told he could be charged with capital murder, whether he had

~told

he was not

going to be prosecuted for making the silencer, whether he might !let a reward for giving
o~-

Information to the police, whether he had an agreement

~ HPD

or INS, and the

o~

consequences of his wife being an Illegal allen (XXVII R.R. ~2-41). Carpenter v. State,

"'k~

979 S.W.2d 633, 634 (Tex. Crlm. App. 1998}(noting th~~APoslng witness' motivation for

'h~
testifying Is proper purpose of cross-examination). ~(g;
2.

~

The trial court properly sustained tQ~osecutor's objections to the applicant

asking Ramirez If anyone told him what

the~ment was for "this type" of murder and

about his \\deallngs with avoiding a state ~Emcer law and any potential dealings Involving
any Involvement in a murder case,"
Involved In the capital murder

©

b~d

on there being no evidence that RamireZ was

andJ&~
on It being Irrelevant whether Ramirez was aware
~~

of the punishment for capital ;;Arnlaer (XXVII R.R. at 37, 41). See Carroll v. Stare, 916
S.W.2d 494, 498 (Tex.
when a subject is
3. The

crl~pp,

1996)(noting trial court may limit cross-examination

eXha~Q, or to prevent repetition or marginally relevant Interrogation).

oc::"...f@}
falls to show that the trial court improperly restricted his cross-

ap~l~

examination of R~ez concerning his motive for testifying.
Two:

d

. If'

rial b ed on OffT,

rd.
inal

4. The applicant's habeas complaint that he was allegedly denied a fair trial based
on Officer James Kay's testimony concerning criminal types because Kay not have been
qualified as an expert witness or that, as an expert, Kay could not testify as to whether a
witness was truthful does not comport with the applicant's trial objection to what Kay

25
App. A133

thought from the men's demeanors, the applicant's objections based on speculation and
non-responsiveness, his objection of "asked and answered" and his hearsay objection (XXV
R.R. at 73-4).

Because the applicant's habeas complaint does not comport with the

applicant's objections at trial, the applicant's habeas complaint Is waived. See Carmona v.

state, 941 S.W.2d 949, 953 (Tex. Crimi App. 1997)(holding that trial objection based on
attomey-dlent privilege does not preserve error for appellate dalm

ba~work-product

20~holdlng defendant
~
did not preserve error where complaint on appeal differed from t~jectIOn).
doctrine); Guevara v. State, 97 S.W.3d 579, 583 (Tex. Crim, App.

5. In the alternative, Kay properly testified that the ~~n's demeanor was not of
a criminal type based on his perception of the men the

nlg~~he offense and based on his
'iff
o

eighteen years experience
dealing with suspects.
.
witness may testify in the form of an opinion

Se~x.
R.
~~~

EVID. 701 (stating that a

w~ that opinion is rationally based on

~
perceptions of the witness and is helpful to clear ~
__erstanding of witness' testimony).

Ka~stimOny - that the two men were released
without being charged and that he did ~hink they were involved in the offense· was
6. In the alternative, any harm in

cured by essentially the same te!l"y being admitted without objection through the
testimony of Officer Terry and s * t Waltman (XXV R.R. at 39-41, 46-7}(XXVIII R.R. at
180-3)(XXIX R.R. at 43-5).

~ and

cf. Anderson v. State, 717 S.W.2d 622, 628 (Tex.

1986)(hOldlng~OperIY admitted hearsay harmless If other evidence admitted
without objection tha~~es same fact that inadmissible evidence sought to prove).

Crim, App.

a~t falls to show that Kay's testimony either implies or creates an
impression t~~~ applicant was guilty because he was not released in contrast to the two
7.

men who

The

we~eleased

the night of the offense without being charged. The applicant fails

to show that he was denied a fair trial or unfairly harmed by Kay's testimony. See Ex parte
Empey, 757 S.W.2d 771, 775 (Tex. Crim, App. 1990)(holdlng that defendant's bare

allegation Insufficient to meet his burden of proof in habeas proceeding).

26
App.A134

Ground Three;
alleged dealal of fair trial based on admissjon of photographs of
complainant's body at the scene of qffense

8.

Based on the lack of objection to the admission of State's Exhibit 116, a

photograph of the applicant's body, the applicant Is procedurally barred from advancing his
habeas complaint concerning the admission of such photograph.

See Tex. R. App. P.

33.1(a); Hodge v. State, 631 S.W.2d 754, 757 (Tex. Crlm. App. 1978); s~so Hughes v.
Johnson, 191 F.3d 607, 614 (5 th Clr. 1999)(holdlng that defendant's

~ to comply with

Texas contemporaneous objection rule constituted adequate and ~dependent state-law
o~-

~

procedural ground sufficient to bar federal habeas).

o~

. 9. In the alternative, the applicant's complaint con~ng the admission of State's
Exhibit 116 is without merit as Is the applicant's habeas
of photographs labeled State's Exhibits 114,
I

e~laint concerning the admission

115,~nd
~.

119; the trial court did not

abuse Its discretion In admitting the noted photog~hs. See WilJlams

.

V.

State, 958 S.W.2d

186, 195 (Tex. Crim. App. 1997){holding adefllity of photos within sound discretion of
~

trial court).
10.

The trial court properly

©

~Itted

the Cited photographs - photos that are

~Jlariy gruesome and that depict matters found in

probatiVe and not cumulative or

S~v.; v.

State, 913 S.W.2d 511, 519 {Tex. Crim. App.

admissible testimony.

See

1995)(holdlng that trial

cou~s not err In admitting gruesome photos Into evidence that

depict defendant's

han~Q;

noting nothing was depicted in photos that was not also in

o~

•

admitted testimo~Q'hamberlaln v. State, 998 S.W.2d 230, 237 (Tex. Crlm. App.
1999)(holding fa~1.t some may find photos gruesome does not necessarily render them

Inadmlsslble~~
11.

The trial court properly admitted the cited photographs Into evidence; their

probative value is not substantially outweighed by possible pr!=!judicial effect; the photos are
few in number, depict the complainant's wounds, the position of his body, and provide a
visualization of objects around his body, and were the subject of admissible testimony at

27

App. Al3S

trial. Id. (noting that because photos portray reality of offense, they are powerful visual
eVidence, probative of Important aspects of the State's case); see a/so Williams, 958 S.W.2d
at 196 (holding photos' probative value not substantially outweighed by possible prejudicial
effect). The applicant falls to show that he was denied a fair trial by the admission of the
cited photographs.

<0

12. The applicant falls to show that he was denied due proc~and a fair trial when

o~

the State elicited testimony regarding the arrest warrant for

~

o~

Mad~v.

testimony was neither Irrelevant nor prejudicial. See
564 {Tex. Crim. App. 1985)(holding State is entitled

-~
'h~

to~ve

applicant; the elicited

State, 682 S.W.2d 563,

circumstances surrounding

~fPf

defendant's arrest).

~

Ground Five: alleged Ineffective assistance of co~

LACK OF OBJECTION TO ALLEGED IMPLICATION T~UDGE HAD DETERMINED APPLICANT'S GUILTY
AFTER SEEING PROBABLE CAUSE AFFIDAVIT
~V~

13.

Trial counsel Is not

ineffec~ based on an alleged failure to object to a

@

.

purported Implication that a jUd9~~ allegedly determined the applicant's guilty after
seeing the probable cause
testimony about the judge

affi~ in light of the fact that trial counsel objected to

re~lng the probable cause affidavit attached to the warrant, .

objecteC1~en the witness began explaining how an arrest warrant Is
obtained, and trial COl.l,..~'s objections were sustained, (XXVII R.R. at 154). See and cf.

and trial counsel

.~
DeRusse V. State, ~ S.W.2d 224 (Tex. Crlm. App. 1979)(holdlng that having received the

©3

relief reques~ror, If any, is cured); Calloway

V.

State, 743 S.W.2d 645, 651-2 (Tex.

Crlm. App. 1988)(holding that trial court's ruling, even If given for wrong reason, Is not
reversible If ruling was correct on any theory of law); Tong v. State, 25 S.W.3d 707, 712
(Tex. Crlm. App. 2000)(cltlng Strickland, 466 U.S. at 689)(holding that review of counsel's
representation is highly deferentiali counsel Is afforded strong presumption that actions fall
within wide range of reasonably effective assistance).

28
App.A136

14.

Trial counsel cannot be considered Ineffective for the reasonable defensive

strategy of counsel deciding that an instruction to disregard was unnecessary after the trial
court sustained his noted objectIons and counsel believing that an instructIon to dIsregard
only emphasizes the comment or testimony If an Issue is not per se revers~ble error. Solis

v. Slale, 792 S.W.2d 95,100 (Tex. Crim. App. 1990)(revlewlng court wlI~econd-guess
through hindsight" the strategy of counsel, nor will fact that another a
pursued a different course support a finding of Ineffectiveness);

ey might have

se~rCla v. State, 57
~

reviewi~ourt "commonly will
~
assume a strategic motivation If any can possibly be Imaglne~~d will not find challenged

S.W.3d 436, 440 (Tex. Crlm. App. 2001)(holdlng that

~

cond~

conduct constitutes defiCient performance "unless

o

competent attorney would have engaged in it.").
LACK OF OBlEC1'ION TO ALLEGED HEARSAY

:r?(!t

.

as so outrageous that no

.~

A~
~

,~

15. Trial counsel Is not Ineffective for f~H,g to object to testimony that does not
constitute objectionable hearsay, I.e.,

~
"He~ the

fill-Ins were fine" (XXVII R.R. at 167).

TrIal counsel is not Ineffective for no~bjectlng to Ellis McCullough's present sense
Impression regarding the

composl~ the line-up and his question about an artlde of

clothing or to David copelan~ present sense Impression concernIng his tentative
Identification of the

apPllcan~

S.W.3d 677, 688 (Tex.
definition of hearsay

~?APP'

his viewing of the lineup.

See Martinez v. State, 17

2000)(holding that Item of evidence that falls to meet

~~ hearsay); TEX. R. EVID. 803(1) (noting

present sense ImpreSSion

exception to hearS#
16.

~unsel Is not Ineffective for not objecting to the State's eliciting of the

same evidence through Sergeant Miller that trial counsel essentially presented through
defense witness Ellis McCullough and through cross-examination of David Copeland. See

and cf. Anderson v. State, 717 S.W.2d 622, 628 (Tex. Crlm. App. 1986)(holdlng Improperly
admitted hearsay harmless If other eVidence admitted without objection that proves same
fact that Inadmissible evidence sought to prove); see also TEX. R. EVID. 801(e)(1)(C), stating

29
App.A137

that a statement Is not hearsay If the declarant testifies at trial, is subject to crossexamination concerning the statement, and the statement Is one of identification of a
person made after perceiving the person.
LACK OF OBJECTION TO ALLEGED LEADING QUESTIONS OF ESTRELLA MARTINEZ

17. Trial counsel Is not ineffective for not objecting to the five cited questions the

Phra~ the manner

State asked of Estrella Martinez - questions that were necessarily
they were asked because of Martinez's lack of knowledge of

EngllSh~ the need for an
~

Interpreter, Martinez's tendency to ramble, and the need for repet~
and/or clarification
~~..
. of
her answers at times. See Hernandez v. State, 643 S.W.2d~~, 400-1 (Tex. Crlm. App.

~c

1982)(notlng that leading questions may be permltte~When witness has language

~~

deficiency); TEX. R. EVID. 611(c) (stating that
necessary to develop testimony of witness).
18.

lead~questions

~~
~

may be used when

~~
Trial counsel Is not Ineffective for~'t objecting to the five cited questions;

to~nez had to be carefully crafted because of
the language barrier; trial counsel Is not i~ective for thinking that the five cited questions

counsel was aware that certain questions

were not objectionable as leading J o e of the difficulty in eliCiting Martinez's testimony

propound@~~ questions In the manner asked. See Garcia, 57
S.W.3d at 440 (holding revle~court "commonly will assume a strategiC motivation If any
and the necessity for

Imagln~and will not find challenged conduct
performance "unless ~ct was so outrageous that no competent

can possibly be

engaged In It.").

constitutes deficient
attorney would have

n~~Q
~

~~

ALLEGED CUM~~ . EFFECT

19. The applicant fails to show Ineffective assistance of counsel based on an alleged
cumulative effect of alleged erron the applicant fails to show deficient performance much
less harm. See Strickland

v. Washington, 466 U.S. 668 (1984); See Mallett v. State, 65

S.W.3d 59, 63 (Tex. Crlm. App. 2001)(holdlng review Is highly deferential and presumes
counsel's actions fell within wide range of reasonable and professional aSSistance); Bone v.

30

App.A138

State, 77 S.W.3d 828, 836 (Tex. Crlm. App. 2002)(notlng "[a] vague, Inarticulate sense

that counsel could have provided a better defense Is not a legal basis for finding counsel
constitutionally Incompetent.").
Ground Six: alleged denial of fair trial and due process based on alleged unfair surprise of
admission of extraneous offense during punishment

20. Because the applicant's habeas claim of alleged unfair surpri~~ncernlng the
admiSSion of the extraneous robbery of the Tsang family was

ralSed~jected on direct

appeal, It need not be considered in the Instant habeas proce~~ or any subsequent
proceeding. See Ex parte McFarland, 163 S.W.3d 743, 748

(Te~m. App. 200S)(holdlng

that claims that have been raised and rejected on direct

~al normally cannot be re-

o~

:~

litigated In habeas proceedings); Ex parte Acosta, 672 ~2d 470, 472 (Tex. Crlm. App.

~

~~

1984).

21. In the alternative, the applicant fall~ ~now that he was unfairly surprised by

admission of the extraneous offense or
continuance.

tJ1.t~al court erred In denying his moijon for

The applicant conceded thai-.he vaguely knew about the possibility of the

~

extraneous offense being offered se~81 months prior to trial; that he read the offense
report describing the

.

extraneous~se

0

extraneous offense testimony; ~
the evidence was actually
trial;

more than fifteen days prior to the offer of the

e received notice at least fifteen days prior to the time

o~ even though he was not given fifteen days notice prior to

t~at nothing ShO~Q.t he was prohibited from preparing for the admission of the
oW}

extraneous offen~d, that nothing shows he was prevented from questioning
prospective juro~out their views on extraneous offenses. Dennes, slip op. at 17; see
also TEx.

CO~. PROC. art. 37.071 (containing no requirement that State give notice of

extraneous offense In capital cases).
Gc9unds Seven through Nine; trial

court al/egedly erred In admitting evidence of Cpoeland's

PlJpto:;pread Identlflcatlon. his out-of-court Identification and his In-court Identlflcatlon

22.

Because the applicant's habeas claim that the trial court erred in admitting

evidence of David Copeland's photospread Identification, his out-of-court Identification and

31

App. A139

•

his In-court Identlncatlon was raised and rejected on direct appeal, it need not be addressed
In the Instant habeas proceeding or any subsequent proceedings.

See McFarland, 163

S.W.3d at (holding that claims that have been raised and rejected on direct appeal normally
cannot be re-Iltlgated In habeas proceedings); Acosta, 672 S.W.2d at 472.
23. In the alternative, under the totality of the circumstances, the ~licant fails to
show that the trial court abused Its discretion In finding that the pr~l Identification
procedures were not Impermissibly suggestive and did not cause

Co~nd to misidentify
~

~

the applicant. Dennes, slip op. at 21.

24. The applicant falls to show that Copeland's out-o~~ Identification and his In-

CIbly suggestive

court Identification of the applicant was based on

Impe~ls

Instead, Copeland's Identifications were based on his

re-~tlon of the applicant at the time

of the shooting.

o~

procedures;

~'-

~2d 770, 771-2 (Tex. Crlm. App •
..~~ effect of any suggestive Identification
agalns~y

See Loserth v. State, 963

1998)(noting five factors to be weighed

to~ of circumstances); Harris v. State, 827
l~(hOldlng lineup not rendered unnecessarily

procedure In assessing reliability under
S.W.2d 949, 959 (Tex. Crlm. App.

~

suggestive when witness told It co~~ a suspect because witness would normally assume

(»

that to be the case).
25. The applicant
Accordingly, It Is

fall~emonstrate that his conviction

was unlawfully obtained.

recomm~ to the Texas Court of Criminal Appeals that relief be denied.

o~

~

~

~

32
App.A140

••

•

Cause No. 7S0313-A
EX PARTE

REINALDO DENNES,
Applicant

§

IN THE 263RD DISTRICT COURT

§

OF

§

HARRIS COUNlY, TEXAS ~

~
Q

ORDER

~

THE CLERK IS HEREBY ORDERED to prepare a

transcrlP~1

papers In cause no.

7S0313-A and transmit same to the Court of Criminal APpealS~Vlded by Article 11.071 of

~

the Texas COde of Criminal Procedure. The transcript Sh~ clude certified copies of the
.~

o~

~
A@f

following documents:

~

1. all of the apPlicant'sff.:lea~1 filed In cause number
7S0313-A, Including his a
tlon for writ of habeas
corpus and any supple
or amended applications for
writ of habeas COrpUSi
~.

2. all of the Responder6 pleadings filed In cause number
750313-A, Includl~he Respondent's Original Answer;

fl~

3. this court's
of fact, conclusions of law and order
denying rell~ cause no. 7S0313-Ai
4. any ~ro Findings of Fact and Conclusions of Law
subml
y either the applicant or Respondent/State In
caus
• 7S0313-A;
; _ and exhibits flied In cause no. 7S0313-A;
~~he Indictment, judgment, sentence, docket sheet, and
_,~

'Y

appellate record In cause no. 750313, unless they have
been previously forwarded to the Court of Criminal
Appeals.

THE CLERK IS FURTHER ORDERED to send a copy of the court's findings of fact and
conclusions of law, Including Its order, to applicant's counsel: Jerome Godinlchi 929 Preston

33

App.A141

st.; Houston, Texas 77002 and to the Respondent/State: Roe Wilson; Harris County District
Attorney's Office; 1201 Franklin, Suite 600; Houston, Texas 77002-1901.

BY THE FOLLOWING SIGNATURE, THE COURT ADOPTS THE STATE'S PROPOSED FINDINGS
OF FACT AND CONCLUSIONS OF LAW IN CAUSE NO. 7S0313-A.

AUS 2 J 2BD

SIGNED this _ _ day of _ _ _ _ _ _ _-', 2013.

34
App. A142

